<html>
<title> - OPTIONS AND ISSUES FOR NASA'S HUMAN SPACE FLIGHT PROGRAM: REPORT OF THE ``REVIEW OF U.S. HUMAN SPACE FLIGHT PLANS'' COMMITTEE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                     OPTIONS AND ISSUES FOR NASA'S
                   HUMAN SPACE FLIGHT PROGRAM: REPORT
                  OF THE ``REVIEW OF U.S. HUMAN SPACE
                        FLIGHT PLANS'' COMMITTEE

=======================================================================


                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 15, 2009

                               __________

                           Serial No. 111-51

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
51-928                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                            C O N T E N T S

                           September 15, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........    29
    Written Statement............................................    30

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    31
    Written Statement............................................    33

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    34

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    35

Prepared Statement by Representative Gabrielle Giffords, 
  Chairwoman, Subcommittee on Space and Aeronautics, Committee on 
  Science and Technology, U.S. House of Representatives..........    35

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    37

                                Panel I:

Mr. Norman R. Augustine, Chair, Review of U.S. Human Space Flight 
  Plans Committee
    Oral Statement...............................................    37
    Written Statement............................................    39
    Biography....................................................    42

Discussion
  Constellation Program Status...................................    43
  Future Options for NASA........................................    45
  Closing the Shuttle/Ares Gap...................................    45
  Evaluating Crew Safety.........................................    46
  Viability of the Commercial Sector to Support NASA Human Space 
    Flight.......................................................    48
  Importance of Funding Human Space Flight.......................    50
  Should the Columbia Accident Investigation Board Findings Apply 
    to All Human Space Flight?...................................    50
  Concerns About Commission's Findings...........................    52
  Finding Extra $3 Billion for NASA..............................    54
  Implications of Canceling Ares I...............................    56
  Consequences of Not Increasing NASA's Budget...................    56
  ISS and Mars...................................................    57
  Comments on Commission's Findings..............................    59
  Determining the $3 Billion Increase............................    60
  Risks of Commercial Ventures...................................    61
  NASA Skills and R&D............................................    62
  Workforce Sustainability.......................................    64
  Space Shuttle Recertification..................................    65
  Possibilities Without $3B Increase.............................    66
  Inspiring Students With NASA's Current Budget..................    66
  Serving President Kennedy's Vision for the Space Program.......    67
  Has NASA Ever Been Fully Funded?...............................    69
  International Cooperation for Human Space Flight...............    70
  American Leadership in Space...................................    71
  Current State of NASA..........................................    72

                               Panel II:

Vice Admiral Joseph W. Dyer, USN (Ret.), Chair, Aerospace Safety 
  Advisory Panel, NASA; President, Government & Industrial Robots 
  Division, iRobot Corporation
    Oral Statement...............................................    74
    Written Statement............................................    76
    Biography....................................................    79

Dr. Michael D. Griffin, Eminent Scholar and Professor, Mechanical 
  and Aerospace Engineering, University of Alabama, Huntsville
    Oral Statement...............................................    79
    Written Statement............................................    81

Discussion
  Shuttle Extension..............................................    87
  Constellation Program With Budget Augmentation.................    87
  Effect of NASA Budget Cuts.....................................    88
  Commercial Transportation to the ISS...........................    90
  Transforming NASA Expertise to Private Industry................    92
  Continuation of Constellation Development......................    93
  Budget Limitations and Miscalculation..........................    94
  Methodology of Cost Assessments................................    96
  Completion Dates for Constellation.............................    96

             Appendix 1: Answers to Post-Hearing Questions

Mr. Norman R. Augustine, Chair, Review of U.S. Human Space Flight 
  Plans Committee                                                   100

Vice Admiral Joseph W. Dyer, USN (Ret.), Chair, Aerospace Safety 
  Advisory Panel, NASA; President, Government & Industrial Robots 
  Division, iRobot Corporation                                      110

Dr. Michael D. Griffin, Eminent Scholar and Professor, Mechanical 
  and Aerospace Engineering, University of Alabama, Huntsville      113

             Appendix 2: Additional Material for the Record

Letter to The Honorable Gabrielle Giffords from Gary P. Pulliam, 
  Vice President, The Aerospace Corporation, dated March 19, 2010   119


OPTIONS AND ISSUES FOR NASA'S HUMAN SPACE FLIGHT PROGRAM: REPORT OF THE 
         ``REVIEW OF U.S. HUMAN SPACE FLIGHT PLANS'' COMMITTEE

                              ----------                              


                      TUESDAY, SEPTEMBER 15, 2009

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 2:00 p.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                     Options and Issues for NASA's

                   Human Space Flight Program: Report

                  of the ``Review of U.S. Human Space

                        Flight Plans'' Committee

                      tuesday, september 15, 2009
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

I. Purpose

    To examine the summary report of the Review of U.S. Human Space 
Flight Plans Committee that was established by the National Aeronautics 
and Space Administration (NASA) under the direction of the Office of 
Science and Technology Policy, and to consider implications and related 
issues for NASA.

II. Witnesses

Panel I

Mr. Norman Augustine, Chair, Review of U.S. Human Space Flight Plans 
Committee

Panel II

Vice Admiral Joe Dyer USN (Ret.), Chair, Aerospace Safety Advisory 
Panel, NASA

Dr. Michael Griffin, Eminent Scholar and Professor, Mechanical and 
Aerospace Engineering, University of Alabama in Huntsville

III. Key Issues for the Hearing

        <bullet>  How was the review committee able to compare options 
        that differ significantly in terms of technical and 
        programmatic maturity, understanding of risk, and fidelity of 
        cost estimates? What are the limitations of the review 
        committee's approach, and how should Congress and the 
        Administration assess the options in light of those 
        limitations?

        <bullet>  Given the differing degrees of technical, 
        programmatic, and cost estimation maturity of the various 
        options, what level of confidence can Congress and the 
        Administration have that any of the alternative options can 
        actually fit into the enhanced funding envelope proposed by the 
        review committee in its summary report?

        <bullet>  Since the Constellation program is the program for 
        which funds have been authorized and appropriated over the last 
        four years and for which design, development, and test 
        activities have been underway over that same period, did the 
        review committee attempt to develop an option that would 
        maintain the Constellation program development path but that 
        would fit into the enhanced funding envelope proposed by the 
        Committee by rephasing of milestones, initial exploration 
        destinations, etc.? If so, why was it not included in the final 
        set of options contained in the summary report?

        <bullet>  The same historical cost risk factor [1.51] appears 
        to have been applied by the review committee to all of the 
        options regardless of their level of technical and programmatic 
        maturity. Does it make sense to apply the same risk factor to a 
        program that has completed design reviews and hardware testing 
        activities that is applied to options for which no comparable 
        milestones have yet been achieved and for which the fidelity of 
        the original cost estimate is correspondingly low?

        <bullet>  How can Congress and the Administration meaningfully 
        compare the safety implications of the Constellation program of 
        record and the other options in light of the review committee's 
        decision not to attempt to distinguish between the levels of 
        safety of the various options?

        <bullet>  What was the review committee's assessment of the 
        technical maturity, program management, and cost control of the 
        Constellation program? Did it find it to be a well executed 
        program within the resources available or a flawed program?

        <bullet>  How high should the threshold be for a decision to 
        scrap the existing Constellation program that has been under 
        development for four-plus years? What circumstances would 
        justify abandoning the program at this point in its 
        development?

        <bullet>  If the Administration and Congress were to maintain 
        the outyear budget plan that accompanied the FY 2010 NASA 
        budget request and not provide enhanced funding, how should 
        those funds be allocated?

        <bullet>  To what extent do the options presented by the review 
        committee address the goals and objections for exploration that 
        Congress has authorized in the NASA Authorization Acts of 2005 
        and 2008?

        <bullet>  How would the review committee rank the various 
        options each other and against the Constellation program?

        <bullet>  What driving assumptions (e.g., cost, programmatic, 
        risk) steered the review committee in determining its final 
        options? How, if at all, are the assumptions that guided the 
        conclusions in the Summary Report different from those 
        discussed during the review committee's last meeting on August 
        12, 2009?

        <bullet>  How did the review committee develop measures and 
        criteria by which to evaluate the options and their ability to 
        meet the direction set by the Office of Science and Technology 
        Policy for the review?

        <bullet>  How does the sustainability of the workforce and 
        expertise needed to pursue the review committee's human space 
        flight options differ under each of the options proposed?

        <bullet>  How should the review committee's finding that 
        ``interim reliance on international crew services'' is 
        ``acceptable,'' be interpreted in terms of the gap in the 
        Nation's ability to launch humans into space? What, if any, 
        strategic implications of the gap did the review committee 
        consider? How, if at all, does the gap affect implementation of 
        any of the options presented by the review committee?

        <bullet>  When making a decision on an option, how do Congress 
        and the Administration reconcile the review committee's 
        statements that it treated human safety as a ``sine qua non'' 
        while also stating that it was ``unconvinced that enough is 
        known about any of the potential high-reliability launcher-
        plus-capsule systems to distinguish their levels of safety in a 
        meaningful way''?

        <bullet>  What are the implications of the recommended options 
        on NASA's ability to sustain a balanced portfolio of science, 
        aeronautics, human space flight and exploration?

        <bullet>  How, if at all, do the options presented by the 
        review committee contribute to the development and evolution of 
        international collaboration for human exploration over the 
        long-term? How do the options compare in that regard? How did 
        the review committee assess the international capabilities that 
        could be potentially leveraged for each option?

        <bullet>  To what extent do the integrated options require 
        technologies and operational techniques or other research and 
        development that can only be conducted on the International 
        Space Station? How did the review committee assess the time 
        needed to achieve such R&D into its estimates of the timeline 
        for each of the proposed options?

        <bullet>  What is the basis for the review committee's estimate 
        that commercially provided crew service could be available a 
        year earlier than the currently planned Ares/Orion program?

        <bullet>  Stimulating a ``vigorous and competitive commercial 
        space industry'' as the review committee suggests would seem to 
        depend on a robust government-sponsored exploration program. 
        What did the review committee assume about the existence of a 
        commercial market that would allow the government to be a 
        marginal user of commercial services?

        <bullet>  To what extent do the options recommended require 
        major technology developments, breakthroughs, or demonstrations 
        of advanced technologies? For example, how critical is the 
        capability to provide in-space refueling to enable the 
        implementation of the options presented by the review 
        committee? Are the vehicles and pathways for achieving 
        technology advancements in place? What level of programmatic 
        risk is introduced if an option is dependent on achieving such 
        advancements in advance?

        <bullet>  How did the review committee assess the extent to 
        which each option could engage the public and the younger 
        generations on whom the Nation will depend to carry out human 
        exploration plans into the future?

        <bullet>  What is the basis of the $3 billion increase above 
        the FY 2010 budget profile for exploration that the review 
        committee concluded was needed to support a meaningful human 
        space flight program? What does that $3 billion include and 
        what is the increase each year that the review committee 
        thought was needed to reach that level of investment?

IV. Overview of Review of U.S. Human Space Flight Plans

    On May 7, 2009, the Office of Science and Technology Policy, 
Executive Office of the President, announced the ``launch of an 
independent review of planned U.S. human space flight activities with 
the goal of ensuring that the Nation is on a vigorous and sustainable 
path to achieving its boldest aspirations in space.'' According to the 
press release, John P. Holdren, Assistant to the President for Science 
and Technology and Director of the Office of Science and Technology 
Policy stated: ``President Obama recognizes the important role that 
NASA's human space flight programs play in advancing scientific 
discovery, technological innovation, economic strength and 
international leadership.'' He went on to say that ``The President's 
goal is to ensure that these programs remain on a strong and stable 
footing well into the 21st Century, and this review will be crucial to 
meeting this goal.''

Charter and Scope of the Review of U.S. Human Space Flight Plans 
                    Committee

    The National Aeronautics and Space Administration chartered the 
``Review of U.S. Human Space Flight Plans Committee'' as a Federal 
Advisory Committee Act (FACA) committee, which requires that meetings 
and information presented to the review committee be accessible to the 
public.
    The Charter for the review committee states the following Scope and 
Objectives:

         ``The Committee shall conduct an independent review of ongoing 
        U.S. human space flight plans and programs, as well as 
        alternatives, to ensure the Nation is pursuing the best 
        trajectory for the future of human space flight-one that is 
        safe, innovative, affordable, and sustainable. The review 
        committee should aim to identify and characterize a range of 
        options that spans the reasonable possibilities for 
        continuation of U.S. human space flight activities beyond 
        retirement of the Space Shuttle. The identification and 
        characterization of these options should address the following 
        objectives: a) expediting a new U.S. capability to support 
        utilization of the International Space Station (ISS); b) 
        supporting missions to the Moon and other destinations beyond 
        low Earth orbit (LEO); c) stimulating commercial space flight 
        capability; and d) fitting within the current budget profile 
        for NASA exploration activities.''

         ``In addition to the objectives described above, the review 
        should examine the appropriate amount of research and 
        development and complementary robotic activities needed to make 
        human space flight activities most productive and affordable 
        over the long-term, as well as appropriate opportunities for 
        international collaboration. It should also evaluate what 
        capabilities would be enabled by each of the potential 
        architectures considered. It should evaluate options for 
        extending ISS operations beyond 2016.''

    The review committee reports to the NASA Administrator and the 
Director of the Office of Science and Technology Policy (OSTP), 
Executive Office of the President. The review committee was given 120 
days, following the date of its first meeting, to submit a report.

Members of the Review Committee
    The review committee is comprised of nine members, including the 
Chair, with background and expertise in launch and aerospace systems, 
engineering, space science, human space flight, and management. The 
review committee is chaired by Mr. Norman Augustine, Chairman and CEO, 
Lockheed Martin Corporation (retired). Mr. Augustine is also a former 
member of the President's Council of Advisors on Science and Technology 
under Presidents Clinton and George W. Bush and chaired the National 
Academies study, Rising Above the Gathering Storm. The full list of 
review committee members, as presented in a NASA Press Release dated 
June 1, 2009, is provided in Attachment D.

Review Committee Meetings and Materials
    The review committee held six public meetings, beginning with its 
first meeting held on June 17, 2009 in Washington, D.C. and near NASA 
Centers involved in human space flight, held fact finding meetings, and 
conducted site visits to NASA facilities that support the human space 
flight and exploration programs. The material presented to the review 
committee, including statements from Members of Congress and analyses 
and syntheses prepared by the review committee members, are available 
to the public at the Review of Human Space Flight Plans committee web 
site <http://www.nasa.gov/offices/hsf/home/index.html>

Results and Options Presented by the Review Committee (Excerpts from 
                    the Summary Report)

    A summary report of the Review of U.S. Human Space Flight Plans 
Committee was released publicly on September 8, 2009. The review 
committee is preparing a final report.
    In its Summary Report, the review committee stated that ``The U.S. 
human space flight program appears to be on an unsustainable 
trajectory. It is perpetuating the perilous practice of pursuing goals 
that do not match allocated resources. Space operations are among the 
most complex and unforgiving pursuits ever undertaken by humans. It 
really is rocket science. Space operations become all the more 
difficult when means do not match aspirations. Such is the case 
today.''
    In its direction from OSTP, the review committee was tasked to fit 
the options for a U.S. human space flight program into the existing 
budget profile for NASA's exploration activities. With respect to that 
direction, the review committee ``found two executable options that 
comply with the FY 2010 budget. However, neither allows for a viable 
exploration program. In fact, the Committee finds that no plan 
compatible with the FY 2010 budget profile permits human exploration to 
continue in any meaningful way.''
    The review committee also received approval from OSTP to present 
options that exceed the FY 2010 budget profile for NASA's exploration 
activities. In that regard, the review committee stated that ``The 
Committee further finds that it is possible to conduct a viable 
exploration program with a budget rising to about $3 billion annually 
above the FY 2010 budget profile. At this budget level, both the Moon 
First strategy and the Flexible Path strategies begin human exploration 
on a reasonable, though hardly aggressive, timetable. The Committee 
believes an exploration program that will be a source of pride for the 
Nation requires resources at such a level.''
    The review committee's key findings are as follows:

Summary of Key Findings
    ``The Committee summarizes its key findings below. Additional 
findings are included in the body of the report.

The right mission and the right size: NASA's budget should match its 
mission and goals. Further, NASA should be given the ability to shape 
its organization and infrastructure accordingly, while maintaining 
facilities deemed to be of national importance.

International partnerships: The U.S. can lead a bold new international 
effort in the human exploration of space. If international partners are 
actively engaged, including on the ``critical path'' to success, there 
could be substantial benefits to foreign relations, and more resources 
overall could become available.

Short-term Space Shuttle planning: The current Shuttle manifest should 
be flown in a safe and prudent manner. The current manifest will likely 
extend to the second quarter of FY 2011. It is important to budget for 
this likelihood.

The human space flight gap: Under current conditions, the gap in U.S. 
ability to launch astronauts into space will stretch to at least seven 
years. The Committee did not identify any credible approach employing 
new capabilities that could shorten the gap to less than six years. The 
only way to significantly close the gap is to extend the life of the 
Shuttle Program.

Extending the International Space Station: The return on investment to 
both the United States and our international partners would be 
significantly enhanced by an extension of ISS life. Not to extend its 
operation would significantly impair U.S. ability to develop and lead 
future international space flight partnerships.

Heavy-lift: A heavy-lift launch capability to low Earth orbit, combined 
with the ability to inject heavy payloads away from the Earth, is 
beneficial to exploration, and it also will be useful to the national 
security space and scientific communities. The Committee reviewed: the 
Ares family of launchers; more directly Shuttle-derived vehicles; and 
launchers derived from the EELV [Evolved Expendable Launch Vehicle] 
family. Each approach has advantages and disadvantages, trading 
capability, life cycle costs, operational complexity and the ``way of 
doing business'' within the program and NASA.

Commercial crew launch to low Earth orbit: Commercial services to 
deliver crew to low Earth orbit are within reach. While this presents 
some risk, it could provide an earlier capability at lower initial and 
life cycle costs than government could achieve. A new competition with 
adequate incentives should be open to all U.S. aerospace companies. 
This would allow NASA to focus on more challenging roles, including 
human exploration beyond low Earth orbit, based on the continued 
development of the current or modified Orion spacecraft.

Technology development for exploration and commercial space: Investment 
in a well-designed and adequately funded space technology program is 
critical to enable progress in exploration. Exploration strategies can 
proceed more readily and economically if the requisite technology has 
been developed in advance. This investment will also benefit robotic 
exploration, the U.S. commercial space industry and other U.S. 
Government users.

Pathways to Mars: Mars is the ultimate destination for human 
exploration; but it is not the best first destination. Both visiting 
the Moon First and following the Flexible Path are viable exploration 
strategies. The two are not necessarily mutually exclusive; before 
traveling to Mars, we might be well served to both extend our presence 
in free space and gain experience working on the lunar surface.

Options for the Human Space Flight Program: The Committee developed 
five alternatives for the Human Space Flight Program. It found:

        <bullet>  Human exploration beyond low Earth orbit is not 
        viable under the FY 2010 budget guideline.

        <bullet>  Meaningful human exploration is possible under a less 
        constrained budget, ramping to approximately $3 billion per 
        year above the FY 2010 guidance in total resources.

        <bullet>  Funding at the increased level would allow either an 
        exploration program to explore Moon First or one that follows a 
        Flexible Path of exploration. Either could produce results in a 
        reasonable timeframe.''

Options
    In its Summary Report, the review committee presented five 
integrated options for a human space flight program. Those options, 
along with a summary table of the options as presented in the review 
committee's Summary Report, are provided below.
    ``The Committee was asked to provide two options that fit within 
the FY 2010 budget profile. This funding is essentially flat or 
decreasing through 2014, then increases at 1.4 percent per year 
thereafter, which is less than the 2.4 percent per year used to 
estimate cost inflation. The first two options are constrained to that 
budget.
    Option 1. Program of Record as assessed by the Committee, 
constrained to the FY 2010 budget. This option is the Program of 
Record, with only two changes the Committee deems necessary: providing 
funds for the Shuttle into FY 2011 and including sufficient funds to 
de-orbit the ISS in 2016. When constrained to this budget profile, Ares 
I and Orion are not available until after the ISS has been de-orbited. 
The heavy-lift vehicle, Ares V, is not available until the late 2020s, 
and worse, there are insufficient funds to develop the lunar lander and 
lunar surface systems until well into the 2030s, if ever.
    Option 2. ISS and Lunar Exploration, constrained to FY 2010 budget. 
This option extends the ISS to 2020, and it begins a program of lunar 
exploration using Ares V (Lite). The option assumes Shuttle fly-out in 
FY 2011, and it includes a technology development program, a program to 
develop commercial crew services to low Earth orbit, and funds for 
enhanced utilization of ISS. This option does not deliver heavy-lift 
capability until the late 2020s and does not have funds to develop the 
systems needed to land on or explore the Moon.
    The remaining three alternatives are fit to a different budget 
profile--one that the Committee judged more appropriate for an 
exploration program designed to carry humans beyond low Earth orbit. 
This budget increases to $3 billion above the FY 2010 guidance by FY 
2014, then grows with inflation at a more reasonable 2.4 percent per 
year.
    Option 3. Baseline Case--Implementable Program of Record. This is 
an executable version of the program of record. It consists of the 
content and sequence of that program--de-orbiting the ISS in 2016, 
developing Orion, Ares I and Ares V, and beginning exploration of the 
Moon. The Committee made only two additions it felt essential: 
budgeting for the fly-out of the Shuttle in 2011 and including 
additional funds for ISS de-orbit. The Committee's assessment is that, 
under this funding profile, the option delivers Ares I/Orion in FY 
2017, with human lunar return in the mid-2020s.
    Option 4. Moon First. This option preserves the Moon as the first 
destination for human exploration beyond low Earth orbit. It also 
extends the ISS to 2020, funds technology advancement, and uses 
commercial vehicles to carry crew to low Earth orbit. There are two 
significantly different variants to this option.
    Variant 4A is the Ares Lite variant. This retires the Shuttle in FY 
2011 and develops the Ares V (Lite) heavy-lift launcher for lunar 
exploration. Variant 4B is the Shuttle extension variant. This variant 
includes the only foreseeable way to eliminate the gap in U.S. human-
launch capability: it extends the Shuttle to 2015 at a minimum safe-
flight rate. It also takes advantage of synergy with the Shuttle by 
developing a heavy-lift vehicle that is more directly Shuttle-derived. 
Both variants of Option 4 permit human lunar return by the mid-2020s.
    Option 5. Flexible Path. This option follows the Flexible Path as 
an exploration strategy. It operates the Shuttle into FY 2011, extends 
the ISS until 2020, funds technology development and develops 
commercial crew services to low Earth orbit. There are three variants 
within this option; they differ only in the heavy-lift vehicle.
    Variant 5A is the Ares Lite variant. It develops the Ares Lite, the 
most capable of the heavy-lift vehicles in this option. Variant 5B 
employs an EELV-heritage commercial heavy-lift launcher and assumes a 
different (and significantly reduced) role for NASA. It has an 
advantage of potentially lower operational costs, but requires 
significant restructuring of NASA. Variant 5C uses a directly Shuttle-
derived, heavy-lift vehicle, taking maximum advantage of existing 
infrastructure, facilities and production capabilities.
    All variants of Option 5 begin exploration along the flexible path 
in the early 2020s, with lunar fly-bys, visits to Lagrange points and 
near-Earth objects and Mars fly-bys occurring at a rate of about one 
major event per year, and possible rendezvous with Mars's moons or 
human lunar return by the mid to late 2020s.
    The Committee has found two executable options that comply with the 
FY 2010 budget. However, neither allows for a viable exploration 
program. In fact, the Committee finds that no plan compatible with the 
FY 2010 budget profile permits human exploration to continue in any 
meaningful way.
    The Committee further finds that it is possible to conduct a viable 
exploration program with a budget rising to about $3 billion annually 
above the FY 2010 budget profile. At this budget level, both the Moon 
First strategy and the Flexible Path strategies begin human exploration 
on a reasonable, though hardly aggressive, timetable. The Committee 
believes an exploration program that will be a source of pride for the 
Nation requires resources at such a level.''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Ground Rules and Assumptions on Affordability

    According to its analysis presented during the review committee's 
last meeting held on August 12, 2009, the review committee articulated 
the following ground rules and assumptions that were followed in its 
analyses.

        <bullet>  ``Aerospace [Aerospace Corporation was the contractor 
        used by the review committee to perform cost analyses in 
        support of the review committee's work] used a 1.51 historical 
        risk factor on all element development costs of all scenarios 
        on the cost to go. A lower (1.25) historical risk factor was 
        used on productive/operations

        <bullet>  An additional $200 million was added to the COTS 
        [Commercial Orbital Transportation Services] cargo baseline in 
        FY 2011 to incentivize current COTS cargo demonstrations

        <bullet>  Except for international partner agreements already 
        assumed for the ISS, all elements were fully costed (for 
        costing purposes only)

        <bullet>  For all scenarios, except the Program of Record, 
        assume a technology program starting at $500M in FY 2011 and 
        ramping up to $1.5 billion over five years. Maintain the $1.5 
        billion annually thereafter. (Assume double counting in other 
        ISS and ESMD [Exploration Systems Mission Directorate] lines, 
        so funding is one-half of that.)

        <bullet>  For scenarios that assume commercial crew, assume a 
        $2.5B NASA investment over four years beginning in FY 2011

        <bullet>  Use Aerospace contract termination/restart model and 
        actual contract termination costs in Cx [Constellation] 
        programs

        <bullet>  For all scenarios that include refueling, assume 
        technology line funds development and add a $1B one-time cost 
        to flight certify the fuel transfer kit

        <bullet>  For all scenarios assuming lunar sorties/outpost, use 
        the Cx [Constellation] estimate for the Altair lander and lunar 
        surface system; for the Deep Space options, assume a commercial 
        lunar lander, but a government furnished ascent stage

        <bullet>  For options using EELV heavy-lift launch vehicles, 
        cost as if NASA does not build the system and uses NASA 
        infrastructure and workforce only when required to conduct 
        operations

        <bullet>  For the Shuttle Derived Systems scenario, assume 
        Side-mount costs (provided by NASA) for the cargo only version

        <bullet>  Current program elements (ISS and STS):

                  For scenarios with ISS de-orbit in 2016, assume 
                additional $1.5B cost beyond current estimate

                  For scenarios with existing Shuttle manifest, assume 
                fly-out to March, 2011.''

Discussion

    There are multiple aspects of the review committee's assumptions 
and analyses that Congress will need to understand in order to make an 
informed judgment about the options presented in the summary report.

Costs of Deviating from the Congressionally-authorized Program
    Congress authorized the exploration initiative, including the 
Constellation Program, in the NASA Authorization Acts of 2005 and 2008 
and encompassing a stepping-stone approach to exploration beginning 
with robotic and human exploration of the Moon in preparation for 
exploration missions to other destinations in the solar system. In 
addition, the 2008 Authorization directs the NASA Administrator to 
ensure that the ISS remain a viable laboratory through at least 2020. 
The Summary Report did not include an option that accounts for this 
Congressionally-authorized scenario, and therefore does not present the 
President with the option and costs of the program that matches what 
Congress has authorized by law. The absence of this scenario also makes 
it difficult to compare the program authorized by law against the 
alternatives presented by the review committee.
    In addition, the summary report did not outline the costs and risks 
associated with terminating the program of record (or various elements 
of the Program) or how the review committee weighed those termination 
costs and risks against the costs and risks of undertaking an 
alternative architecture.

Cost Assumptions
    In materials presented at its last meeting held on August 12, 2009, 
the review committee used cost analyses conducted by the Aerospace 
Corporation to compare the costs of various options, including the 
program of record (Constellation). The Aerospace Corporation used a 
historical risk factor of 1.51 in assessing the costs. NASA has 
indicated that it already budgeted the Constellation program at a level 
for which there is a 65 percent confidence that the program will meet 
its schedule and budget projections. In addition, the Constellation 
program has reached a level of maturity that would argue risk 
uncertainty has been reduced. Congress will need to understand whether 
or not the costs-to-go for the Constellation program have been 
essentially double-counted costs required for Constellation given that 
a risk factor was applied on top of NASA's estimates.
    In addition, there are different levels of maturity in the options 
for human space flight systems that the review committee considered, 
ranging from options that are the concept and view-graph stage to 
designs that have been studied in depth. Congress will need to 
understand how the review committee went about estimating and comparing 
the costs for designs that have such a wide range of maturity levels.

Safety
    One the one hand, the review committee noted that throughout its 
report, human safety ``is treated as a sine qua non.'' It also notes 
that ``Ares I was designed to a high standard in order to provide 
astronauts with access to low Earth orbit at lower risk and a 
considerably higher level of reliability than is available today.'' On 
the other hand, regarding the alternative human space flight systems 
reviewed, the report stated that the review committee ``was unconvinced 
that enough is known about any of the other potential high-reliability 
launcher-plus-capsule systems to distinguish their levels of safety in 
a meaningful way.'' The report also states that ``New human-rated 
launch vehicles will likely be more reliable once they reach maturity . 
. .'' At issue is how the review committee reconciled the emphasis it 
gave to human safety in its report with the uncertainties the report 
introduces about how to rate the safety of potential alternative crewed 
launch systems that exist at very different levels of maturity. Even 
for a potential human-rated EELV system, which was studied by the 
Aerospace Corporation, ``Aerospace did not perform estimates of loss of 
mission (LOM) and loss of crew (LOC) probabilities for the HR Delta IV 
H options studied . . .. To allow an equitable comparison of HR Delta 
IV HR Delta IV H to Ares I LOM/LOC a new study . . . would be needed.'' 
The review committee's approach to ascertaining the safety of 
alternative systems also needs explanation, and in particular the 
relationship assured by the review committee between reliability and 
safety. There are many uncertainties regarding safety that Congress 
will need to understand in assessing the review committee's proposed 
options.

International Cooperation
    The review committee's summary report refers to the benefits of an 
international exploration program, including strengthening of 
geopolitical relationships, leveraging of resources, and enhancing 
exploration. However, the report does not discuss the extent to which 
each option would contribute to or benefit from international 
cooperation, how international cooperation would evolve over the long-
term as part of the options presented, and what international 
capabilities could potentially be applied to each of the options. In 
addition, the review committee states, in its summary of key findings, 
that ``If international partners are actively engaged, including on the 
`critical path' to success, then there could be substantial benefits to 
foreign relations . . ..'' Having international partners on the 
``critical path'' would be a significant shift from current approach to 
partnerships. This leads to questions about the types of risks would 
this new approach would introduce; how, if at all, the review committee 
assessed those risks; and the extent to which the review committee 
found that those risks would be outweighed by the additional benefits 
from the international collaboration that could be realized.

Crew Access to Low-Earth Orbit
    The review committee's summary report states that ``There are two 
basic approaches [to crew access to low Earth orbit]: a government-
operated system and a commercial crew-delivery service.'' This seems to 
suggest that the review committee considered crew-access to LEO in an 
either-or binary fashion, which differs from the congressionally-
authorized program to support commercial development of commercial crew 
services to low Earth orbit, while also retaining the government 
capability. The review committee suggests, in its summary report that 
``it is an appropriate time to consider turning this transport service 
over to the commercial sector.'' It is unclear, however, whether the 
review committee is suggesting that government capability to launch 
humans into low Earth orbit be abandoned in favor of as-yet-undeveloped 
commercial systems--as some of the options suggest--or whether it 
simply thinks commercial development should be stimulated in parallel 
to the government program and phased over once the commercial systems 
have matured. It is also unclear whether or not the review committee 
considered the strategic implications of not having a government system 
to launch humans into low Earth orbit. These issues warrant 
clarification.

Commercial Services and Potential Cost Savings
    The summary report states that providing human access to low Earth 
orbit by using commercial crew services ``creates the possibility of 
lowering operating costs for the system and potentially accelerates the 
availability of U.S. access to low Earth orbit by about a year, to 
2016.'' If this is the review committee's rationale for a commercially 
provided service in lieu of a government-provided service to low Earth 
orbit, there are several issues that need to be clarified. The Summary 
Report does not discuss the technical analysis that led the review 
committee to indicate that commercial services could potentially reduce 
the gap by about a year or the review committee's level of confidence 
in that date. In addition, because commercial crew systems are largely 
conceptual at this stage, it is unclear what assumptions about their 
potential to meet NASA's human safety requirements that the review 
committee assumed.
    In addition, the summary report states that ``Establishing . . . 
commercial opportunities could increase launch volume and potentially 
lower costs to NASA and all other launch-service customers.'' The 
Summary Report does not discuss the level of activity that would be 
needed to lower the costs of crew transport for the government, when 
would the government would be able to benefit from those savings, and 
how much the government could expect to save from using commercial crew 
services in lieu of government-provided services. Congress will need to 
understand these issues it evaluates the options presented by the 
review committee and any decision by the Administration on the future 
course of the Nation's space flight program.

$3 Billion Increase
    In establishing scenarios that reflected increases in budget, 
characterized in the summary report as a ``Less Constrained'' budget, 
it is not clear why the $3 billion figure was chosen. No factual basis 
can be ascertained from the summary report for why $3 billion is the 
appropriate amount rather than some other amount. Furthermore, to make 
meaningful comparisons, Congress will need to know whether the $3 
billion is phased similarly across all applicable options, what how 
mission capabilities funded by the increase differ relative to one 
another, and what the review committee assumed the annual increases 
would be to reach the $3 billion level by FY 2014.

V. Background

    In January 2004, President George W. Bush introduced a Vision for 
Space Exploration that would:

        <bullet>  ``Implement a sustained and affordable human and 
        robotic program to explore the solar system and beyond;

        <bullet>  Extend human presence across the solar system, 
        starting with a human return to the Moon by the year 2020, in 
        preparation for human exploration of Mars and other 
        destinations;

        <bullet>  Develop the innovative technologies, knowledge, and 
        infrastructures both to explore and to support decisions about 
        the destinations for human exploration; and

        <bullet>  Promote international and commercial participation in 
        exploration to further U.S. scientific, security, and economic 
        interests.''

    According to the Bush initiative, the goals would be achieved 
through retiring the Space Shuttle as soon as the International Space 
Station is completed, using the ISS to support exploration goals, 
carrying out human and robotic lunar exploration activities to enable 
science and exploration goals, and developing a new crew exploration 
vehicle to support missions beyond low Earth orbit (with an operational 
capability to be demonstrated no later than 2014).
    Congress authorized the space exploration initiative in two 
authorization laws, the NASA Authorization Act of 2005 (P.L. 109-155) 
and the NASA Authorization Act of 2008 (P.L. 110-422). (Attachment A 
provides the Authorization language.) In addition, the 2008 
Authorization Act authorized an additional $1 billion to accelerate 
development of the Ares I crew launch vehicle and the Orion crew 
exploration vehicle. Ares I and Orion are part of the Constellation 
Program, which also includes development of an Ares V heavy-lift 
vehicle needed to carry a lunar lander beyond low Earth orbit that 
would dock with Orion and transport the crew and cargo to the Moon and 
other potential destinations. The 2008 Act also directed that the 
Administrator ``take all necessary steps to ensure that the 
International Space Station remains a viable and productive facility 
capable of potential United States utilization through at least 2020 . 
. ..''
    Although NASA was directed by the President to carry out the plan, 
the Bush Administration did not request a budget adequate to implement 
the Vision for Space Exploration while also maintaining a balanced 
portfolio of science and aeronautics programs, returning the Shuttle to 
flight following the Columbia accident, and completing the 
International Space Station. Attachment B depicts the mismatch between 
the original budget estimates required for NASA to implement the Vision 
and the Administration budget requests.
    According to information that NASA provided to the Subcommittee on 
Space and Aeronautics in May 2009, NASA's Exploration Systems 
Architecture Study (ESAS), which formed the basis of the Constellation 
Program, assumed a total of about $34.4 billion would be required for 
the program through 2013. According to NASA, funding for Constellation 
from FY 2007 President's Budget Request through the FY 2009 President's 
Budget Request covering a period of FY 2006-FY 2013 has remained at 
about $31.7 billion. The FY 2009 President's budget request for 
Constellation through 2013 is $2.6 billion less than what ESAS' funding 
projection for Constellation, according to NASA. In addition, the 
budget analyses presented by review committee members at the last 
meeting held on August 12, 2009, state that the President's FY10 budget 
submittal ``significantly reduces planned funding available to the 
Constellation program; more than $1.5B (FY09) per year starting in 
FY13.''
    In 2009, President Obama signed into law, the American Recovery and 
Reinvestment Act of 2009 (P.L. 111-5), which appropriated $1 billion in 
Recovery Act funds for NASA. Of that total, $400 million was provided 
for NASA's exploration activities. In his statement to the Subcommittee 
on Commerce, Justice, Science and Related Agencies on April 29, 2009, 
NASA Acting Administrator Scolese testified that NASA has allocated 
$250M of the exploration Recovery Act funds to Constellation Systems 
and the remaining $150M to Commercial Crew and Cargo. On August 10, 
2009, NASA announced a request for proposals and its plans to use $50 
million of Recovery Act funds ``for the development of commercial crew 
space transportation concepts and enabling activities.''
    With its release of the top-line FY 2010 budget request for NASA in 
February 2009, the Administration, cited several highlights, including 
``a robust program of space exploration involving humans and robots,'' 
``return Americans to the Moon by 2020,'' ``safe flight of the Shuttle 
through the vehicle's retirement at the end of 2010,'' ``the 
development of new space flight systems for carrying American crews and 
supplies to space,'' and the ``continued use of the International Space 
Station,'' among other objectives.
    Later, with the release of the full, detailed FY 2010 budget 
request for NASA in May 2009, the Administration ``announced the launch 
of an independent review of NASA's human space flight activities'' and 
the summary report of that effort is the focus of today's hearing. The 
FY 2010 budget proposal reduced outyear projections for the 
Constellation Program by roughly $3.5 billion from that projected in 
the FY 2009 budget proposal for the FY 2011-FY 2014 period. The FY 2010 
budget request also stated that ``Following the human space flight 
review, the Administration will provide an updated request for 
Exploration activities reflecting the review's results.'' The FY 2010 
budget request retained the goal of returning humans to the Moon by 
2020, despite the fact that the request would reduce funding for work 
on lunar related activities required to reach that goal. The FY 2010 
budget request for the Ares V Cargo Launch Vehicle ($25 million) and 
its runout budget for FY 2011 through FY 2014 ($100 million total) is 
insufficient to initiate full scale development of the heavy-lift 
launch vehicle that is designed to support exploration missions beyond 
low Earth orbit. In addition, the five-year budget plan contains no 
significant funding for the Altair lunar lander. A summary of the 
President's FY 2010 request for NASA is provided as Attachment C.
    In its appropriation bill for FY 2010, H.R. 2847, as discussed in 
the House Commerce, Justice, Science, and Related Agencies 
Appropriations Bill, 2010, Report 111-149, the House Appropriations 
Committee provided appropriations for NASA's exploration program at a 
level $212 million less than that of the FY 2009 enacted budget and 
$670 million less than the President's FY 2010 request for NASA's 
exploration programs. In his statement for the House consideration of 
H.R. 2847, Subcommittee Chairman Mollahan said: ``Funds are provided in 
this bill to continue investments in human space flight at the level of 
last year. Reductions from the budget request should not be viewed by 
this body as any diminution of certainly my support or the Committee's 
support in NASA's human space flight activities. Rather, it is a 
deferral. It is a deferral taken without prejudice. It is a pause. It 
is a timeout. Call it what you will, it is an opportunity for the 
President to establish his vision for human space exploration looking 
at the Augustine report when it becomes available in August, and then 
for his administration to consider what their vision will be, and then 
most importantly, certainly for the Committee, Mr. Chairman, to come 
forward with a realistic future funding scheme for the human space 
exploration program. We hope it is a vision worthy of the program, and 
we look forward to realistic funding levels, which we have never had, 
or haven't had for many, many years, for human space flight.''
    The Senate Departments of Commerce, Justice, Science, and Related 
Agencies Appropriations Bill, 2010, Report 111-34 , stated the 
following:

         ``Review of U.S. Human Space Flight Plans.--The Committee 
        directs that NASA shall not use the operating plan or 
        reprogramming process as the method of implementing the 
        recommendations of the review. The opportunity for directing a 
        well constructed and thoughtful approach to manned space flight 
        should be as a budget amendment to the 2010 budget request that 
        is received in a manner that is timely for consideration by the 
        Committee, or as part of the 2011 budget request.

         Ares I and Orion.--The Committee provides the full budget 
        request of $1,415,400,000 for Ares I, the new Crew Launch 
        Vehicle, and $1,383,500,000 for Orion, the Crew Exploration 
        Vehicle.

         Ares V.--The Committee believes that the Ares V cargo launch 
        vehicle will be a critical national asset for carrying 
        exploration and scientific payloads beyond low Earth orbit to 
        the Moon and beyond. To facilitate the earliest possible start 
        of the development of the Ares V, the Committee recommends a 
        funding level of $100,000,000.''

Status of Constellation Program

    The Constellation Program, including the Ares I crew launch vehicle 
and the Orion crew exploration vehicle, the Altair Lunar Lander, and 
the Ares V launch vehicle, has continued its work during the course of 
the human space flight review, as directed by the Administration. 
However, as a result of the review, NASA officials reported that 
contracts for initial work on the Ares V vehicle--the heavy-lift 
launcher planned to ferry astronauts and cargo to the Moon--were put on 
hold pending the results of the Review of U.S. Human Space Flight 
Plans.
    At the time the Administration released the FY 2010 budget request 
for NASA, the Constellation Program had completed most major 
procurements, undertaken hardware design, development and test 
activities, constructed key facilities, completed initial reviews for 
ground and mission operations, continued preparation for the first 
flight test of the Ares rocket (Ares I-X), which is scheduled for the 
end of October 2009, and continued work in preparation for a test of 
the Orion Pad Abort system. In September 2008, the Ares I rocket passed 
the preliminary design review, a key milestone that assesses the 
vehicle's design to ensure its safety, reliability, and alignment with 
NASA's requirements. In November 2008, the J-2X engine, which is 
designed to be used as the upper stage of the Ares I and the Earth 
departure stage of the Ares V launch vehicles, passed the critical 
design review and proceeded to fabrication and full-testing of the 
engine. On September 10, 2009, the five-segment rocket motor that will 
be used on the Ares I rocket was successfully test-fired. In addition, 
on September 1, 2009, NASA announced the successful completion of the 
preliminary design review for Orion.
    As of early September 2009, NASA reported that $7.7 billion has 
been spent on the Constellation Program, of which $3.1 billion has been 
spent on Orion and approximately $3 billion on Ares I. The remainder 
has been spent on ground and program integration, space suit 
development, and other activities. According to NASA, the projected 
budget for Ares I and Orion through 2015 is $35 billion.

Status of Space Shuttle Program

    The Space Shuttle Program is now entering its 28th year of service. 
Three orbiters are now left to carry out the remaining launch schedule 
of six flights, all to the International Space Station. These flights 
will be providing the remaining nodes, experiments, and spare parts 
which will enable the station to be utilized as a U.S. National 
Laboratory. The Space Shuttle is slated to be retired in 2010, with the 
last flight currently scheduled for September 2010. The FY 2009 budget 
for the program is $2.98 billion and the FY 2010 budget request is 
$3.15 billion. The Shuttle program will be completely unfunded by FY 
2012, according to the President's FY 2010 request.

International Space Station Program

    The International Space Station (ISS)'s partners include the United 
States, nations of the European Space Agency, Russia, Japan, and 
Canada. The first module of the Station was developed by Russia and 
placed into orbit in 1998. Shortly thereafter, in 1998, the U.S. 
launched its first module, which was attached to the Russian node. 
Since that time, U.S., Russian, European, and Japanese modules, among 
many other systems, instruments, and equipment have been delivered and 
assembled as part of the ISS. The Station has been crewed since the 
year 2000. During the first eight years of ISS operations, scientific 
research has helped lead ``advances in the fight against food 
poisoning, new methods for delivering medicine to cancer cells, and 
better materials for future spacecraft,'' according to a NASA report, 
``International Space Station Science Research Accomplishments During 
the Assembly Years: An Analysis of Results from 2000-2008.'' In 2009, 
the size of the crew doubled from three to six persons, enabling 
additional crew time to be available for research activities. In its 
current configuration, NASA characterizes the ISS as 83 percent 
complete. Six Shuttle flights are manifested to complete the assembly 
of the Station, which is currently planned to be operated and utilized 
through 2015. According to NASA, the U.S. has invested approximately 
$44 billion in the ISS, while combined investment of the U.S. and its 
partners is valued at over $54 billion.

Historical Trends of Federal Government Spending on NASA

    According to historical budgetary data, NASA's annual budget 
authority, on average between FY 1976 and FY 2008, was 0.80 percent of 
the total federal budgetary authority. For Fiscal Year 2009, NASA's 
percent of the total federal budget authority is estimated to be 0.43, 
its lowest in over three decades. The total federal budgetary authority 
in FY 2010 is estimated to be $3.42 trillion. If one applies the 
average percentage of total annual budgetary authority for NASA through 
FY 2008 (.80 percent) to the estimated total budgetary authority for 
Fiscal Year 2010, the NASA funding level would be $27.5 billion [Versus 
the FY 2010 request of $18.7 billion].
    In terms of discretionary budget authority, on average between FY 
1976 and FY 2008, NASA's total budget authority was 2.07 percent of 
total federal discretionary budget authority. According to the 
President's budget request, total federal discretionary budget 
authority in FY 2010 is estimated to be $1.24 trillion. Applying the 
2.07 percent historical average of discretionary budget authority for 
NASA to the $1.24 estimated total federal discretionary budget 
authority for FY 2010 would result in a NASA funding level of $25.8 
billion.

Previous Studies and Reviews of Human Space Flight and Exploration

    There have been numerous studies and reviews of potential 
directions and goals for the Nation's human and robotic exploration 
program dating back to the early years of the space program, including 
the report of a 1969 Space Task Group, The Post-Apollo Space Program: 
Directions for the Future,'' chaired by Vice President Spiro Agnew, to 
the 1990 Report of the Presidential Commission on the Space Shuttle 
Challenger Accident (aka the Rogers Commission report), the ``90-Day'' 
study that accompanied President George H.W. Bush's Space Exploration 
Initiative, and the 1990 Synthesis Group report that studied ideas 
relevant to accomplishing the Space Exploration Initiative, and the 
report of the Advisory Committee on the Future of the U.S. Space 
Program, chaired by Norman Augustine. Those reports appear to be 
consistent in highlighting the importance of a direction for the 
Nation's human exploration activities beyond low Earth orbit. The 
Columbia Accident Investigation Board (CAIB), which issued its report 
in 2003, also called attention to the lack of a program for exploration 
beyond low Earth orbit when it said: ``Review committees . . . have 
suggested that the primary justification for a space station is to 
conduct the research required to plan missions to Mars and/or other 
distant destinations. However, human travel to destinations beyond 
Earth orbit has not been adopted as a national objective.'' Then, in 
2004, President George W. Bush announced the Vision for Space 
Exploration (VSE) referenced earlier in this charter.

Attachment A

                NASA Authorization Acts of 2005 and 2008

            Provisions Related to the Exploration Initiative

P.L. 109-155, NASA Authorization Act of 2005

(b) VISION FOR SPACE EXPLORATION.--

(1) IN GENERAL.--The Administrator shall establish a program to develop 
a sustained human presence on the Moon, including a robust precursor 
program, to promote exploration, science, commerce, and United States 
preeminence in space, and as a stepping-stone to future exploration of 
Mars and other destinations. The Administrator is further authorized to 
develop and conduct appropriate international collaborations in pursuit 
of these goals.

(2) MILESTONES.--The Administrator shall manage human space flight 
programs to strive to achieve the following milestones (in conformity 
with section 503)--

(A) Returning Americans to the Moon no later than 2020.

(B) Launching the Crew Exploration Vehicle as close to 2010 as 
possible.

(C) Increasing knowledge of the impacts of long duration stays in space 
on the human body using the most appropriate facilities available, 
including the ISS.

(D) Enabling humans to land on and return from Mars and other 
destinations on a timetable that is technically and fiscally possible.

P.L. 110-422, NASA Authorization Act of 2008

SEC. 2. FINDINGS.

. . .
(7) Human and robotic exploration of the solar system will be a 
significant long-term undertaking of humanity in the 21st century and 
beyond, and it is in the national interest that the United States 
should assume a leadership role in a cooperative international 
exploration initiative.

(8) Developing United States human space flight capabilities to allow 
independent American access to the International Space Station, and to 
explore beyond low Earth orbit, is a strategically important national 
imperative, and all prudent steps should thus be taken to bring the 
Orion Crew Exploration Vehicle and Ares I Crew Launch Vehicle to full 
operational capability as soon as possible and to ensure the effective 
development of a United States heavy-lift launch capability for 
missions beyond low Earth orbit.

. . .
(10) NASA should make a sustained commitment to a robust long-term 
technology development activity. Such investments represent the 
critically important ``seed corn'' on which NASA's ability to carry out 
challenging and productive missions in the future will depend.

(11) NASA, through its pursuit of challenging and relevant activities, 
can provide an important stimulus to the next generation to pursue 
careers in science, technology, engineering, and mathematics.

(12) Commercial activities have substantially contributed to the 
strength of both the United States space program and the national 
economy, and the development of a healthy and robust United States 
commercial space sector should continue to be encouraged.

SEC. 401. SENSE OF CONGRESS.

    It is the sense of Congress that the President of the United States 
should invite America's friends and allies to participate in a long-
term international initiative under the leadership of the United States 
to expand human and robotic presence into the solar system, including 
the exploration and utilization of the Moon, near-Earth asteroids, 
Lagrangian points, and eventually Mars and its moons, among other 
exploration and utilization goals. When appropriate, the United States 
should lead confidence building measures that advance the long-term 
initiative for international cooperation.

SEC. 402. REAFFIRMATION OF EXPLORATION POLICY.

    Congress hereby affirms its support for--

(1) the broad goals of the space exploration policy of the United 
States, including the eventual return to and exploration of the Moon 
and other destinations in the solar system and the important national 
imperative of independent access to space;

(2) the development of technologies and operational approaches that 
will enable a sustainable long-term program of human and robotic 
exploration of the solar system;

(3) activity related to Mars exploration, particularly for the 
development and testing of technologies and mission concepts needed for 
eventual consideration of optional mission architectures, pursuant to 
future authority to proceed with the consideration and implementation 
of such architectures; and

(4) international participation and cooperation, as well as commercial 
involvement in space exploration activities.

SEC. 403. STEPPING STONE APPROACH TO EXPLORATION.

    In order to maximize the cost-effectiveness of the long-term 
exploration and utilization activities of the United States, the 
Administrator shall take all necessary steps, including engaging 
international partners, to ensure that activities in its lunar 
exploration program shall be designed and implemented in a manner that 
gives strong consideration to how those activities might also help meet 
the requirements of future exploration and utilization activities 
beyond the Moon. The timetable of the lunar phase of the long-term 
international exploration initiative shall be determined by the 
availability of funding. However, once an exploration related project 
enters its development phase, the Administrator shall seek, to the 
maximum extent practicable, to complete that project without undue 
delays.

SEC. 404. LUNAR OUTPOST.

(a) ESTABLISHMENT.--As NASA works toward the establishment of a lunar 
outpost, NASA shall make no plans that would require a lunar outpost to 
be occupied to maintain its viability. Any such outpost shall be 
operable as a human-tended facility capable of remote or autonomous 
operation for extended periods.

(b) DESIGNATION.--The United States portion of the first human-tended 
outpost established on the surface of the Moon shall be designated the 
''Neil A. Armstrong Lunar Outpost.''

(c) SENSE OF CONGRESS.--It is the sense of Congress that NASA should 
make use of commercial services to the maximum extent practicable in 
support of its lunar outpost activities.

SEC. 405. EXPLORATION TECHNOLOGY DEVELOPMENT.

(a) IN GENERAL.--A robust program of long-term exploration related 
technology research and development will be essential for the success 
and sustainability of any enduring initiative of human and robotic 
exploration of the solar system.

(b) ESTABLISHMENT.--The Administrator shall carry out a program of 
long-term exploration-related technology research and development, 
including such things as in-space propulsion, power systems, life 
support, and advanced avionics, that is not tied to specific flight 
projects. The program shall have the funding goal of ensuring that the 
technology research and development can be completed in a timely manner 
in order to support the safe, successful, and sustainable exploration 
of the solar system. In addition, in order to ensure that the broadest 
range of innovative concepts and technologies are captured, the long-
term technology program shall have the goal of having a significant 
portion of its funding available for external grants and contracts with 
universities, research institutions, and industry.

SEC. 406. EXPLORATION RISK MITIGATION PLAN.

(a) PLAN.--The Administrator shall prepare a plan that identifies and 
prioritizes the human and technical risks that will need to be 
addressed in carrying out human exploration beyond low Earth orbit and 
the research and development activities required to address those 
risks. The plan shall address the role of the International Space 
Station in exploration risk mitigation and include a detailed 
description of the specific steps being taken to utilize the 
International Space Station for that purpose.

(b) REPORT.--The Administrator shall transmit to the Committee on 
Science and Technology of the House of Representatives and the 
Committee on Commerce, Science, and Transportation of the Senate the 
plan described in subsection (a) not later than one year after the date 
of enactment of this Act.

SEC. 407. EXPLORATION CREW RESCUE.

    In order to maximize the ability to rescue astronauts whose space 
vehicles have become disabled, the Administrator shall enter into 
discussions with the appropriate representatives of space-faring 
nations who have or plan to have crew transportation systems capable of 
orbital flight or flight beyond low Earth orbit for the purpose of 
agreeing on a common docking system standard.

SEC. 408. PARTICIPATORY EXPLORATION.

(a) IN GENERAL.--The Administrator shall develop a technology plan to 
enable dissemination of information to the public to allow the public 
to experience missions to the Moon, Mars, or other bodies within our 
solar system by leveraging advanced exploration technologies. The plan 
shall identify opportunities to leverage technologies in NASA's 
Constellation systems that deliver a rich, multimedia experience to the 
public, and that facilitate participation by the public, the private 
sector, non-governmental organizations, and international partners. 
Technologies for collecting high-definition video, three-dimensional 
images, and scientific data, along with the means to rapidly deliver 
this content through extended high bandwidth communications networks, 
shall be considered as part of this plan. It shall include a review of 
high bandwidth radio and laser communications, high-definition video, 
stereo imagery, three-dimensional scene cameras, and Internet routers 
in space, from orbit, and on the lunar surface. The plan shall also 
consider secondary cargo capability for technology validation and 
science mission opportunities. In addition, the plan shall identify 
opportunities to develop and demonstrate these technologies on the 
International Space Station and robotic missions to the Moon, Mars, and 
other solar system bodies. As part of the technology plan, the 
Administrator shall examine the feasibility of having NASA enter into 
contracts and other agreements with appropriate public, private sector, 
and international partners to broadcast electronically, including via 
the Internet, images and multimedia records delivered from its missions 
in space to the public, and shall identify issues associated with such 
contracts and other agreements. In any such contracts and other 
agreements, NASA shall adhere to a transparent bidding process to award 
such contracts and other agreements, pursuant to United States law. As 
part of this plan, the Administrator shall include estimates of 
associated costs.

(b) REPORT.--Not later than 270 days after the date of enactment of 
this Act, the Administrator shall submit the plan to the Committee on 
Science and Technology of the House of Representatives and the 
Committee on Commerce, Science, and Transportation of the Senate.

SEC. 409. SCIENCE AND EXPLORATION.

    It is the sense of Congress that NASA's scientific and human 
exploration activities are synergistic; science enables exploration and 
human exploration enables science. The Congress encourages the 
Administrator to coordinate, where practical, NASA's science and 
exploration activities with the goal of maximizing the success of human 
exploration initiatives and furthering our understanding of the 
Universe that we explore.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Attachment D

    Members of the Review of U.S. Human Space Flight Plans Committee

        --  Norman Augustine (Chair), retired Chairman and CEO, 
        Lockheed Martin Corp., and former member of the President's 
        Council of Advisors on Science and Technology under Presidents 
        Bill Clinton and George W. Bush

        --  Dr. Wanda Austin, President and CEO, The Aerospace Corp.

        --  Bohdan Bejmuk, Chair, Constellation program Standing Review 
        Board, and former manager of the Boeing Space Shuttle and Sea 
        Launch programs

        --  Dr. Leroy Chiao, former astronaut, former International 
        Space Station commander and engineering consultant

        --  Dr. Christopher Chyba, Professor of Astrophysical Sciences 
        and International Affairs, Princeton University, and member, 
        President's Council of Advisors on Science and Technology

        --  Dr. Edward Crawley, Ford Professor of Engineering at MIT 
        and Co-Chair, NASA Exploration Technology Development Program 
        Review Committee

        --  Jeffrey Greason, co-founder and CEO, XCOR Aerospace, and 
        Vice-Chair, Personal Spaceflight Federation

        --  Dr. Charles Kennel, Chair, National Academies Space Studies 
        Board, and Director and Professor Emeritus, Scripps Institution 
        of Oceanography, University of California, San Diego

        --  Retired Air Force Gen. Lester Lyles, Chair, National 
        Academies Committee on the Rationale and Goals of the U.S. 
        Civil Space Program, former Air Force Vice Chief of Staff and 
        former Commander of the Air Force Materiel Command

        --  Dr. Sally Ride, former astronaut, first American woman in 
        space, CEO of Sally Ride Science and Professor Emerita at the 
        University of California, San Diego

Attachment E

  Statements to the Review of U.S. Human Space Flight Plans Committee

               By Chairman Gordon and Ranking Member Hall

                  Committee on Science and Technology

                     U.S. House of Representatives

   Statement to the Review of U.S. Human Space Flight Plans Committee
                            Hon. Bart Gordon
             Chairman, Committee on Science and Technology
                     U.S. House of Representatives
                             July 17, 2009
    Thank you for the opportunity to submit this statement. I regret 
that I was unable to participate in your June 17th meeting due to prior 
congressional commitments, and I look forward to meeting with you in 
person at a later date if you are interested in doing so.
    You have asked for a congressional perspective on the human space 
flight-related policies of the NASA Authorization Acts of 2005 and 2008 
[P.L. 109-155 and P.L. 110-422, respectively]. I think that the most 
appropriate way to view the human space flight-related provisions of 
both Acts is in the context of the overall goals of the legislation, 
namely, to promote a balanced and robust program of space and 
aeronautics initiatives at the National Aeronautics and Space 
Administration and to authorize funding levels commensurate with the 
tasks that NASA is being asked to undertake. It was the consensus of 
Congress in its consideration of those Acts that human space flight and 
exploration is an important component of a balanced NASA portfolio, as 
well as being in the national interest for geopolitical, technological, 
scientific, and inspirational reasons. In that regard, I would quote 
Finding #1 of P.L. 110-422: ``NASA is and should remain a multi-mission 
agency with a balanced and robust set of core missions in science, 
aeronautics, and human space flight and exploration.''
    With respect to human space flight and exploration, both the 2005 
and 2008 Authorization Acts represent a congressional consensus on the 
importance of completing the International Space Station [ISS] and 
ensuring its productive utilization in support of research and 
development activities required for exploration beyond low Earth orbit, 
as well as basic and applied R&D that could have terrestrial benefits. 
With respect to the question of what the operational lifetime of the 
ISS should be, Congress states the following in Section 601 of the NASA 
Authorization Act of 2008:

         ``(a) In General.--The Administrator shall take all necessary 
        steps to ensure that the International Space Station remains a 
        viable and productive facility capable of potential United 
        States utilization through at least 2020 and shall take no 
        steps that would preclude its continued operation and 
        utilization by the United States after 2015.''

    In addition, Sec. 601(b) emphasizes the importance of effective 
utilization of the ISS by directing that the NASA Administrator submit 
``. . . a plan to support the operations and utilization of the 
International Space Station beyond fiscal year 2015 for a period of not 
less than five years.'' Thus, while Congress does not explicitly 
mandate the continuation of the ISS program past 2015 in P.L. 110-422, 
I believe that the aforementioned provisions reflect a congressional 
consensus that the productive utilization of the ISS is an important 
national goal, and the ISS program should not be constrained to an 
arbitrary termination date.
    That said, Congress recognizes that productive operation and 
utilization of the ISS will be challenging once the Space Shuttle is 
retired following the completion of its flight manifest. While Congress 
is very supportive of NASA's plans to use commercial cargo resupply 
services once they are developed, Congress also wants NASA to have 
contingency arrangements in place, including international partner 
resupply capabilities, so that the Nation's utilization of the ISS is 
not jeopardized. Thus, Sec. 603 of P.L. 110-422 includes a provision 
that states:

         ``The Administrator shall develop a plan and arrangements, 
        including use of International Space Station international 
        partner cargo resupply capabilities, to ensure the continued 
        viability and productivity of the International Space Station 
        in the event that United States commercial cargo resupply 
        services are not available during any extended period after the 
        date that the Space Shuttle is retired.''

    One of the great accomplishments--and strengths--of the 
International Space Station program has been the durable international 
partnership that has developed over the program's lifetime, and we 
believe that anything that can be done by the partnership to increase 
the post-Shuttle resiliency of the ISS should be encouraged.
    It is an unfortunate policy failure that there will be a gap 
between the retirement of the Space Shuttle and commencement of 
operations of the follow-on Constellation space transportation system. 
However, at this point there do not appear to be really good options 
available that would obviate such a gap. Congress in the NASA 
Authorization Act of 2008 makes clear that it considers the most 
appropriate approach to be development of the follow-on Constellation 
systems as soon as possible with the goal of providing a system that 
can both service the ISS until other capabilities become available and 
support human exploration beyond low Earth orbit. As is stated in 
Finding #8 of P.L. 110-422:

         ``Developing United States human space flight capabilities to 
        allow independent American access to the International Space 
        Station, and to explore beyond low Earth orbit, is a 
        strategically important national imperative, and all prudent 
        steps should thus be taken to bring the Orion Crew Exploration 
        Vehicle and Ares I Crew Launch Vehicle to full operational 
        capability as soon as possible and to ensure the effective 
        development of a United States heavy-lift launch capability for 
        missions beyond low Earth orbit.''

    In support of that position, Congress authorizes an additional $1 
billion dollars in P.L. 110-422 above the President's FY 2009 request 
to accelerate the initial operating capability of the Orion Crew 
Exploration Vehicle and Ares I Crew Launch Vehicle. Congress is 
committed to the success of those development projects and wants to 
ensure that they are brought to operational status in an effective and 
efficient manner. I thus believe that the threshold for any decision to 
deviate from the projects of record at this point in their development 
should be high, e.g., major technical feasibility issues, prohibitive 
cost growth/schedule delays, or unacceptable safety risk.
    It is important to note that both the 2005 and 2008 Authorization 
Acts make clear that Congress does not view the primary objective of 
the human space flight program to be just having the capability for 
Americans to access low Earth orbit, or the two pieces of legislation 
would not place the emphasis that they do on developing systems to 
support human missions beyond low Earth orbit, as referenced in both 
the above-mentioned sections and in Title IV of P.L. 110-422. Thus, if 
is determined that adjustments are required to the Constellation 
program of record, priority should be given to timely development of a 
transportation capability for enabling human missions to the Moon and 
other destinations beyond low Earth orbit and for ensuring NASA's 
ability to access the ISS as needed.
    Furthermore, while Sec. 902 of P.L. 110-422 seeks to stimulate the 
development of a commercial crew transportation capability in the 
United States, the congressional motivation for development of such a 
capability was not elimination of the post-Shuttle ``gap'' over the 
near-term--there was no consensus on that matter when the legislation 
was being considered by Congress. In addition, Congress is quite clear 
in Sec. 902(b) of the Act as to the relative priority to be given to 
federal support of a commercial crew initiative versus funding for 
NASA's Constellation program:

         ``(b) Congressional Intent.--It is the intent of Congress that 
        funding for the program described in subsection (a)(4) [i.e., 
        COTS crewed vehicle demonstration program] shall not come at 
        the expense of full funding of the amounts authorized under 
        section 101(3)(A), and for future fiscal years, for Orion Crew 
        Exploration Vehicle development, Ares I Crew Launch Vehicle 
        development, or International Space Station cargo delivery.''

    It is clear from the NASA Authorization Acts of 2005 and 2008 that 
a durable congressional consensus has been achieved on goals and 
objectives for the Nation's human and robotic exploration of the solar 
system, as well as on the overall approach to be taken. That is a 
significant accomplishment, and I would hope that your panel will 
resist the temptation to propose major departures from that hard-won 
consensus. It should be noted that Congress's direction for the 
Nation's exploration initiative is consistent with the broad goals and 
objectives of President Bush's Vision for Space Exploration, a Vision 
that unfortunately was not accompanied by resources sufficient to 
realize it as originally articulated without doing damage to other 
important NASA missions.
    The congressional consensus on exploration is summarized by the 
following provisions from P.L. 110-422:

Finding #7 ``Human and robotic exploration of the solar system will be 
a significant long-term undertaking of humanity in the 21st century, 
and it is in the national interest that the United States should assume 
a leadership role in a cooperative international exploration 
initiative.''

    The legislation elaborates on that Finding in Sections 401 and 402 
of the Act:

Sec. 401: ``It is the sense of Congress that the President of the 
United States should invite America's friends and allies to participate 
in a long-term international initiative under the leadership of the 
United States to expand human and robotic presence into the solar 
system, including the exploration and utilization of the Moon, near-
Earth asteroids, Lagrangian points, and eventually Mars and its moons, 
among other exploration and utilization goals. When appropriate, the 
United States should lead confidence building measures that advance the 
long-term initiative for international cooperation.''

Sec. 402: ``Congress hereby affirms its support for--

        (1)  the broad goals of the space exploration policy of the 
        United States, including the eventual return to and exploration 
        of the Moon and other destinations in the solar system and the 
        important national imperative of independent access to space;

        (2)  the development of technologies and operational approaches 
        that will enable a sustainable long-term program of human and 
        robotic exploration of the solar system;

        (3)  activity related to Mars exploration, particularly for the 
        development and testing of technologies and mission concepts 
        needed for eventual consideration of optimal mission 
        architectures, pursuant to future authority to proceed with the 
        consideration and implementation of such architectures; and

        (4)  international participation and cooperation, as well as 
        commercial involvement in space exploration activities.

    With respect to the implementation of the Nation's exploration 
initiative, both the 2005 and 2008 NASA Authorization Acts emphasize 
the importance of the Moon as a stepping-stone for exploration as well 
as a potential venue for utilization activities. In that regard, 
Section 403 of P.L. 110-422 states:

         ``In order to maximize the cost-effectiveness of the long-term 
        exploration and utilization activities of the United States, 
        the Administrator shall take all necessary steps, including 
        engaging international partners, to ensure that activities in 
        its lunar exploration program shall be designed and implemented 
        in a manner that gives strong consideration to how those 
        activities might also help meet the requirements of future 
        exploration and utilization activities beyond the Moon. The 
        timetable of the lunar phase of the long-term international 
        exploration initiative shall be determined by the availability 
        of funding. However, once an exploration-related project enters 
        its development phase, the Administrator shall seek, to the 
        maximum extent practicable, to complete that project without 
        undue delays.''

    In addition, while Congress is on record in the 2005 NASA 
Authorization in support of development of a sustained U.S. human 
presence on the Moon, Congress wants to maintain flexibility and 
resiliency with respect to the Nation's lunar activities. Thus Section 
404(a) of P.L. 110-422 states:

         ``As NASA works toward the establishment of a lunar outpost, 
        NASA shall make no plans that would require a lunar outpost to 
        be occupied to maintain its viability. Any such outpost shall 
        be operable as a human-tended facility capable of remote or 
        autonomous operation for extended periods.''

    While there are a number of other important provisions related to 
human space flight and exploration contained in the NASA Authorization 
Acts of 2005 and 2008, I will not dwell on them here and instead would 
refer you to those Acts. However, among them are four considerations 
that I would highlight that Congress believes need attention in the 
Nation's conduct of its human exploration initiative. First, as Section 
405 of the 2008 Act concludes: ``A robust program of long-term 
exploration-related research and development will be essential for the 
success and sustainability of any enduring initiative of human and 
robotic exploration of the solar system.'' Such non-flight project-
specific technology development activities have withered at NASA and 
need to be revitalized. They should be viewed as intrinsic to NASA's 
exploration effort and its mission as a cutting-edge R&D agency, and 
they should be robustly funded.
    Second, Congress believes that a well-executed exploration program 
can have significant inspirational and educational benefits. However, 
the public needs to become engaged for those benefits to be realized. 
Section 408 [``Participatory Exploration''] of P.L. 110-422 represents 
an initial attempt by Congress to encourage increased public engagement 
in the Nation's human and robotic exploration activities by leveraging 
technologies in the Constellation systems that can deliver a rich 
multimedia experience to the public. In addition, Congress believes 
that the ISS can provide additional opportunities for educational 
outreach.
    Third, Congress believes that NASA should coordinate, where 
practical, its science and exploration activities to capture the 
synergies between them. The goal of the coordination should be to 
maximize the success of the human exploration initiative and to further 
our understanding of the universe.
    Fourth, one of the broad benefits to the Nation of a robust 
exploration program can be the engagement and encouragement of the 
commercial sector to the extent practicable. NASA is already 
undertaking initiatives in that regard in its overall human space 
flight program, but Congress is encouraging NASA to also look for 
opportunities to support its planned activities beyond low Earth orbit, 
such as with respect to the lunar outpost.
    In conclusion, there now exists a broad congressional consensus on 
appropriate goals, objectives, and implementation strategies for NASA's 
human space flight and exploration activities, as reflected in the NASA 
Authorization Acts of 2005 and 2008. It is now time to ensure that all 
appropriate steps are taken to maximize the probability of success in 
achieving those goals and objectives through the projects that are 
currently under development. That will require a steadfastness of 
purpose, and I am encouraged that Congress has achieved a durable 
consensus that I hope will be matched by the Administration once your 
review has been completed. It will also require resource commitments 
commensurate with the tasks that the Nation is asking NASA to 
undertake--we should not pretend that such challenging goals can be 
achieved ``on the cheap.'' That approach has already been tried, and it 
has been proved wanting. I hope that your review will provide a clear 
understanding of what will be required if America is to retain its 
leadership in human space flight by undertaking the challenging 
initiatives called out in the NASA Authorization Acts of 2005 and 2008.
    I would be happy to discuss any of these matters in further detail 
if you would like to do so.
                              STATEMENT OF
                    THE HONORABLE RALPH HALL (R-TX)
     Ranking Member, U.S. House Committee on Science and Technology
                U.S. Human Space Flight Plans Committee
                        Wednesday, June 17, 2009
                    Carnegie Institution for Science
    I want to thank the Members of this committee for the important 
work you are doing on behalf of our nation. I also want to thank you 
for the opportunity to share my views on the human space flight-related 
policies of the NASA Authorization Acts of 2005 and 2008 (P.L. 109-155 
and P.L. 110-422 respectively). The views expressed here are primarily 
mine but I know they are shared by a number of my colleagues.

America must be the Preeminent Space-faring Nation

    I think it is important to note that the first Authorization Act of 
2005 (P.L. 109-155) was the product of a Republican-led Congress and 
the second Authorization Act in 2008 (P.L. 110-422) was the product of 
a Democratically-led Congress. Yet, in both cases the intent was the 
same, to enable NASA to succeed on its current path toward completion 
of the International Space Station, utilize the Station to carry out 
world-class research, retire the Space Shuttle after completing its 
remaining flights without the constraint of a predetermined date, and 
develop a new launch system capable of taking humans beyond low Earth 
orbit--a feat the Shuttle cannot do--for the first time since the 
1970s. In both of our Authorizations we allocated more money than the 
Administration requested because in our opinion NASA was being asked to 
do too much with too little. I am concerned that we cannot continue to 
be the preeminent space-faring nation without adequate Administration 
support and appropriate funding.
    One of the most important issues facing NASA, and indeed our 
nation, is the impending retirement of the Space Shuttle, and the 
subsequent five year gap in independent U.S. access to the $100 billion 
International Space Station. With the NASA Authorization Act of 2005, 
Congress endorsed the development of the new spacecraft and launch 
vehicles (and I stress launch vehicles plural) with the goal of 
launching the new system ``as close to 2010 as possible.''
    In the NASA Authorization Act of 2008 Congress established the new 
system as a priority by stating, ``Developing United States human space 
flight capabilities to allow independent American access to the 
International Space Station, and to explore beyond low Earth orbit, is 
a strategically important national imperative (emphasis added), and all 
prudent steps should thus be taken to bring the Orion Crew Exploration 
Vehicle and Ares I Crew Launch Vehicle to full operational capability 
as soon as possible, and to ensure the effective development of a U.S. 
heavy-lift launch capability for missions beyond low Earth orbit.'' As 
a result, the Act sought to accelerate the development of the new 
system by authorizing an additional $1 billion in FY09.
    Looking longer-term we are very concerned that the current budget 
request has eliminated funding for the Ares 5 heavy-lift launcher, and 
the Altair Lunar Lander, without which America is unable to explore 
beyond low Earth orbit.
    The NASA Authorization Act of 2008 also recognized the Space 
Shuttle's critical role in completing and utilizing the International 
Space Station, and added one additional mission, if it could be done 
safely, to deliver the Alpha Magnetic Spectrometer (AMS). As 
Authorizers, we are concerned that NASA may be unable to complete the 
remaining Shuttle missions, including the AMS flight, before the end of 
2010. Unless the Administration and the Congress provide funds 
commensurate with extension, the Agency could be forced to take 
resources away from the development of Orion and Ares, adding delays 
that could further jeopardize the 2015 availability, and contribute to 
further losses of our highly-skilled aerospace workforce.
    I, along with many of my colleagues, am not in favor of excessive 
government spending. But in this time of economic turmoil and growing 
international technological competitiveness, many of us are in 
agreement that America's space program is well-established on a path 
that, if sustained, will ensure our role as the world leader in space 
exploration and exploitation for decades to come. By pursuing human 
space flight we challenge our industry and inspire America to dream big 
and succeed. That is what leadership is all about.
    Other countries recognize the strategic importance of the soft 
power we gained in the world through our audacious leadership in human 
space flight. The political and technological stature America has 
earned through our space program is now sought by other nations eager 
to demonstrate their hard-won capabilities to the world. The 
International Space Station in orbit today is a remarkable achievement, 
bringing together the scientific and engineering talents, and resources 
of many nations. That achievement would not have been possible without 
American leadership. But such leadership is built on trust that we will 
keep our commitments to our international partners. If we continue to 
under-fund our space program we risk losing the international trust and 
credibility that is vital for long-term success.
    Today, nearly 70 percent of the world's population was not alive to 
see Neil Armstrong walk on the Moon. Their opinions will be shaped by 
what happens in the future, not what happened in the past. We should 
not be in a race with China or any other country. We are the preeminent 
leader in space. But leadership is temporary. We should ensure that we 
take the necessary actions to remain the leader in human space flight.
    I want to thank the Committee once again for this opportunity to 
share our minority views.
    Chairman Gordon. This hearing will come to order. Good 
afternoon. I want to welcome our witnesses to today's hearing. 
And let me also say to our audience, and we are glad to see so 
many folks here today, that we may very well have some votes on 
the Floor. We are not sure what is going to quite happen later 
on. My partner, Mr. Hall, and I have agreed that we are going 
to try to send someone over as soon as the bell rings so that 
they can vote and then maybe will be able to come back in so 
that we can sort of keep things going. I am afraid that some of 
our witnesses won't be available again for some time, so we 
need to be able to try to run this through today. So if it gets 
a little--lots of bells, we are going to try to work our way 
through that.
    And so to the witnesses, let me say you bring significant 
experience to this afternoon's deliberations, and we look 
forward to your testimony.
    Today's hearing marks the first congressional examination 
of the summary report of the Review of U.S. Human Space Flight 
Plans Committee, which was released just last week. We will 
have two panels of witnesses appearing before us today.
    The first panel consists of someone who is no stranger to 
this committee, Mr. Norman Augustine, an individual with many 
years of experience in the aerospace field. Mr. Augustine 
chaired the Human Space Flight Review Committee, and he will 
present the findings of that review in his testimony today.
    The second panel will consist of two witnesses. The first, 
Admiral Joseph Dyer, is the Chair of the congressionally-
established Aerospace Safety Advisory Panel. I believe that as 
we consider the potential paths of our nation's human space 
flight program, we need to make sure that we keep safety 
uppermost in our deliberations, and Admiral Dyer is well-
equipped to help us understand the safety issues that need to 
be considered. The second, Dr. Michael Griffin, currently 
serves as a Professor at the University of Alabama in 
Huntsville, and before that, he served the Nation as NASA 
Administrator. Dr. Griffin was heavily involved in the 
formulation of the Constellation architecture that has been 
authorized and for which funds have been appropriated by 
Congress over the past four years.
    Fundamentally I believe what this hearing should be about 
is determining where we go from here.
    I have made no secret in recent years of my belief that the 
resources given to NASA haven't kept pace with the important 
tasks that we have asked NASA to undertake. That has caused 
significant stresses in recent years, and we cannot continue to 
go down that path.
    We either have to give NASA the resources that it needs or 
stop pretending that it can really do all that has been put on 
its plate.
    So as we proceed today, my focus is on the future. In that 
regard, I want our witnesses to help the Committee address a 
number of important questions. First, NASA has been working for 
more than four years on the Constellation program, a 
development program in support of which Congress has invested 
billions of dollars over that same period. As a result, I think 
that good public policy would tell us that there needs to be a 
compelling reason to scrap what we have invested our time and 
money in over these past four years. Thus we will need to know 
whether or not the review panel found any major problems with 
the Constellation program that would warrant its cancellation, 
such as technical showstoppers, improper cost controls, or 
mismanagement.
    Second, I have no interest in buying a pig in a poke, and I 
don't think anyone else in Congress or the White House will 
want to, either. Thus we need to know how we can credibly 
compare options proposed by the review panel that are still 
immature.
    Do we just pick an option and hope for the best, or will we 
need to bring our exploration program to a halt for a year or 
more while the options are fleshed out and then re-evaluated 
once the specific implications of each are better understood?
    And third, safety has to be a significant determination in 
what we do. The review panel's summary report is largely silent 
on safety. How do we meaningfully compare the safety 
implications of the various options proposed by the review 
panel?
    And finally, while the review committee proposed a number 
of options that it asserted could be done with enhanced 
funding, what if the Administration or Congress determines that 
there will be no enhanced funding? Is there any path forward 
that makes sense in this situation?
    Well, we have quite a lot to discus today, and I again want 
to thank our witnesses for their testimony.
    Before closing I should note that while we initially sought 
the participation of NASA Administrator Bolden at today's 
hearing, we determined that it would be premature for him to 
appear until the Administration has developed its proposal to 
the Augustine Committee's report.
    We look forward to having Administrator Bolden later, and 
we certainly will.
    With that said, I will now recognize Mr. Hall for any 
opening remarks he might like.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    Good afternoon. I want to welcome our witnesses to today's hearing. 
You each bring significant experience to this afternoon's 
deliberations, and we look forward to your testimony.
    Today's hearing marks the first congressional examination of the 
summary report of the Review of U.S. Human Space Flight Plans 
Committee, which was released just last week. We will have two panels 
of witnesses appearing before us today.
    The first panel consists of someone who is no stranger to this 
committee, Mr. Norman Augustine, an individual with many years of 
experience in the aerospace field. Mr. Augustine chaired the human 
space flight review committee, and he will present the findings of that 
review in his testimony today.
    The second panel will consist of two witnesses. The first, Admiral 
Joseph Dyer, is the Chair of the congressionally-established Aerospace 
Safety Advisory Panel. I believe that as we consider the potential 
paths for our nation's human space flight program, we need to make sure 
that we keep safety uppermost in our deliberations, and Adm. Dyer is 
well equipped to help us understand the safety issues that need to be 
considered. The second, Dr. Michael Griffin, currently serves as a 
Professor at the University of Alabama in Huntsville, and before that, 
he served the Nation as NASA Administrator. Dr. Griffin was heavily 
involved in formulating the Constellation architecture that has been 
authorized and for which funds have been appropriated by Congress over 
the past four years. As such, he will be able to help this committee 
better understand the considerations that go into developing a mature 
human space exploration architecture, which should aid our 
deliberations as we work to determine the best path forward.
    Because that's fundamentally what I believe this hearing should be 
about--determining where we go from here.
    I have made no secret in recent years of my belief that the 
resources given to NASA haven't kept pace with the important tasks that 
we have asked NASA to undertake. That has caused significant stresses 
in recent years, and we can't continue down that path.
    We either have to give NASA the resources that it needs or stop 
pretending that it can do all we've put on its plate. That's especially 
true for NASA's exploration program, and it's true for the rest of its 
important missions too.
    So as we proceed today, my focus is on the future. In that regard, 
I want our witnesses to help the Committee address a number of 
important questions. First, NASA has been working for more than four 
years on the Constellation program, a development program in support of 
which Congress has invested billions of dollars over that same period. 
As a result, I think that good public policy argues for setting the bar 
pretty high against making significant changes in direction at this 
point--that is, there would need to be a compelling reason to scrap 
what we've invested our time and money in over these past four years. 
Thus we will need to know whether or not the review panel found any 
major problems with the Constellation program that would warrant its 
cancellation, such as technical ``showstoppers,'' improper cost 
controls, or mismanagement. If it didn't, logic would argue that our 
focus should be on ensuring the success of the current approach, not 
walking away from it.
    Second, I have no interest in buying a pig in a poke . . . and I 
don't think anyone else in Congress or the White House will want to 
either. Thus we need to know how we can credibly compare options 
proposed by the review panel that are immature technically, 
programmatically, and from a cost estimation standpoint--especially 
relative to the current program.
    Do we just pick an option and hope for the best, or will we need to 
bring our exploration program to a halt for a year or more while the 
options are fleshed out and then re-evaluated once the specific 
implications of each are better understood?
    Third, safety has to be a significant determinant of what we do. 
The review panel's summary report is largely silent on safety. How do 
we meaningfully compare the safety implications of the various options 
proposed by the review panel?
    And finally, while the review committee proposed a number of 
options that it asserted could be done with enhanced funding, what if 
the Administration or Congress determines that there will be no 
enhanced funding--is there any path forward that makes sense in that 
situation?
    Well, we have quite a lot to discus today, and I again want to 
thank our witnesses for their testimony.
    Before closing I should note that while we initially sought the 
participation of NASA Administrator Bolden at today's hearing, we 
determined that it would be premature for him to appear until the 
Administration has developed its response to the Augustine Committee's 
report.
    We look forward to having Administrator Bolden testify at a later 
date.
    With that said, I will now recognize Mr. Hall for any opening 
remarks he may care to make.

    Mr. Hall. Mr. Chairman, I thank you for holding the hearing 
today. I want to welcome my good friends, Mr. Augustine, Mike 
Griffin, and Joe Dyer who have agreed to testify before us 
today. America's space program owes you a great debt of 
gratitude for the important roles each of you play and continue 
to play and the amount of your time you have given to this 
appointment, and I want to thank you for coming and sharing 
your wealth of knowledge and experience with us today.
    In the aftermath of the Columbia tragedy, we did some 
national soul-searching. The Columbia Accident Investigation 
Board admonished us for a ``failure of national leadership'' 
that it said contributed to the accident and to NASA's 
inability to finish earlier programs deemed as hoped-for 
replacements for the Space Shuttle. The CAIB acknowledged that 
human space flight is a risky endeavor and observed, ``The 
design of the system should give overriding priority to crew 
safety, rather than trade safety against other performance 
criteria, such as low cost and reusability.'' Crew safety has 
always been my number one priority, and I worked toward that, 
had petitions for it, we have had money set aside for it. Some 
of it John Glenn used to make a trip, but I was for that 
because he is one of my fellow senior citizens up here. I don't 
think that we would be where we are in space today if America 
hadn't paid so much attention to this very vital concern: 
safety.
    The Columbia Accident Investigation Board also encouraged 
us to clarify our goals in space so it would be worthy of the 
risks. I was encouraged in February of 2004 when the Bush 
Administration unveiled the Vision for Space Exploration 
because it gave NASA a clear direction, with measurable goals 
that had long been lacking. NASA was directed then to complete 
the International Space Station so it could be used by all the 
international partners for microgravity research into new 
vaccines and other promising bio-medical research, as well as 
research the long-term effects of space flight on humans and go 
down that road. That Vision also promised to move us beyond low 
Earth orbit by reestablishing our capabilities that have been 
lost since 1972 allowing us to return to the Moon, our nearest 
neighbor in space. It is my opinion that NASA has the greatest 
chance of success if given a clearly defined destination and 
the clearly defined design requirements that go with it.
    The Congress held many hearings after the Vision was 
announced, and in the end agreed with the goals and direction 
of the plan proposed. I think it is important to note that both 
the 2005 and the 2008 NASA Authorization Acts reflect broad, 
bipartisan, bicameral support for the elements that original 
Vision. Any administration should carefully consider how 
difficult that level of consensus is and how difficult it could 
be to reestablish. Our greatest concern then as well as now has 
been the inadequate level of funding being requested and the 
gap between the retirement of the Space Shuttle and development 
of the follow-on Constellation system. In the ensuing years, 
these problems have only gotten worse.
    I am not a fan of increased spending, but I have always 
thought our human space flight program gives the United States 
so much to be proud of and carries within it the promise of 
significant breakthroughs in health care, defense, and 
alternative energy technologies.
    Mr. Chairman, in many ways it is hard for me to understand 
why the President is seeking new options at all when there has 
been an agreed-upon plan for several years. Why don't we just 
fund the program we have all agreed to? Why should multi-
billion dollar bailouts of banks and insurance companies come 
at the expense of our talented scientists, engineers, and 
technicians who make the impossible look easy? It might be an 
impact on our national defense some day. I think many of us 
think that it would take a very small fraction of our federal 
budget, just tenths of one percent, to make a significant 
difference in our human space flight goals. But if even that 
level of funding is not forthcoming, we have to be very careful 
how we proceed because we have a lot at stake, and crew safety 
should be paramount.
    Mr. Augustine's panel reports that commercial launch 
services hold some promise, and our committee has supported the 
development of several commercially-based ideas such as NASA's 
Commercial Orbital Transportation System and ISS Cargo Resupply 
Services, but commercial services should not be considered a 
cheap substitute for lack of national leadership in human space 
flight. Our NASA Authorization Acts and other legislation of 
the FAA Office of Commercial Space Transportation have 
encouraged prize competitions designed to inspire smaller 
private companies to develop innovative technologies. Just this 
past Saturday, Armadillo Aerospace of my home town and the 
smallest county of Texas, Rockwall County, become the first 
company to qualify for the $1 million top prize of NASA's 
Northrop Grumman Lunar Lander Challenge at Caddo Mills 
Municipal Airport. I applaud John Carmack and his team for 
their innovative and creative thinking. These are exciting and 
useful ventures, but in our desire to save money, let us not 
forget that you get what you pay for, and when it comes to 
transporting humans into space, our overriding priority should 
be crew safety, not lowest cost or reusability.
    Mr. Chairman, I look forward to the hearing today, and 
thank you, sir.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Mr. Chairman, thank you for holding today's important hearing on 
Options and Issues for NASA's Human Space Flight Program. I want to 
welcome my good friends Norm Augustine, Mike Griffin and Joe Dyer who 
have agreed to testify before us today. America's space program owes 
you a debt of gratitude for the important roles each of you have 
played, and continue to play. I want to thank you for coming and 
sharing your wealth of knowledge and experience with us.
    In the aftermath of the Columbia tragedy, we did some national 
soul-searching. The Columbia Accident Investigation Board (CAIB) 
admonished us for a ``failure of national leadership'' that it said 
contributed to the accident and to NASA's inability to finish earlier 
programs deemed as hoped-for replacements for the Space Shuttle. The 
CAIB acknowledged that human space flight is a risky endeavor and 
observed, ``the design of the system should give overriding priority to 
crew safety, rather than trade safety against other performance 
criteria, such as low cost and reusability.'' Crew safety is my number 
one priority. I do not think we would be where we are in space today if 
America had not paid so much attention to this vital concern.
    The Columbia Accident Investigation Board also encouraged us to 
clarify our goals in space so they would be worthy of the risks. I was 
encouraged in February of 2004 when the Bush Administration unveiled 
the Vision for Space Exploration, because it gave NASA a clear 
direction, with measurable goals, that had been lacking. NASA was 
directed to complete the International Space Station so it could be 
used by all the international partners for microgravity research into 
new vaccines and other promising bio-medical research, as well as 
research the long-term effects of space flight on humans. That Vision 
also promised to move us beyond low Earth orbit, by re-establishing our 
capabilities that have been lost since 1972, allowing us to return to 
the Moon our nearest neighbor in space. It is my opinion that NASA has 
the greatest chance of success if given a clearly defined destination 
and the clearly defined design requirements that go with it.
    The Congress held many hearings after the Vision was announced, and 
in the end agreed with the goals and direction of the plan proposed. I 
think it is important to note that both the 2005 and 2008 NASA 
Authorization Acts reflect broad, bipartisan, bicameral support for the 
elements of that original vision. Any Administration should carefully 
consider how difficult that level of consensus is, and how difficult it 
could be to re-establish. Our greatest concern then-as-well-as-now, has 
been the inadequate level of funding being requested, and the gap 
between the retirement of the Space Shuttle and development of the 
follow-on Constellation system. In the ensuing years those problems 
have only gotten worse.
    I am not a fan of increased spending, but I have always thought our 
human space flight program gives the United States so much to be proud 
of, and carries within it the promise of significant breakthroughs in 
health care, defense, and alternative energy technologies.
    Mr. Chairman, in many ways it's hard for me to understand why the 
President is seeking new options at all when there has been an agreed 
upon plan for several years. Why don't we just fund the program we've 
all agreed to? Why should multi-billion dollar bailouts of banks and 
insurance companies come at the expense of our talented scientists, 
engineers and technicians who make the impossible look easy? I think 
many of us agree that it would take a very small fraction of our 
federal budget, just tenths of one percent, to make a significant 
difference in our human space flight goals. But if even that level of 
funding is not forthcoming, we must be very careful how we proceed 
because we have a lot at stake, and crew safety should be paramount.
    Mr. Augustine's panel reports that commercial launch services hold 
some promise, and our committee has supported the development of 
several commercially-based ideas such as NASA's Commercial Orbital 
Transportation System and ISS Cargo Resupply Services, but commercial 
services should not be considered a cheap substitute for lack of 
national leadership in human space flight. Our NASA Authorization Acts 
and other legislation for the FAA Office of Commercial Space 
Transportation have encouraged prize competitions designed to inspire 
smaller private companies to develop innovative technologies. Just this 
past Saturday, Armadillo Aerospace of Rockwall, Texas became the first 
company to qualify for the $1 million top prize of NASA's Northrop 
Grumman Lunar Lander Challenge at Caddo Mills Municipal Airport. I 
applaud John Carmack and his team for their innovative and creative 
thinking. These are exciting and useful ventures, but in our desire to 
save money let us not forget that you get what you pay for, and when it 
comes to transporting humans into space our overriding priority should 
be crew safety, not lowest cost or reusability.
    Mr. Chairman, I look forward to today's hearing, and I yield back 
my time.

    Chairman Gordon. Thank you, Mr. Hall. If there are other 
Members who wish to submit additional opening statements, your 
statements will be added for the record at this point.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good afternoon. Thank you, Mr. Chairman, for holding today's 
hearing to review and discuss the summary report of the National 
Aeronautics and Space Administration (NASA) Review of U.S. Human Space 
Flight Plans Committee.
    I am pleased the review committee completed its survey of NASA's 
human space flight program in a timely and effective manner. In 
reviewing the summary report, I identified three areas I look forward 
to hearing the witnesses address.
    First, the review committee concluded that human space flight will 
not be sustainable under NASA's current budget, and I understand the 
review committee's view that an increase of $3 billion over several 
years will allow NASA to continue human space flight programs. However, 
I would like to know if the review committee considered Congress' 
frequently cited concerns regarding NASA's budget management abilities 
when determining that such an increase in funding would be necessary. I 
believe Congress and NASA should work together to ensure that these 
funds are appropriately and efficiently used.
    Second, as a strong supporter of Science, Technology, Engineering, 
and Math (STEM) education programs, I was concerned to see NASA's cut 
its budget request for STEM programs by $43 million for Fiscal Year 
2010. I would like to hear if the review committee considered other 
measures to prepare the next generation of astronauts and aerospace 
engineers. It is vitally important for our nation to attract new 
engineers and scientist to ensure the U.S. remains competitive in the 
21st century. Does the review committee have any recommendations to 
provide Congress on how we can work with NASA and the Administration to 
fulfill those needs?
    Third, as Chairman of the Aviation Subcommittee on the 
Transportation and Infrastructure Committee, I was interested in the 
review committee's findings regarding commercial entities and low Earth 
orbit travel. I would like to hear from our witnesses how the 
involvement of commercial carriers would be more efficient than a 
government program and how Congress can assist NASA in bringing about a 
commercial space program, should such an option be considered.
    I welcome our two panels of witnesses, and I look forward to their 
testimony. Thank you again, Mr. Chairman.

    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Good afternoon, Mr. Chairman. Welcome, distinguished witnesses.
    Mr. Augustine, I am delighted to see you here. I would like to 
commend your leadership on the U.S. Human Space Flight Plans Committee. 
Your work is, and has been, well-respected by Congress. I look forward 
to your presence next week at my Science and Technology Brain Trust. 
Your words will inspire many young people, who will be in the audience.
    The American public has been inspired by manned space flight since 
the space program was created, in the 1950s. Generations of young 
people have seen video footage of a man walking on the Moon and have 
said to themselves, ``I want to do that!'' Thousands of American 
children aspire to go to Space Camp. Others take professional paths 
toward engineering to work in the space industry.
    Aeronautics and space research have yielded unimaginable benefits. 
From lasers to Magnetic Resonance Imaging (MRI) technology, from 
satellites to water purification systems, NASA research has touched 
many aspects of our daily lives.
    I want to thank the U.S. Human Space Flight Plans Committee for its 
120-day review of feasibility and options for space flight into the 
next decades. The Committee brought different perspectives and 
specialized expertise together, into one package, to help guide policy-
makers as they make decisions about federal funding into space flight.
    As I have said before, NASA is incredibly important to Texas. The 
Johnson Space Center, just south of Houston, is a major economic engine 
for our state.
    In reviewing some of the Committee's perspective on short-term 
Space Shuttle planning, it recommends that, ``the current Shuttle 
manifest should be flown in a safe and prudent manner.''
    However, the Committee also surmised that, ``The U.S. human space 
flight program appears to be on an unsustainable trajectory.
    It is perpetuating the perilous practice of pursing goals that do 
not match allocated resources. . . . Space operations become all the 
more difficult when means to not match aspirations.''
    The Science Committee makes great efforts to make budget and 
funding recommendations that align with a responsible expenditure of 
public resources. With a deep recession, many federally-funded programs 
have also suffered from budget cuts. It seems to me that goals should 
be revised as anticipated funding streams change.
    The Committee is right. Grand plans mean little if the financial 
support is not present. During tight economic times, it is better to 
focus on safety first, then on a NASA program that may be more modest 
in scope, but is efficient and goal-oriented.
    As Michael Griffin stated in his testimony, ``the Commission didn't 
find anything wrong with the current program, didn't find anything 
safer, more reliable, cheaper, or faster. The roots are healthy. So, 
why throw away four years and $8 billion pulling up the flowers?''
    I agree. We must not undo strides made in a healthy program. I look 
forward to more study of the Committee's recommendations as human space 
flight moves forward.

    [The prepared statement of Chairwoman Giffords follows:]
          Prepared Statement of Chairwoman Gabrielle Giffords
    I want to join Chairman Gordon in welcoming our distinguished set 
of witnesses, and I look forward to their testimony. Today we will be 
discussing no less than the future of America's human space flight 
program--the program that I think every politician in Washington and 
across the country points to when we talk about America's great 
innovation and technological superiority. I know that each of our 
witnesses today will bring important insights to our deliberations.
    Yet as we start this hearing, I have to say that I am extremely 
frustrated, in fact, I am angry. With all due respect to Mr. Augustine 
and his panel, I have to say that I think we are no further ahead in 
our understanding of what it will take to ensure a robust and 
meaningful human space flight program than we were before they started 
their review. In fact, I'd argue that we have lost ground.
    Let's review the facts.
    Probably the most important finding of the Review of U.S. Human 
Space Flight Plans is the panel's determination that there is a serious 
mismatch between the challenges that we have asked NASA to meet and the 
resources that have been provided to the agency. In other words, we 
can't get anywhere worth going to under NASA's projected budgets. Well, 
we certainly didn't need an independent commission to tell us that. 
That's been painfully obvious for some time now. And the impact of that 
shortfall is that the good work being done by NASA's civil servants and 
contractors risks being undone.
    I'm glad they highlighted the problem, but it's not exactly news to 
anyone who has been involved in the budget battles of recent years. 
Don't get me wrong. I'm not denigrating the work done by Mr. Augustine 
and his panel. Mr. Augustine has an excellent reputation and I know 
that he has put a lot of work into this commission.
    They have given us a sobering reminder that our position as the 
world's leading space-faring nation is not a given--we continually need 
to re-earn that preeminent position through our actions, and we can't 
just rest on past laurels. The rest of the world has discovered space 
too, and we are seeing the emergence of impressive capabilities in 
other countries that we need to take seriously.
    That said, I think the men and women of NASA have demonstrated that 
they are up to the challenge. Over the past four years, they have moved 
from initial concepts into design and development of the Constellation 
systems. They have successfully completed a number of important design 
reviews, have undertaken test activities--including test-firing just 
last week the five-segment booster that will power the Ares I rocket 
into space and planning for a test flight of the Ares I-X rocket at the 
end of next month. And they've done all of this even though the 
budgetary sands keep shifting under them, taking away resources that 
they thought they could count on and forcing them continually to replan 
and rephase even while they are trying to complete the hard technical 
and programmatic work that has to be done if Constellation is to 
succeed.
    So when it was announced that Mr. Augustine would be leading an 
independent review of the Nation's human space flight program, I 
thought that they would take a hard look at the Constellation program 
and tell us what should be done to maximize its chances for success.
    But that's not what they did. Instead of focusing on how to 
strengthen the exploration program in which we have invested so much 
time and treasure, they gave only glancing attention to Constellation--
even referring to it in the past tense in their summary report--and 
instead spent the bulk of their time crafting alternative options that 
do little to illuminate the choices confronting Congress and the White 
House.
    And so where does that leave us? Well, in place of a serious review 
of potential actions that could be taken to improve and strengthen the 
Constellation program, we have been given set of alternative 
exploration options that are little more than cartoons--lacking any 
detailed cost, schedule, technical, safety or other programmatic 
specifics that we can be confident have been subjected to rigorous and 
comprehensive analysis and validation.
    So, I have to ask my colleagues on the Committee--what are we to do 
with this report? In the absence of evidence of mismanagement or 
technical or safety ``showstoppers''--none of which the Augustine panel 
has indicated has occurred in the Constellation program--can any of us 
in good conscience recommend canceling the exploration systems 
development programs that Congress has funded for the past four years 
on the basis of the sketchy alternatives contained in the panel's 
report?
    I know that I can't justify doing so, and I would suspect that you 
can't either. Hoping that ``maybe things will work out'' if we try 
something new is no substitute for the detailed planning and design and 
testing that has been the hallmark of successful space flight programs 
in the past. Nor do we gain anything by confusing hypothetical 
commercial capabilities that might someday exist with what we can 
actually count on now to meet the Nation's needs. We've made that 
mistake in the past, and we've suffered the consequences.
    So I have to say that I just don't get it. I don't see the logic of 
scrapping what the Nation has spent years and billions of dollars to 
develop in favor of starting down a new path developed in haste and 
which hasn't been subjected to any of the detailed technical and cost 
reviews that went into the formulation of the existing Constellation 
program.
    For the Nation's sake, I hope that we can break this cycle of false 
starts in our nation's human space flight program. It does not serve 
America well. As far as I can tell, the Constellation program's only 
sin is to have tried to implement a very challenging program with an 
inadequate budget. Yet, some would now advocate walking away from that 
program, not because it is not performing, but because we are unwilling 
to face the truth that, as Mr. Augustine said in testimony before our 
Committee more than five years ago, ``it would be a grave mistake to 
try to pursue a space program `on the cheap'.''
    I hope that the Administration and this Congress finally take those 
words to heart and do the right thing. The future of America's human 
space flight program is at stake.

    [The prepared statement of Mr. Mitchell follows:]
         Prepared Statement of Representative Harry E. Mitchell
    Thank you, Mr. Chairman.
    On May 7, 2009, the Office of Science and Technology Policy, 
Executive Office of the President, launched an independent review of 
planned U.S. human space flight activities with the goal ``of ensuring 
that the Nation is on a vigorous and sustainable path to achieving its 
boldest aspirations in space.''
    Today we will examine the summary report of this review as well as 
discuss the implications and related issues for NASA.
    NASA conducts vital research and development projects that help us 
learn about our surroundings.
    Arizona State University, which is located in my district, is home 
to researchers who work on many of these important NASA research 
projects.
    To maintain America's competitiveness in science and technology, we 
must do more than merely keep up. We must lead, and commit ourselves to 
providing the resources necessary to keep us at the forefront of this 
kind of cutting edge research and development.
    I look forward to hearing more from our witnesses about the 
findings of this report.
    I yield back.

                                Panel I:

    Chairman Gordon. First up is Mr. Norman Augustine who is 
currently servicing as the Chair, Review of the U.S. Human 
Space Flight Plans Committee and is the former CEO of Lockheed-
Martin and was the lead author of the National Academies 2005 
Report, Rising Above the Gathering Storm, which was the 
foundation for the first major legislation that this committee 
passed last year. And again, our country will be forever 
grateful to you I think as years go along. Your report and our 
legislation will be thought of as landmark legislation and will 
help our country do just what it says, compete.
    So Mr. Augustine, you are now recognized.

  STATEMENT OF MR. NORMAN R. AUGUSTINE, CHAIR, REVIEW OF U.S. 
               HUMAN SPACE FLIGHT PLANS COMMITTEE

    Mr. Augustine. Thank you very much, Mr. Chairman. Mr. Hall, 
Members of the Committee, I would with the Committee's 
permission like to submit a written statement for the record 
and just briefly summarize it here.
    Chairman Gordon. Without objection.
    Mr. Augustine. To begin with, I should acknowledge the 
colleagues on this committee who have devoted a remarkable 
amount of time and effort to putting together the findings that 
I will be describing today. I would also like to thank NASA for 
the terrific support they have given to our committee. That 
support has been invariably straightforward, responsive, and in 
the can-do spirit of NASA. Also I should acknowledge the 
Aerospace Corporation which our committee hired to work 
directly for the Committee to give us an independent arm to do 
more detailed analysis of costs and schedules, programmatics, 
technical issues than we could perform ourselves.
    Our committee had 10 members. It included scientists, 
engineers, educators, business executives, astronauts, former 
presidential appointees, retired general officer. In other 
words, it was a rather diverse committee that has come to what 
I believe to be a unanimous set of findings.
    As you know, we were only allowed 90 days to conduct our 
work, and the reason for that is that we were trying to match 
the budget cycle with which this committee is so familiar. 
Having said that, you should be aware of the limitations that 
are placed on our work because of that amount of time.
    It is very important for me to emphasize that we were not 
asked to make recommendations, and we have not done so. We were 
asked to offer options or alternatives and assessments, and 
that is what we have done and so that is what I will talk about 
today.
    First of all, when seeking a destination for the Human 
Space Flight Program, it was our view that above all else, Mars 
stands out, a human landing on Mars because Mars more closely 
matches the Earth than any other planet. It is physically 
reachable, a solid surface. It has materials on the surface of 
the planet. It has an atmosphere of sorts, and it is clearly 
the goal to be sought. But having said that, it is our view, 
and I realize that many don't agree with us, that from a safety 
standpoint we are not prepared to undertake a program to go 
directly to Mars at this point in time. There is a great deal 
of additional homework to be done, some of a rather fundamental 
nature before we set out on a mission directly to Mars.
    The various parameters our committee considered led to over 
3,000 possible options for us to consider. We sought to narrow 
that down to a manageable group, and in so doing obviously 
everyone's favorite option isn't there. But we do have five 
families of options that we think are broadly representative of 
the choices before our nation, and one can modify those options 
in some cases with relative ease. One of those options of 
course is the current plan that is now being pursued. That plan 
we have called the Program of Record and is our baseline 
option. We define the plan as being the program that NASA has 
told us it is pursuing and the budget that goes with it. We 
have used the budget that the Office of Management and Budget 
has told us is appropriate to that plan.
    I would note in echoing your views, Mr. Chairman, that 
ongoing programs should only be changed for compelling reasons, 
and we have tried at each of our alternatives to cite the 
strengths and the weaknesses of each of the alternatives, and 
each has both strengths and weaknesses. I won't because of lack 
of time in this statement describe the other four options, but 
they are in the report we published or on the internet, and I 
am sure you have copies of them. They are listed in my written 
statement that you have.
    The reluctant bottom-line conclusion of our committee, if 
you will, is that the current program as it is being pursued is 
not executable, that we are on a path that will not lead to a 
useful, safe human exploration program, and the reason for 
that, the primary reason, is the mismatch between the tasks to 
be performed and the funds that are available to support those 
tasks. It also came as a considerable disappointment to this 
committee that we were unable to find any alternative space 
program, a human space flight program, that would be worthy of 
this country that could be conducted for the funding profile 
now in place. We examined one derivative, a number of 
derivative programs based on one additional budget, and we 
found that by adding approximately $3 billion to the budget 
over the years and accounting for inflation over time in 
realistic fashion, that America could have a choice of a number 
of exciting, challenging, important, inspirational human space 
flight programs.
    I will close with three quick observations, one is that we 
have sought to be relatively conservative in our estimates of 
cost, schedule and performance, and we do that because it 
reflects our dissatisfaction with the record of our profession 
at doing these things in the past, estimating that is. 
Secondly, we believe that NASA has too long been placed in a 
position of been trying to accomplish more than the resources 
that it is given permit. We believe that to be wasteful and 
worse yet, very hazardous when dealing with such a challenging 
field as human space flight which is highly unforgiving. And 
finally on that point, human space flight is obviously, as 
everyone in this room knows, very risky. We place people in 
danger. We place the Nation's reputation on the line, and it is 
our belief that if we hope to be a space-faring nation over the 
years, that we have to recognize that there will be setbacks, 
and we should do everything we can to prevent them. But this 
is, in the vernacular, a risky business.
    Finally, on behalf of the Members of the Committee, I would 
like to thank you and the Administration for the confidence 
that they have placed in us to review what has truly become a 
symbol of America's leadership in the world.
    Thank you very much.
    [The prepared statement of Mr. Augustine follows:]
               Prepared Statement of Norman R. Augustine
    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to share with you the principal findings of the Review of 
the U.S. Human Space Flight Plans Committee. I will speak on behalf of 
the members of our committee and will do my best to reflect our 
consensus views. As you are aware, our final report has not yet been 
published; however, our decision-making deliberations were all 
conducted in public under FACA rules so I believe what I have to say 
will come as no surprise to anyone.
    First, I would like to acknowledge the contributions and 
extraordinary effort of each of my colleagues on the Committee. Their 
names and primary affiliations are appended to this statement. I would 
also like to acknowledge the forthright, responsive and highly 
professional support we received from NASA as well as from the 
Aerospace Corporation, the latter of which the Committee employed to 
provide independent technical and cost assessments.
    The Committee was comprised of ten members having highly diverse 
backgrounds. It included astronauts, scientists, engineers, former 
presidential appointees, business executives, educators and an Air 
Force retired General Officer--each with considerable space experience. 
Due to the exigencies of the budget process we were asked to complete 
our task in ninety days--which we did, with the exception of finalizing 
and printing our report. The latter will be available soon.
    Our assigned task was to identify alternative courses that the U.S. 
might pursue in the area of human space flight. One such alternative, 
of course, is to continue the present program. As noted in the 
Committee's report, changes to ongoing programs are generally warranted 
only for compelling reasons. Each alternative identified by the 
Committee is accompanied by a discussion of its strengths and 
weaknesses.
    It was agreed that at least two of the alternatives would be 
compatible with the FY '10 budget plan extended through FY '20. We were 
also asked to examine the current plans for the Space Shuttle and 
International Space Station and, if appropriate offer alternatives 
thereto. It is important to note that we specifically were not asked to 
make a recommendation as to a future course of action. That decision 
is, of course, the purview of the President and the Congress.
    Before addressing destinations and architectures the Committee 
sought to identify appropriate goals for human space flight. There are 
many possibilities that can be cited: strengthening the economy, 
conducting science, repairing and upgrading spacecraft on orbit, 
promoting international ties, protecting against asteroids and comets, 
encouraging science education, and more. It is, however, the 
Committee's view that although each of these benefits is important in 
its own right, none can, by itself, justify the cost and risk of human 
space flight. Rather, the raison d'etre for such activity must, and in 
our view can, be founded upon charting a course for the expansion of 
civilization into the solar system. In so doing, one derives the 
leadership benefits of being among the world's space-faring nations--a 
nation that is committed to exploration, seeking knowledge, advancing 
engineering capabilities, inspiring its citizens, and motivating its 
young people to consider careers in science and engineering. To a not 
inconsiderable degree it is intangibles that justify the human space 
flight program, intangibles such as those that today help maintain 
America as a leader among the world's nations. The Apollo Program is an 
appropriate example.
    In carrying out the charge to identify options the Committee 
narrowed over 3,000 theoretically possible outcomes to a set of five 
alternative integrated space programs. These can be thought of as 
representative families, since one can interchange certain elements 
among the individual alternatives. The Committee's attempt was, of 
course, to keep the number of nominal options to a manageable size.
    The alternatives offered include the ongoing program, 
Constellation--that is, the Program of Record and the Budget of 
Record--and four primary alternatives, some having derivatives or 
``sub-cases.''
    Two of the five alternatives were in fact constrained to the 
current budget profile for human space flight. The first of these was 
the Program of Record; that is, today's program, modified to fly-out 
the Shuttle in 2011 rather than 2010 and including sufficient funds to 
de-orbit the International Space Station (ISS) in 2016 according to 
plan. Under this existing approach the Ares I launch vehicle and Orion 
capsule are unlikely to become available until after the ISS has been 
de-orbited. The heavy-lift vehicle, Ares V, would, in our judgment, 
become available in the late 2020s; however, there are inadequate funds 
to develop the exploration systems the Ares V is intended to support. 
The Committee concludes that this is not an executable option due to 
the incompatibility of the budget plan and the program plan.
    The Committee's review noted that the Constellation Program has 
encountered technical difficulties of the type not unexpected of 
undertakings of this magnitude--problems which, given adequate funds 
and engineering attention, should be solvable. This was not, however, a 
significant factor in the overall conclusion with respect to the 
viability of the Program of Record.
    The second of the options, also constrained to the current budget 
profile, flies-out the Shuttle in FY '11, but extends the use of the 
International Space Station for five years, to 2020. This option 
includes a robust technology development program--something the 
Committee believes has been lacking at NASA in recent years--and relies 
on commercial firms to launch cargo and crews to the ISS as soon as 
demonstrated capabilities exist. It includes development of a somewhat 
less capable version of the Ares V, known as the Ares V (Lite). This 
option is deemed capable of execution but cannot provide the space-
borne hardware required to support a viable exploration program. In 
fact, the Committee could find no program within the current budget 
profile that would enable a viable exploration effort.
    Given these findings, the Committee examined three options that 
exceeded the present budget plan. The most defensible funding profile, 
purely from a program execution standpoint, is one that linearly 
increases to $3B above the FY '10 guidance by FY '14 and then increases 
by an estimated annual inflation rate of 2.4 percent.
    The first of these budgetarily less constrained options is termed 
the Baseline Case. It is the present Program of Record with funds added 
to extend Shuttle operations into 2011 and, as now provided in the 
budget plan, to de-orbit the ISS in 2016. This program would permit a 
human return to the Moon in the mid '20s and begin laying the 
groundwork for a flight to Mars.
    The second of the budgetarily less constrained cases is actually a 
family of variants that would extend ISS operations to 2020, provide 
funds for its de-orbit, and fund a strong technology program in support 
of ISS utilization and an eventual human landing on Mars. It would use 
commercial launch services for new access to low Earth orbit. There 
are, however, significant differences between the two variants under 
this option. The first of these variants would develop the Ares V 
(Lite) to support a human lunar landing in the mid 2020s--after which 
focus would turn to a human Mars landing. The second variant would 
extend the use of the (recertified) Space Shuttle to 2015 and be 
accompanied by the development of a Shuttle Directly-Derived heavy-lift 
vehicle in place of the Ares family--with the eventual possibility of 
in-orbit refueling. This is the only practicable option the Committee 
could find to close the at least five-year gap during which the U.S. 
will, as currently planned, rely upon Russian launch services to lift 
U.S. astronauts to the International Space Station.
    The third budgetarily less constrained case follows a rather 
different path of exploration from that heretofore pursued by the U.S. 
The Committee terms this option the ``Flexible Path'' and defines it as 
achieving periodic milestones prior to a Moon or Mars landing. These 
initial accomplishments could include a lunar fly-by, a Mars fly-by, a 
visit to a Lagrange point, an asteroid rendezvous, and possible 
landings on the moons of Mars, Phobos and Demos.
    In summary, with the existing budget plan it would be reasonable to 
extend the use of the ISS for five years and to conduct a robust 
technology development program. The Committee concludes that no 
rational exploratory program can be funded under the existing funding 
constraint and that plans for America's space exploration program would 
de facto be halted and human operations limited to low Earth orbit.
    With the less constrained budget option, requiring approximately 
$3B per year in additional funding, a sound exploration program could 
be conducted. The reason for this seemingly ``dead space'' between the 
two budget options is, simplistically stated, that for sixty percent of 
the needed funds, one cannot go sixty percent of the way to Mars.
    Each of the implementable options that was identified has its own 
set of benefits and liabilities that the Committee has sought to 
address. The findings of this effort are discussed in the Summary 
Report. The assessment gives overarching priority to safety and, as is 
noted in the Summary Report, the Committee believes considerable 
caution is in order when comparing analytical results in this area with 
flight results. Similarly, the Committee has sought to be conservative 
in its cost estimation practices--reflecting dissatisfaction with 
historical experience on a broad spectrum of programs. Finally, in 
defining a ``Program of Record'' the Committee has relied upon NASA's 
current program plan and the President's budget profile, the latter as 
provided by the Office of Management and Budget.
    In the opinion of this committee, as well as that of most of the 
persons with whom the Committee has had contact, NASA has for too long 
sought to operate in an environment where means do not match ends. In 
the unforgiving arena of human space flight this is a particularly 
hazardous policy to embrace.
    The Committee also notes that NASA has become a mature 
organization, an organization long protected from restructuring 
Centers, facilities and personnel cadres. The consequence is an 
organization with high fixed costs of the type that make budgetary 
options highly limited. While NASA is unarguably the finest space 
organization in the world and a great national asset, it is overdue for 
a thorough management assessment of the type the aerospace industry 
underwent at the end of the Cold War.
    The Committee's report will contain more detailed information that 
it hopes will prove of value. On behalf of my colleagues, I thank you 
for the trust that has been placed in us to review a pursuit which for 
decades has come to be a symbol of America's leadership.

U.S. HUMAN SPACE FLIGHT PLANS COMMITTEE MEMBERS

Mr. Norman R. Augustine
Retired Chairman & CEO
Lockheed Martin Corporation

Dr. Wanda M. Austin
President & Chief Executive Officer
The Aerospace Corporation

Mr. Bohdan I. Bejmuk
Chair, NASA Constellation Standing Review Board

Dr. Leroy Chiao
Former Astronaut, Former International Space
Station Commander and Engineering Consultant

Dr. Christopher F. Chyba
Professor of Astrophysics Sciences and International Affairs
Princeton University

Dr. Edward F. Crawley
Ford Professor of Engineering
Massachusetts Institute of Technology

Mr. Jeffrey K. Greason
Co-founder & Chief Executive Officer
XCOR Aerospace

Dr. Charles F. Kennel
Director and Professor Emeritus
Scripps Institution of Oceanography
University of California, San Diego

General Lester Lyles
United States Air Force (Retired)

Dr. Sally Ride
President & Chief Executive Officer
Imaginary Lines

                   Biography for Norman R. Augustine
    NORMAN R. AUGUSTINE was raised in Colorado and attended Princeton 
University where he graduated with a BSE in Aeronautical Engineering, 
magna cum laude, and an MSE. He was elected to Phi Beta Kappa, Tau Beta 
Pi and Sigma Xi.
    In 1958 he joined the Douglas Aircraft Company in California where 
he worked as a Research Engineer, Program Manager and Chief Engineer. 
Beginning in 1965, he served in the Office of the Secretary of Defense 
as Assistant Director of Defense Research and Engineering. He joined 
LTV Missiles and Space Company in 1970, serving as Vice President, 
Advanced Programs and Marketing. In 1973 he returned to the government 
as Assistant Secretary of the Army and in 1975 became Under Secretary 
of the Army, and later Acting Secretary of the Army. Joining Martin 
Marietta Corporation in 1977 as Vice President of Technical Operations, 
he was elected as CEO in 1987 and Chairman in 1988, having previously 
been President and COO. He served as President of Lockheed Martin 
Corporation upon the formation of that company in 1995, and became CEO 
later that year. He retired as Chairman and CEO of Lockheed Martin in 
August 1997, at which time he became a Lecturer with the Rank of 
Professor on the faculty of Princeton University where he served until 
July 1999.
    Mr. Augustine was Chairman and Principal Officer of the American 
Red Cross for nine years, Chairman of the Council of the National 
Academy of Engineering, President and Chairman of the Association of 
the United States Army, Chairman of the Aerospace Industries 
Association, and Chairman of the Defense Science Board. He is a former 
President of the American Institute of Aeronautics and Astronautics and 
the Boy Scouts of America. He is a current or former member of the 
Board of Directors of ConocoPhillips, Black & Decker, Proctor & Gamble 
and Lockheed Martin, and was a member of the Board of Trustees of 
Colonial Williamsburg. He is a Regent of the University System of 
Maryland, Trustee Emeritus of Johns Hopkins and a former member of the 
Board of Trustees of Princeton and MIT. He is a member of the Advisory 
Board to the Department of Homeland Security, was a member of the Hart/
Rudman Commission on National Security, and served for 16 years on the 
President's Council of Advisors on Science and Technology. He is a 
member of the American Philosophical Society and the Council on Foreign 
Affairs, and is a Fellow of the National Academy of Arts and Sciences 
and the Explorers Club.
    Mr. Augustine has been presented the National Medal of Technology 
by the President of the United States and received the Joint Chiefs of 
Staff Distinguished Public Service Award. He has five times received 
the Department of Defense's highest civilian decoration, the 
Distinguished Service Medal. He is co-author of The Defense Revolution 
and Shakespeare In Charge and author of Augustine's Laws and 
Augustine's Travels. He holds 23 honorary degrees and was selected by 
Who's Who in America and the Library of Congress as one of ``Fifty 
Great Americans'' on the occasion of Who's Who's fiftieth anniversary. 
He has traveled in over 100 countries and stood on both the North and 
South Poles of the Earth.

                               Discussion

    Chairman Gordon. Thank you, Mr. Augustine. At this point, 
we will begin our round of questions, but before we proceed, I 
would like to make a unanimous consent request at the behest of 
our distinguished witness, Mr. Augustine has asked that Dr. 
Edward Crawley, a member of the panel that he chaired, be 
allowed to join him at the witness table to help answer 
questions the Committee may have. If there are no objections, 
then Dr. Crawley, please join us here.
    I also have one other unanimous consent. We have other 
Members of Congress who are not currently Members of the 
Science Committee that would like to join us today. They have 
been reminded that any questions they might have will be after 
the current Members of this committee. And so without 
objection, Mr. Culberson, Mr. Posey, Ms. Jackson Lee will be 
allowed to participate if they choose. With no objections, they 
will be.
    Mr. Augustine, I could have saved you some time and money 
and told you that there weren't enough funds to carry out the 
existing program if you had asked or had been to any of our 
meetings.
    Mr. Augustine. We should have changed jobs, sir.
    Chairman Gordon. We unfortunately--it is not funny, but we 
have been pointing out for some time and I think that this is a 
worthwhile timeout. We cannot continue to kick the can down the 
road. We have got to decide as a nation what are we willing to 
pay for and need to move forward. So I thank you for again 
bringing these topics to the surface. They don't need to be 
under the rug any longer.

                      Constellation Program Status

    So one of the questions that we expected your panel to 
address was the status of the existing Constellation program, 
but the Summary Report actually says very little about it. So 
let me ask you, what is your panel's assessment of the 
Constellation Program? Is it technically sound and effectively 
managed within the resources available or is it fatally flawed? 
If there are areas that need improvement, what are they?
    Mr. Augustine. Mr. Chairman, I would be happy to try to 
answer that. Certainly with the resources available, the 
program is I think we would say fatally flawed. It will take so 
long to do the things that need to be done to develop the 
hardware that is needed, it will be well beyond many of our 
lifetimes before we are able to have a really active space 
flight program. That is with the current budget.
    With regard to the program itself----
    Chairman Gordon. Excuse me, but would that be the same with 
any of the alternatives, though?
    Mr. Augustine. That would be.
    Chairman Gordon. Okay.
    Mr. Augustine. With regard to the--what was the other point 
you had? I forgot.
    Chairman Gordon. Is it technically sound, effectively 
managed?
    Mr. Augustine. Oh, yes. Thank you. We did review the 
program, its management. We believe it to be soundly managed. 
Technically the program has some significant problems, 
technical problems, and this is not to be unexpected in a 
program of this difficulty and this magnitude. We saw no 
problems that appear to be unsolvable given the proper 
engineering talent, the attention, and the funds to solve them. 
Having said that, I would like to turn to my colleague, Dr. 
Crawley, and the reason I ask that he be permitted to join me, 
our committee divided into subcommittees, one of which devoted 
its attention to putting together these integrated options, and 
Professor Crawley chaired that subcommittee. Ed, if you would 
care to add anything to my summary remarks?
    Mr. Crawley. No, I think, Norm, you have summarized this 
quite well at the highest level. There were on our committee a 
number of people who had actually built space flight hardware, 
and their general consensus on the assessment of the 
Constellation Program technically is, as Norm said, that it has 
problems. All real programs, where you are really building 
hardware, encounter problems, developmental problems, but we 
didn't see any of them including some of the famous vibration 
problem in the Ares I or the vibrocoustic environment, the 
noise environment, around the Orion that were not surmountable 
with proper engineering talent and skill which we believe NASA 
could bring to bear.
    So in short----
    Chairman Gordon. Sir, do you think in short are the 
problems with Constellation greater than the other options? And 
how would you really be able to evaluate the other options 
since they are at what you would call an immature level in 
contrast to this more mature level?
    Mr. Crawley. Well, Mr. Chairman, that was in fact one of 
the most difficult challenges that the Committee faced. We were 
asked to consider and propose a set of alternatives which we 
faithfully tried to do, but we were very conscious of the my-
rocket-in-your-view-graph problem that we called, it, you know, 
it is always easy for something to look better on a set of view 
graphs or in a proposal than when you are in the midst of a 
real development program. Other than to say we were very 
conscious of this and we tried to the greatest extent to be 
aware of it in the assessment of the options and the costing of 
the options, I think that that was basically the judgment 
process of the Committee.
    Chairman Gordon. So as I mentioned earlier, we do have a 
program that has been authorized we have spent billions of 
dollars on. And so I don't think you trade what you know for 
what you don't know if it is equal or a little bit better. So 
are you prepared to say that one or all of the other options 
are substantially better than Constellation and worth having a 
major turn now?
    Mr. Augustine. I think it would be our view just what you 
said, that there should be a compelling reason to change an 
existing program, and we believe that the existing program, 
given adequate funds, is executable and would carry out its 
objectives. The existing program, just like other programs, 
does have its difficulties. Some of the other programs rely 
heavily on existing hardware, for example, closely Shuttle 
derived hardware, more closely derived.
    But the fact remains on the negative side that since for 
example the Ares I program began, several years have passed, 
and at this point, we believe it's quite unlikely that the 
Space Station, the ISS, International Space Station, will have 
just about completed its useful life, even an extended life, by 
the time the Ares is available. And so clearly you could do the 
Ares I. You could do the Ares I and the Ares V. You could close 
the gap by keeping the Shuttle flying, and you could keep the 
ISS in space. And the problem gets to be you have to give up 
some things early on if you want to have benefits later on. And 
in our view, the real need of this country is a heavy-lift 
vehicle, Ares V type or something like that and that that 
should be the first priority. But to answer your question, Mr. 
Chairman, given additional funds such as we have identified, we 
believe the existing program would be a fine program.
    Chairman Gordon. Well, that really wasn't the question.
    Mr. Augustine. I am sorry.
    Chairman Gordon. Once again, I think we all agree that 
there is no option that was presented that can be successful 
with the funds at the current level. So that is the premise. So 
then we get to, again, the fundamental question is, if we are 
going to trade in what we have been doing for something new, 
then I think that the new has to be substantially better. Would 
everybody agree with that? Is that a fair statement?
    Mr. Augustine. I think we would.

                        Future Options for NASA

    Chairman Gordon. Okay. So are you prepared to say some of 
these other programs are substantially better than 
Constellation and worth making that change?
    Mr. Augustine. Well, we have tried very hard not to end up 
being in a position where we make a recommendation as to a 
program, but we have pointed out, and we have done that out of 
fairness to the President and to you not to make it harder for 
you to make a decision here. So we have been asked to do it 
this way. But each of the options does have liabilities 
including the current program. All the others have them, too. 
Each has their benefits. We have cited those benefits and those 
liabilities, and it is really up to the decision-maker to make 
a judgment as to how to weigh those.
    Chairman Gordon. You mentioned that there was more 
documentation on your discussion about Constellation. I assume 
this is available for us so that we can--more than was in your 
report?
    Mr. Augustine. I probably should have mentioned that at the 
outset, Mr. Chairman. We are in the process--you have our 
summary so far.
    Chairman Gordon. Right.
    Mr. Augustine. And we are hard at work preparing the rest 
of the final report which will be over 100 pages long, and it 
is close to being written and it is our intent to have it out 
by the end of the month.
    Chairman Gordon. Good. Thank you very much. Mr. Hall, you 
are recognized.

                      Closing the Shuttle/Ares Gap

    Mr. Hall. Mr. Chairman, I thank you. Mr. Augustine, your 
panel noted that the Constellation program had encountered 
technical difficulties, and you also noted that the problems 
were no worse than any other large program, that problems could 
be solved with time. And you also found the current program had 
been underfunded and that none of the options you looked at 
gave NASA more capability or close the gap. What would it take 
to close the gap?
    Mr. Augustine. In our view, we looked at a lot of different 
cases. Maybe I should define for those in the room who aren't 
familiar with what the gap is. The gap refers to, Mr. Hall, the 
time after the shut down of the Space Shuttle when the only way 
the U.S. will have of putting astronauts into orbit is relying 
on buying seats on Russian launch vehicles, basically. And we 
looked at various options to close that gap, and absent huge 
influxes of funds and the willingness to accept more safety 
risk than we believe is appropriate, there is only one way to 
close that gap and that is to continue to fly the Space Shuttle 
beyond the currently planned shut down at the end of 2010.
    Mr. Hall. And that amount?
    Mr. Augustine. The cost, sir?
    Mr. Hall. Yes, sir.
    Mr. Augustine. The cost of continuing to fly that Shuttle, 
if you were to do so, has a couple of factors that have to be 
entered. The first is that in our work we discovered that the 
Space Shuttle is currently bearing a huge amount of the 
overhead of NASA, and if the Space Shuttle is shut down, that 
overhead is going to shift to some other program, probably the 
Constellation. And so some of the savings numbers one has heard 
from shutting down the Shuttle are really accounting numbers. 
On the other hand, there are real savings that we wouldn't have 
to buy Russian launches if we kept flying the Shuttle. Our 
belief is that the net cost of continuing to fly the Shuttle a 
couple of times a year, once or twice, is about $2.5 billion a 
year. That is the cost issue. I just have to briefly say that 
there are also safety issues. There have been commissions that 
have said that we should not continue flying the Shuttle. It is 
our belief from what we were able to learn that if one were to 
recertify the Shuttle, very importantly, and it would have to 
be recertified, then probably it could continue to fly. But the 
launch rate would be so low that, based on my experience, 
launching rockets at a very low rate is like doing heart 
surgery at a very low rate. It is a dangerous thing to do.
    Ed would you like to briefly?
    Mr. Crawley. No, I think that is substantially correct. We 
looked at a number of options of accelerating the Orion, Ares, 
of going to alternatives, putting emphasis on commercial 
launches to LEO for crew, and really none of them substantially 
closed the gap from above, as we say. It brought the human 
capability in earlier. The time to close the gap was with 
investments in 2008 and 2009 and 2010. Now, here we are on the 
verge of 2010 and really no expenditure will accelerate 
significantly a new U.S. capability much earlier than 2015, 
'16, '17.

                         Evaluating Crew Safety

    Mr. Hall. Well, we have been told and it has been said 
that, quote ``it couldn't be accomplished under the current 
budget''. I guess what we really would like to know, under what 
type budget could it be accomplished and from a crew safety 
point of view since we are talking about that, your report 
seems to treat all the potential launch options the same, and I 
guess how did the panel evaluate the crew safety aspect of any 
option other than the Constellation?
    Mr. Augustine. Well, the safety issue was the number one 
issue for us to consider, obviously. Our committee had two 
astronauts that had flown six missions in space. So they were 
not uninterested in being sure that we all paid attention to 
the subject of safety. As I said earlier, we thought the right 
thing to do, the real goal, was to go to Mars, and we discarded 
that over safety issues. Each of the options we have offered we 
believe meets a threshold of safety, and I can define that if 
you want. But we are skeptical of comparing analytical safety 
calculations with proven safety calculations or reliability 
calculations and are related to but different from safety. We 
are skeptical because most of those calculations turn out to 
not even include factors that have led to most of the failures 
in the past.
    So a great deal of judgment and scar tissue comes into 
deciding. You could look at the drawings, you could look at the 
redundancy, you could look at the processes, you could look at 
the escape capsules and so on, but in the end, a degree of 
experience and judgment is very helpful. Our committee of 
course has combined hundreds of years of launching humans into 
space, and we have tried to exercise that judgment.
    Ed, I would ask you to briefly add anything you would like.
    Mr. Crawley. Mr. Hall, what we say in our report first is 
that safety is paramount and that NASA should not go forward 
with any technical plan that doesn't meet the stringent safety 
requirements far in excess of the Shuttle's demonstrated 
safety.
    Mr. Hall. Don't you think the Chair makes a lot of sense 
that we look at safety with that attitude, and in light of the 
practice of the last year here on Capitol Hill, money is 
different. It used to be when a million dollars was a lot of 
money, and then a billion dollars was a lot of money, and now 
they throw away trillions of dollars and a bailout of $800 
billion and immediately threw away about $350 billion to AIG 
for toxic stock that they ought to work something in to help us 
span that four-year gap in there and say this because I even 
consider it a national defense issue.
    Mr. Crawley. Unfortunately, our principal finding in this 
issue of closing the gap, going back to the gap, is that this 
is really paced by the pace of technical development, that to 
build a new rocket will take a new human-rated rocket from 
either where we are in the Ares V, or any fresh start of any 
type will take at least another five or six years. And I hate 
to say that, but on this specific point, you know, we examined 
several acceleration plans and found that they could increase 
the confidence that we could do it in five or six more years 
but none of them actually brought the date of likely 
availability by more than half-a-year or so.
    Mr. Hall. Is it that physically it could not be done or it 
could not be financed?
    Mr. Crawley. No, it physically can't be done. There just 
are pacing items in the development of a new rocket.
    Mr. Hall. I thank both of you very much.
    Mr. Augustine. Thank you, Mr. Hall.
    Chairman Gordon. And now, appropriately from the Kitty Hawk 
State, Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. I'm glad that you do 
recognize that North Carolina is the home of flight, not Ohio 
as some claim from time to time.
    Mr. Augustine, the report, the inquiry into the last 
Shuttle disaster concluded that one of the problems was an 
excessive reliance on contracting out, on contractual employees 
rather than those folks in-house, that there was a lack of a 
kind of critical mass of expertise that came when scientists 
and engineers worked in the same hall and could kind of hover 
at the doorway of each other's offices and talk it through. 
When they are scattered, you lost something. And despite that 
criticism, I actually asked Sean O'Keefe at a hearing if he 
embraced that finding because it did not seem consistent with 
the dogma of the Agency at that time. I didn't get a straight 
answer, which that really could have been true of any question 
I ever asked Sean O'Keefe. But since then, NASA has continued 
to rely upon outside contractors more than just about any other 
government agency. I think actually the findings are more than 
any other government agency, including where NASA has developed 
the technology and has the equipment and has the trained 
employees and still contracts it out. Parabolic flight, zero-
gravity flight that is important in training developed by NASA, 
we have got the planes sitting on the tarmac, we have got the 
pilots who know how to fly the planes, who know how to fly 
parabolic flights to achieve zero gravity for training 
purposes, and yet we still contract it out, and it is not at 
all clear why we do that. It is very clear we would save money 
if we didn't.

    Viability of the Commercial Sector to Support NASA Human Space 
                                 Flight

    I was surprised that one of the findings in the summary 
report or suggestions is that by relying on the commercial 
sector, we might shorten the gap, we might close the gap some. 
What was the basis for thinking that the commercial sector 
would do it differently from the way NASA would do it if NASA 
just did it themselves?
    Mr. Augustine. Well, let me deal with that first at sort of 
the philosophical level you raised, and Ed if you want to add, 
I will try to be brief to leave you time. I guess I would 
respectfully not accept that it is true in all cases that the 
government can do things more cheaply or better than could be 
done in the private sector. I spent 10 years in government 
myself. I know what the government can do. I have spent much of 
my career in the private sector. As I travel around the world, 
I think that there are many things that the private sector does 
much better than the government does. At the same time, I think 
there are many things that only the government can do, and 
where we get in trouble I believe is when the government tries 
to do things that the private sector does best or when the 
private sector does things that the government does best. In 
this regard, I think the government is best at advancing 
technology, taking major risks with technology at systems 
engineering, designing architecture, overseeing programs, 
assessing their progress at the top-level management of them. 
But when the government gets to where it is making engineering 
drawings as is in fact happening in NASA today in some cases, 
second stage of Ares I being an example, NASA is hiring 
subcontractors to make engineering drawings which NASA will 
then take and give to Boeing to build in Boeing's factories, 
the material the drawings will be made for. In my experience, 
it is hard to take something from one of our factories to 
another, let alone from a subcontractor to NASA to Boeing. I 
think we should watch that very carefully.
    So my answer to your question is there are important things 
that each can do, and it is a real mistake to assume carte 
blanche that everything should be done in industry or 
everything should be done in the government.
    Mr. Miller. And I assume the same thing, Mr. Augustine. 
What I am questioning is whether the bias is so clearly the 
other way in favor of having something done commercially that 
is something that traditionally NASA has done itself or had 
overall supervision of, I mean, we have always relied upon 
private contractors, but how did you envision the commercial 
crew transportation working?
    Mr. Augustine. Okay. I will turn to Ed. Let me refer to the 
bias issue. I think you would find that it is our view that 
NASA would be better served rather than trucking hardware and 
people at the low Earth orbit to be pursuing energy exploration 
program. Let the private sector deliver the mail, if you will, 
much as the government put the airlines in the business by 
hauling mail. NASA has an opportunity and is doing this right 
now with the support of this committee to let the commercial 
industry grow in the space case. Do you want to speak to our 
particular case?
    Mr. Crawley. Sure. First, Mr. Miller, I want to make it 
clear in the options we presented, in all of them we continued 
the work on the Orion capsule that is the primary Crew 
Exploration Vehicle. We think that that should be continued. 
And the question really is, should that be also the way that we 
continue to get to low Earth orbit, to the Space Station, for 
example, until 2020 as we suggested might be extended.
    What we tried to do is to create a second option available 
for the government to choose, should it choose to, which is to 
further invest in development in a robust domestic/commercial 
space industry, and one of the potential services that such a 
space industry could provide, not without risk, is the delivery 
of crew to orbit, and particularly to the Space Station in the 
next decade or so. The potential advantages of this would be 
that we would be able to build a simpler capsule to go to the 
Space Station, rather than the very sophisticated and capable 
Orion's capsule. For reference, in current year dollars, a 
Gemini capsule is $60 or $80 million. An Apollo capsule is 
several hundred million dollars, and the Orion recurring cost 
is about $600 million. So by building a system that is designed 
just to go to low Earth orbit, it is possible that the 
recurring cost of the system and the development cost of the 
system could be significantly less.
    The other argument is that in a commercial system, there 
are other customers than NASA. NASA will be the only customer 
of the Orion and Ares. In a commercial system, the rocket could 
be used for NASA science payloads, national security space 
payloads, we have provided for other possible markets, and the 
capsule, less obviously there are other markets, but other 
governments will choose to fly astronauts to the International 
Space Station in the next decade. The possibility of proving 
that as a commercially provided service to other governments is 
also another potential market.
    Chairman Gordon. Thank you, Dr. Crawley. And now the 
Ranking Member of our Aviation Subcommittee, Mr. Olson, is 
recognized.

                Importance of Funding Human Space Flight

    Mr. Olson. Thank you very much, Mr. Chairman. I greatly 
appreciate that. I would like to thank Mr. Augustine, you and 
Dr. Crawley, for all your hard work putting this report 
together. I remember, Mr. Augustine, we met with Mr. Hall back 
when you first got this assignment, and we asked you to call 
balls and strikes. I thank you. I think you did a very, very 
good job with that. I appreciate what all of you did because 
basically from my opinion, you threw cold water on our face and 
got us to look at this program realistically and say, if we 
want to go forward, we need to develop the resources.
    And my question for you, Mr. Augustine, is you have been in 
this business a long time. This is a much more esoteric 
question, but what, in your opinion, is the importance of human 
space flight to the Nation because that is a question all of us 
in this room are going to have to answer soon if we don't find 
the resources to keep up and develop the manned space flight 
program as it is envisioned?
    Mr. Augustine. Well, thank you for that question, and that 
is actually the question we began with. Too often in the past 
we have said, what destination do we want to go to rather than 
why do we want to go there, and it is a question in our view we 
probably have not answered correctly in the past. There are 
currently many important things the human space flight program 
permits. It permits the conduct of science, of exploration, 
inspiration, it has important economic benefits, it impacts 
education and motivates young people to study math and science 
and so on and so on. In our judgment, none of those by 
themselves can justify the cost of human space flight today, 
that spinoffs into the commercial world or science by itself 
per se from a human space flight standpoint don't justify these 
programs. The programs have to be justified we think to a large 
degree on a tangible basis which makes it no less important, 
namely to lay the path forward to humans to move into the Solar 
System. In so doing, who we establish our nation as a leader in 
an important and challenging area. And it gives our nation the 
sort of recognition that we get from the Apollo program which 
had many other benefits, including science and engineering and 
so forth. But the raison d'etre I think could not be those 
other issues. It has to be the intangible of showing that 
America has the spirit and the ability to play a leadership 
role in one of the most challenging tasks ever undertaken.

    Should the Columbia Accident Investigation Board Findings Apply 
                       to All Human Space Flight?

    Mr. Olson. Thank you for that answer. I couldn't agree 
more. Shifting gears, we have talked a lot about safety, and I 
just want to ask, do you think the Columbia Accident 
Investigation Board recommendations regarding safety should 
apply not just to the Shuttle but to all future human-rated 
systems?
    Mr. Crawley. Absolutely. I think the broad national 
consensus that emerged from the Columbia tragedy is that going 
to space is a dangerous business. We should do it very 
carefully and as safely as we possibly can, and that when we 
put our Americans at risk, we should do it in a way that really 
goes someplace and does something, really explores the solar 
system and goes away from the Earth. It is important to 
actually read carefully the recommendations of the CAIB report 
to make sure that one understands, for example, that they were 
very careful about pointing out that crews should not be 
required for the delivery of cargo. However, they did not 
actually say the reverse, that it was not allowed to have crew 
accompany cargo into space. So we actually read the CAIB 
report, Sally Ride, one of the members, was on the CAIB, and we 
tried to stay very truthful to the guidance it gave us.
    Mr. Olson. Thank you for that answer. One final question, 
what can we do to ensure that we don't have another Augustine 
Commission, 10, 15, 20 years down the road? I mean, we can't 
continue to second-guess or change course. I know that is a 
big, loaded question, but I would just like to get your 
perspectives on that. Thank you.
    Mr. Augustine. I think, first of all, I am 74 years old, so 
the odds are----
    Mr. Olson. We would love to have you come back.
    Mr. Augustine. Thank you, sir. My mother lived to be 105, 
so you might see me again.
    Mr. Olson. I will mark it down.
    Mr. Augustine. I think that this committee, as the Chairman 
has said, had the answer to that question, and that is we need 
to have goals that are commensurate with the resources we are 
willing to devote, and obviously the two of us at this table 
and our colleagues are fans of the space program. But if we 
can't afford to do it right, then we shouldn't do it. We should 
back off. It is unfair to the astronauts, it is unfair to the 
nation, and it is unfair to the people who work at NASA. So we 
need to get a program that matches, whether it is a big program 
which most of us would like, or a smaller program, whatever it 
is, I think you can get to where you won't need to see me again 
if we could get that match made.
    Chairman Gordon. Thank you, Mr. Augustine.
    Mr. Augustine. Thank you.
    Chairman Gordon. I hate to start with you, Pete. We are 
going to be a little more crisp with our time because I want to 
be sure everybody has a chance, so I don't mean to be 
discourteous if I have to get in. If Mr. Augustine rope-a-dopes 
you, you will get a little more time, but otherwise I am going 
to try to keep it to five.
    Now, the Chairman of our Space Aviation and Aeronautics 
Committee, Ms. Giffords, is recognized.
    Ms. Giffords. Thank you, Chairman Gordon, Ranking Member 
Hall. Both of you have been at this a lot longer than I have, 
particularly Mr. Hall, so I appreciate your comments, and Mr. 
Augustine, thank you, Dr. Crawley as well.
    It is not every day that we have a chance to discuss the 
future of America's human flight program, our space flight 
program. And I take this day very seriously. I don't think 
there is any politician in the Congress, in Washington or 
across the country that doesn't point to America's success in 
our manned space flight program when we talk about the genius 
of our country, the innovation and our ability to tackle any 
challenge that is put ahead of us.

                  Concerns About Commission's Findings

    That being said, the discussion today in this committee 
doesn't track directly with what I was able to read in the 
summary report. I am frustrated by what I read. In fact, I am 
pretty angry. With all due respect to Mr. Augustine and this 
panel of experts, and I know you have worked very long and very 
hard on this and the cumulative expertise that was represented 
on this panel was strong, but I feel that we were going to 
receive some recommendations that were going to put us farther 
ahead than before we received the report, and I think that we 
have lost some ground. So I would like to review some of the 
facts.
    Probably the most important finding with the review is a 
panel determination that there is a serious mismatch between 
the challenges put out in front of NASA and the resources that 
have been provided to this agency. And as our Chairman so 
eloquently stated, we all knew that. Those that have been in 
Congress for a long time see that year after year after year.
    In other words, we know that we can't get to where we want 
to go with NASA's funding at the current level. The impact that 
that shortfall has has certainly undermined the work of NASA, 
the civil servants, and the contractors that have undertaken 
these really Herculean challenges. I am glad that you have 
highlighted this problem, but again, I am not denigrating the 
work that has been done. I know of your reputation, Mr. 
Augustine, and the reputation of the panelists. It is important 
I think for this country to have a sobering reminder that our 
position as the world's leading space-faring nation is not a 
given, and we have to continually re-earn that reputation by 
prominent positions that we take through real actions.
    The rest of the world, of course, has discovered space, 
too. We see countries that are moving with some impressive 
capabilities. The Chinese, of course, come to mind but other 
countries as well.
    I think that the men and women of NASA frankly have 
demonstrated they are up to the challenge. Over the past four 
years they have moved from initial concepts into design and 
development of this Constellation program. They have 
successfully completed a number of important design reviews, 
have undertaken test activities including test-firing just last 
week, the five-segment booster that will power the Ares I 
rocket into space, and planning for a test flight of the Ares 
I-X rocket at the end of next month. And they have done all 
this even through the times with the budgetary sands that are 
shifting constantly underneath them, taking away resources that 
they thought they could count on, and forcing them to 
continually replan and rephase, even while they are trying to 
complete some of the hardest technological work ever done in 
the lifetime, programmatic work that is obviously required if 
Constellation is going to succeed.
    So that is when it was announced, Mr. Augustine, that you 
would be leading this independent review of the human space 
flight program. I thought that we were going to take a hard, 
cold, sobering look at the Constellation program and tell us 
exactly what we needed to do here in Congress with our budget 
in order to maximize the chances of success. But that is not 
what I see. Instead of focusing on how to strengthen the 
exploration program in which we have invested so much time, 
four years, billions of dollars, we have a glancing attention 
to Constellation, even referring to it in the past tense in 
your summary report, and instead, spending the bulk of the time 
crafting alternative options that do little to illuminate the 
choices that I think are really confronting the Congress and 
the White House. So where does that leave us?
    I think in place of a serious review of potential actions 
that could be taken to improve and strengthen the Constellation 
program, we have been given a set of alternatives that in some 
sense look almost like cartoons, lacking detailed costs, 
schedule, technical, safety, other programmatic specifics, that 
we can't be confident and can't be subjected to the rigorous 
and comprehensive analysis and validation that NASA is required 
to go over.
    So I guess I ask my colleagues on this Committee, what are 
we going to do with this report? And I know we are going to see 
more details. But in the absence of mismanagement or 
technological showstoppers that the Chairman talked about, none 
of which the Augustine panel has indicated has occurred in this 
program, can any of us in good conscience recommend canceling 
exploration system development programs that Congress has 
funded and supported over the past four years? I know that I 
can't justify doing this, and I know this is going to be a 
discussion that Members on this committee are going to have to 
discuss.
    So, Mr. Chairman, just a couple more minutes. I know I am 
up against my time. Hoping that maybe things will somehow work 
out someday if we try something new is not a substitute for the 
detailed planning and design and testing that has been the 
hallmark of successful space flight programs of the past. These 
are successes that all of us as Americans are extraordinarily 
proud of. Nor do we gain by confusing hypothetical commercial 
capabilities that might someday exist with what we can actually 
count on today to meet our nation's needs. We have made that 
mistake in the past, we don't want to make it again. So I don't 
see the logic of scrapping what the Nation has spent years and 
billions of dollars to develop. And for the Nation's sake, I 
hope that we can break this cycle of false starts that was 
mentioned by many of my colleagues before. The future of 
America's human space flight is really at risk, and I am hoping 
before the panel is dismantled that we can get some real, solid 
numbers, questions that were asked by some of my colleagues 
back to this Committee and to the Congress so that we can make 
decisions as to what to do with our future in manned space 
flight.
    Mr. Hall. Will the gentlelady yield?
    Ms. Giffords. Absolutely, Mr. Hall.
    Mr. Hall. Would you add to your statement, your great 
statement, how fair is it to our international partners that 
are never going to have anymore faith in us and how fair is it 
to those series of engineers and the workforce at NASA that 
have worked generation after generation and bet their future on 
NASA that are going to be unemployed? And why is it that we 
have been scratching and clawing to get a little more R&D 
budget? And why the hell don't we have a march on Washington?
    Chairman Gordon. Mr. Augustine, time is running over, but I 
think that Ms. Giffords has presented you with the threshold 
question here, so certainly we would like to hear from you.
    Mr. Augustine. I would like to respond to that. First of 
all, I would remind you again what we were asked to do. We were 
asked to offer options to the current program, and we have done 
that. You suggested that the options we have suggested take a 
step backwards. Four of the six options are a clear step 
forward. You have spoken as if we have decided to stop the 
existing program. We have made no such recommendation. One of 
the options, Option 3 if you look at it, is to continue the 
existing program but to fund it adequately. So I respect your 
feelings, but I must question your facts.
    Ms. Giffords. Mr. Chairman, Mr. Augustine, I think what 
this committee would like to see is really the full range of 
options, you know, continuing to fly the Shuttle, the menu of 
options, fully funding Constellation, where is that going to 
take us, not that some day that the commercial space sector is 
going to step in and be able to create something that they have 
yet to be able to create. And you know, we can talk a little 
bit later and go over some of those options. I don't know. It 
is probably not the right time to be doing this, but I would 
really like to be able to and I think Committee Members would 
really like to be able to see with additional funding with 
Constellation, where does that take us? And I don't see that 
laid out in this.
    Mr. Augustine. Fully funding the Shuttle is Option 4-B. 
Fully funding the Constellation program is Option 3. And so the 
data is there.
    Chairman Gordon. Thank you, Mr. Augustine, and we will, as 
you say in a couple of weeks, we will have the full report. And 
I am sure that we will have some additional question at that 
time, and hopefully we will shed more light on some of Ms. 
Giffords' questions.
    Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. Yes, thank you very much. And let me 
congratulate Chairwoman Giffords for getting right to the point 
and hitting some very important elements that need to be 
discussed.
    Chairman Gordon. I am glad you agree because she took some 
of your time.

                   Finding Extra $3 Billion for NASA

    Mr. Rohrabacher. Might I remind Mr. Augustine, heart 
surgery is expensive, and they now have found other ways to do 
things rather than open-heart surgery. They have endoscopic 
surgery which is much cheaper and quite frankly, sometimes some 
people say better than the old, more expensive approach. What 
we were expecting from your report was something that might be 
cheaper or more cost-effective, and we didn't get it. And from 
what I am gleaning from what is being said and what I have been 
presented that everyone agrees that there is a $3 billion 
shortfall in what we need to accomplish our goals. Of what you 
have suggested as alternatives, other options, are any of those 
accomplishable without that shortfall?
    Mr. Augustine. You want to deal with that?
    Mr. Crawley. No.
    Mr. Rohrabacher. Okay. There you go. So Ms. Giffords' 
observations that you are just saying this off the top of your 
heads, not to say that you don't have years of experience 
behind you as compared to years of action and research on this 
very issue, you're presenting us something that doesn't have 
anywhere near the depth of what NASA has already put into this 
analysis, isn't that correct?
    Mr. Augustine. Well, sir, I think if your point is, is 
there as much analysis on a future program as on a program in 
being, the answer is always no.
    Mr. Rohrabacher. Well, I would just suggest this. If you 
guys didn't come up with a new idea that in and of itself 
appears to be heading toward a solution which is not that we 
aren't--Constellation is a perfectly good program. It is just 
that we are $3 billion short. Now, you didn't come up with 
anything--all of us know, where are we going to come up with 
the money? That is really the question here. Are we going to 
borrow it from China simply by increasing the level of federal 
expenditures, borrow it from China and pay it back with 
interest? I, for example, think that it might be--we are 
throwing money around here in Washington by the hundreds of 
billions of dollars. Maybe we should take the $150 billion that 
we gave to AIG and consider that to be income and tax it at a 
35 percent tax bracket. That would give us plenty of money, 
plenty of those $3 billion a year that we need. Yeah, we have 
been throwing a lot of money around in this city, but we are 
shortchanging our space program. That is what it is all about. 
And I was hoping, frankly, that we would be getting more 
creative alternatives from you folks rather than just 
alternatives that would leave us in this same situation, $3 
billion short of being able to accomplish it.
    Mr. Augustine. We think we have given creative 
alternatives, and I will ask----
    Mr. Rohrabacher. But not to solve the basic problem, which 
is we are short $3 billion.
    Mr. Augustine. Sir, the problem is to put it very simply, 
that with 60 percent more money, you can't go 60 percent of the 
way to Mars and declare victory. It takes a certain amount of 
money. This comes in chunks, and the chunks are large and 
unfortunately we are in a situation where absent going to 
technology that we think would be very unsafe at this point in 
history, there are no good programs in exploration for this 
amount of money.
    Mr. Rohrabacher. We have made mistakes in the past, long 
before a lot of these people were here. I remember advocating a 
single-stage orbiter which could have gone into two-stage orbit 
which we believe could have dramatically brought down the cost. 
We put our money in what, the X-33 and I am sure you are very 
aware of what happened to the X-33 program. And we ended up, it 
turned up a total waste of dollars as compared to--we had an 
option then, the DC-X which was there and according to what you 
have already told us today, it is much better to have something 
where you have something solid rather than just something on a 
view screen. And we made that incredible, historic mistake back 
in 1996, I believe it was. Well, we were hoping maybe in this 
round that you might come up with some other alternatives that 
would give us some creative approaches.
    Mr. Crawley. What we actually uncovered was what we called 
in the Committee the fundamental NASA conundrum, that it 
doesn't have enough money to operate its space systems and 
build a new one.
    Mr. Rohrabacher. Well, but then you had to come up with 
other options that still don't have enough money for your 
options. So really, the basic problem is we don't have the 
money, and you are using that also to come up with your own 
suggestion by casting dispersions on the hard work that NASA 
did already on the Constellation program. I find Ms. Giffords' 
criticism to be totally justified.
    Mr. Augustine. I would respectfully say that I believe that 
this committee does not cast dispersions on NASA in any way. We 
offered alternatives. That is what we were asked to do. Each 
has pros and cons.
    Chairman Gordon. Ms. Fudge is recognized.

                    Implications of Canceling Ares I

    Ms. Fudge. Thank you, Mr. Chairman. Thank you both. I have 
a two-part question. The first one is because I am new at this 
I want to be sure I am clear.
    As I look at your report, are you actually recommending 
that NASA--or proposing that NASA consider canceling the Ares I 
Project, which in--from my understanding is significantly safer 
than the Space Shuttle and replace it with something else? Help 
me understand that part first.
    Mr. Augustine. Yeah. We have offered a number of options, 
some of which did not include Ares I, some of which do include 
Ares I, and with regard to the safety issue, Ares I has had 
enormous emphasis placed on safety. There is good reason to 
believe it will be a very safe vehicle.
    But, again, this time we are in the reverse position. We 
know the Shuttle's safety record. We still don't know Ares I.
    Ms. Fudge. So again, are you recommending that we stop with 
Ares I?
    Mr. Augustine. At least one of our options recommends or 
contains that.

              Consequences of Not Increasing NASA's Budget

    Ms. Fudge. Okay. Then let me just ask the second part of my 
question. If, in fact, and we have all talked about the lack 
of--or that we don't have enough money to fund the programs we 
have. Let us just for sake of discussion say that we don't get 
the $3 billion or get the increase that we have been talking 
about we need. Tell me in your opinion what, in fact, will 
happen to NASA, just NASA overall, the various centers, the 
contractors, the workforce, and this country if we don't fund 
it at a different level? What--tell me what you see happening.
    Mr. Augustine. Well, that is a very good question. If we 
don't get additional funding, one option is to continue doing 
what we are now doing, continue the present program until 
frankly it falls off the cliff eventually for lack of money, 
and by that I mean we will build Ares I, we may build Ares V, 
but we won't have a Lunar Lander and so on or the equipment we 
need on the Moon or Mars or wherever we end up.
    NASA as a whole will continue, I would think, with a very 
strong robotic program, science program, unmanned. The Human 
Space Flight Program will basically be confined to the lower 
orbital Space Station as long as that stays up, and it could 
have a very strong technology program to lay the groundwork for 
future human flight into space, things like fuel transfer in 
orbit, a better understanding of long-duration effects on 
humans in orbit. But it will be a program I think that would 
inspire very few people and impact on NASA's workforce would be 
very large.
    Ms. Fudge. All right. Let me just conclude with this, Mr. 
Chairman, is that I find, too, that that is unfortunate because 
I do support very strongly NASA's mission and various U.S. 
space flight programs. So I thank you, Mr. Chairman.
    Chairman Gordon. Thank you, Ms. Fudge.
    Ms. Fudge. I yield back.
    Chairman Gordon. Dr. Ehlers is recognized.

                              ISS and Mars

    Mr. Ehlers. Thank you, Mr. Chairman. I am not from Texas or 
California or Florida, and I am not married to an astronaut, so 
I will try to be as objective as I can.
    First of all, Mr. Augustine, I just want to thank you for 
the work you have done. I am afraid some of my colleagues have 
given you a rough time which you don't deserve, and I think you 
have done good work here. The program is not yours or not 
caused by your work or your committee's work. The problem is 
caused by the United States Congress, which is not willing to 
appropriate enough money to fulfill the dreams that we 
continually talk about having. And I think you have done the 
government's work under very difficult circumstances.
    I was pleased to hear your comment about taking Mars off 
the table. I have been sitting here for a long time over the 
years wondering why are we even talking about going to Mars. It 
is such an incredible expense, particularly if we wish to send 
someone there and bring them back. It would bleed our entire 
space program dry of money and remove all other possibilities 
if we decide we are going to Mars fairly soon. I think we have 
to look very hard at other types of propulsion which would get 
us there and possibly bring someone back or resign ourselves to 
that whoever we send there is going to stay there. And our job 
from then on is to just send supplies there so that they can 
survive.
    I fail to understand why we should go to the Moon again. We 
have been there. We know a good deal about its structure. It 
just seems to be a very expensive venture. Again, is that 
really, you know, people seem to think that we are going to the 
Moon to have a launching pad to go to Mars. I don't see that 
that is particularly feasible either.
    Another question is what role should the Space Station 
play. I mean, it is--I don't think it is a white elephant as 
some do, but it is not at all clear that its scientific mission 
is worth the money we are putting into it compared to the other 
things NASA could do with those funds.
    My special concern is what about multi-nation effort. When 
I first came to the Congress at the request of Speaker 
Gingrich, I spent two years--almost two years writing a science 
policy paper, which has guided our efforts to a certain extent. 
But I pointed out in there that many of the big efforts in 
science and technology are--have become so expensive that they 
of necessity are going to have to be multi-nation efforts. We 
are following that track. We killed the Super-Conducting Super 
Collider, and instead we combined with CERN on the Large Hadron 
Collider. We have also taken other steps, for example, in the 
Space Station we have involved other nations, and we are only 
happy to take their money and their astronauts. The ITER 
Reactor has been revised by Japan and France, and we are now 
joining them in trying to keep that going. We just didn't have 
the money or weren't willing to allocate the money to develop 
the ITER.
    And so we are following that path in other areas, and I 
think NASA should be following that same path. I think the era 
of bragging rights by virtue of being first to do something, I 
think that era is no longer with us, and I think if we want to 
go to the Moon, I would like to see it become a multi-nation 
effort, where we get a lot of contributions from other 
countries, and they can provide some of the people who would go 
there as well.
    Mars is going to take a lot more work and a lot more money 
than anyone seems to realize or at least say out loud, but 
until we get other sources of funds or the Congress is willing 
to really pay what it is going to cost, I don't see us making 
the steps that everyone has expressed here, that we would like 
to take. And I don't think we should berate you for what you 
are saying when we, in fact, are the major part of the problem 
because we are simply not allocating the funds that will allow 
us to do what everyone says we want to do.
    I would appreciate your reactions to those comments.
    Mr. Augustine. Well, thank you, Mr. Elhers. A couple of 
observations.
    You raised a point about the International Space Station. 
We have not talked about that much. I would like to address 
that briefly and then ask Professor Crawley to talk about the 
flexible path option that has--is of interest, I think.
    With regard to the International Space Station, we did--I 
think we share your views down the line, particularly with 
regard to the importance of international programs. The early 
space, Human Space Flight Program was one of competition. Today 
it is one of partnership, and one of the options that we have 
offered and that I think we fairly seriously believe in is that 
we should extend the ISS for another five years. We say that 
because we think there is a great deal of important technology 
to be gained. We believe that if we invested some money in 
science as opposed to just operations and building the station, 
which incidentally we could now do, that we would also get 
science benefits.
    The--but the bottom line on the International Space Station 
from our standpoint is that for us to withdraw from that 
according to the current plan would totally undermine our 
position in the international space community and undermine 
really the overall effort to carry out space activities.
    Let me ask Professor Crawley to address----
    Chairman Gordon. Quickly if you have something to add.
    Mr. Crawley. Yes. Norm has just asked me to sort of fill in 
one bit of detail. In the area of destinations for exploration 
we were careful to point out that Mars is not the place we 
should go to but the place we should go towards as a long-term 
goal, and that in order to get there there are really two paths 
we have to follow. We have to learn how to work on a planetary 
surface as we would at the Moon, and we have to learn to work 
in free space and to spend longer and longer moving away from 
the Earth, exploring the near-Earth objects passing by Mars and 
so forth.
    And, in fact, if we spent a decade going to the Moon and 
then came back to you and said, well, should we now go on a 
900-day mission, never having been more than three and a half 
days away from the Earth, it is unlikely that we would take 
that step. So we have--in terms of destinations we provided 
this option of the so-called flexible path of going 
progressively beyond the Earth's sphere of influence, up to and 
including into Martian orbit, alongside the option of going 
back to the Moon and that we should really create a program and 
an architecture for it that allows us to do both of these 
things in the future.
    Chairman Gordon. Thank you. Dr. Ehlers, Mr. Hall wanted me 
to let you know he does not hold it against you that you were 
not born in Texas, just against your parents.
    And Dr. Griffith from----
    Ms. Giffords. And Mr. Chairman----
    Chairman Gordon.--Huntsville, Alabama, is recognized.
    Ms. Giffords. Mr. Chairman, and let me just add that my 
husband is taken.
    Mr. Ehlers. I am also not interested.
    Chairman Gordon. Okay. Dr. Griffith.

                   Comments on Commission's Findings

    Mr. Griffith. Mr. Chairman, Ranking Member Hall, and 
Committee Members, thank you. I am actually the District 5 in 
Alabama Marshall Space Flight.
    I actually read this report, and I am hearing that we are 
disappointed that the Committee did not reach a conclusion for 
us. It sounds like the uncertainty that we were left with has 
bothered us, and maybe we are expressing that in a way that is 
coming out in a difficult manner.
    It sounds to me as though we have made a decision. It 
sounds to me as though we are--we are a country can look in our 
checkbooks and see what we believe in, and the commission is 
pointing out to us that right now we are not believing in 
manned space flight. They are saying to us that unless we are 
adequately funded, we can't do this on the cheap, pull back, it 
is not fair to our scientists, our young men and women who are 
interested in science. It is not fair to the country. It can't 
be done on the cheap. It is clear that it can't be done. If we 
had the $3 billion and we started over again, we are five years 
behind.
    It seems to me that the Committee report was very, very 
lucid. It basically said we started this whole thing because of 
safety, the Ares I, the Ares V, our heavy-load vehicle was 
essential. The Orion is to be kept, the Lunar Lander might be 
modified, but it certainly doesn't need much, and that what we 
need as a people, as an American people is that are we willing 
to accept the challenge from China, India, Russia, and others.
    And so we can do this. The technical difficulties are 
surmountable. We are on the road to success unless we decide we 
don't want to open our checkbooks and fund it. And so the point 
was made by Ranking Member Hall that if we can spend or we can 
afford a $787 billion Stimulus Package but we can't afford $3 
billion to meet the challenge of China and respectfully I 
disagree that we will not always be in a partnership with 
China, Russia, or India. And I respectfully would submit that 
this is, in fact, national security, that the future of space 
is in its infancy, and so those who take the challenge, and it 
is amazing to me that we are sitting here in this room talking 
to some major scientists about we cannot afford to meet the 
challenge after what we have done over the last seven months.
    So I think the report is clear. I think we have got enough 
information here to draw the conclusion, and as a cancer 
specialist I have had to make decisions based on incomplete 
information all my life, and we will never have the complete 
information to draw the certain conclusion that allows us to 
sleep well every night. We must take the chance. We are on the 
way. Ares I is on the way, Orion is on the way. We know that 
the heavy-load vehicle, Ares V, is not an option for America. 
It is an essential for America.
    And so I appreciate very much the commission's report, and 
I think it gave us options and the decision is will America 
step up as it did in the '50s, or do we want to lay back and 
watch China from our living rooms, their equivalent of Walter 
Cronkite, talk to us about how they landed on the Moon.
    So I appreciate very much you being here and thank you.
    Chairman Gordon. Thank you, Dr. Griffin--Griffith, and Mr. 
McCaul is recognized.
    Mr. McCaul. Thank you, Mr. Chairman. I agree with the 
comments made just now. We do have a challenge, and I think 
this commission has thrown the challenge right at Congress, and 
it is a funding challenge, and we have been saddling our 
children with tremendous debt over the past year, and in my 
view not investing enough in their future: innovation, 
technology, science, national security.
    One thing the Committee--point the Committee asserted I 
think is a very bold assertion that no plan compatible with the 
FY 2010, budget permits human exploration to continue in any 
meaningful way, and that was really at the outset. I think that 
is a challenge the Committee has thrown at the Congress.

                  Determining the $3 Billion Increase

    My question is when you get to the $3 billion assessment, 
how did the Committee arrive at that level of funding, and 
would NASA be able to support and sustain a credible Human 
Space Flight Program, including the Constellation Program at 
that level of funding?
    Mr. Augustine. We----
    Chairman Gordon. If I could add, also, that is not--that is 
$3 billion over a period of time. You might want to also----
    Mr. McCaul. 2010. Yeah.
    Chairman Gordon.--you might want to clarify that, too.
    Mr. McCaul. Yes.
    Mr. Augustine. I used $3 billion shorthand. We looked at a 
number of alternative profiles of building up budgets, and I 
should say that our original instructions in our charter was to 
abide with the current budget, period, and we went back and got 
latitude. We couldn't do our job without looking at alternative 
excursions. We looked at various families. The one that made 
the most sense to be rather specific was to increase through 
2014, literally up to an additional $3 billion per year and 
beyond that 2.4 percent, which we believe is a more realistic 
estimate of inflation, out through 2020, and beyond.
    The--we do think NASA could conduct a sensible program with 
that amount of money. We also think that it is very important 
that the human space flight part of that program be separated 
from the Science Program, because the Human Space Flight 
Program being so large and having so many risks, when problems 
occur, it tends to eat up the Science Program, and that would 
not be constructive in our view.
    So an additional $3 billion is about 15 percent increase 
overall for NASA, and we think that--I think both Dr. Griffith 
and yourself have said it extremely well, and that is this is a 
budget question, and we are trying to lay it out openly that we 
are on a path that is going nowhere.
    Mr. McCaul. And what we want to know as the authorizing 
committee, and I think the gentlelady from Arizona put it very 
well also, is what--is this $3 billion figure the amount 
recommended by this commission to fully fund the Space Flight 
Program, including--would that also include the Constellation 
Program?
    Mr. Augustine. It would--one option is to do the 
Constellation Program, and the answer is yes, it could do that. 
In our view.

                      Risk of Commercial Ventures

    Mr. McCaul. Okay. I think that is very helpful.
    Also, you mentioned the commercial crew services could 
provide an earlier capability at a lower initial and life cycle 
cost than the government could achieve, but recognizing the 
maturity of the design and detail in the Ares and Orion systems 
already, the amount of infrastructure, capital investment that 
has been put in these programs--doesn't it seem kind of a 
stretch to assert that a credible commercial option at this 
point in time would achieve lower costs and reduce schedule in 
time?
    Mr. Augustine. Let me ask my colleague to address that.
    Mr. Crawley. Well, I think our best assessment, sir, is 
that it would be comparable in the schedule and at lower costs 
but not without risk to the government, and one of the obvious 
risks to the government it would have is the fact that it would 
be a commercial venture, and commercial ventures don't always 
deliver, not necessarily for technical reasons but for business 
reasons.
    So one of the other findings in the report is that even if 
we pursue a commercial crew path, that the government should 
always reserve a capability to deliver a crew to orbit as well, 
and there are various ways of doing that by building different 
families of rockets, but we thought it would be irresponsible 
of us to propose that we solely base the future of low Earth 
orbit access for crew on a commercial venture.
    Mr. McCaul. My time is about ready to expire. Just in 
conclusion, Mr. Chairman, I hope we take a look at this 
commission's report and the amount that is recommended in terms 
of authorization dollars to fully fund the Space Flight 
Program. I think that is one of the strongest recommendations 
we have out of this. Thank you.
    Chairman Gordon. Mr. McCaul, I will assure you, this 
discussion will continue over--as we go through our 
authorization.
    Ms. Edwards is recognized.

                          NASA Skills and R&D

    Ms. Edwards. Thank you, Mr. Chairman, and thank you to our 
witnesses today.
    First let me just say that I share in our Subcommittee 
Chairwoman's comments that I expected something different all 
summer, and I haven't been on this committee long but just been 
waiting almost with bated breath for the report so that we 
could move forward, and I feel like we are now in this kind of 
nowhere land. And although I don't really have an interest in 
necessarily being the first to do something, I do think it is 
important that we are concerned that the something that we do 
is significant, that we have outlined a purpose, and then we 
say what is the budget that it takes to get us there. And I 
feel like we were working--the Committee in some ways was 
working backwards. Here is the money, and this is what we can 
do with it instead of setting--saying, here is the vision, and 
this is what we want to achieve.
    And it isn't a destination. It is not a place. It is kind 
of bigger than that. You know, is it--what are the research and 
technology and scientific goals, and if it is the Moon first 
and then Mars that gets us to that goal, that is a really 
different set of questions than just saying we want to go to 
the Moon, and we want to go to Mars and setting forth a 
destination.
    I really do worry that although you may believe that, you 
know, that what you have outlined here or a set of options, 
every single headline that I have read over the last couple of 
weeks, you know, basically is saying we are going to ditch the 
Human Space Flight Program, and so that is the message that has 
gone out to a public that is already invested in the direction 
that we are heading now with Constellation. That is the message 
that goes out in a very tough economic environment. It is the 
message that goes out to our scientists and researchers, the 
civilians at NASA and our contracting community.
    And I think it is really hard now, in fact, to regroup and 
to recoup some of the positive moving direction that many of us 
felt when the President, upon his inauguration, actually spoke 
positively about the need to invest in this kind of scientific 
research and technology and to carry out, you know, a vision, 
even a boiler plate one that was laid out by President Bush and 
setting another vision, and there is this degree of uncertainty 
now.
    Now, I know that as a Congress and as an authorizing 
committee we are going to have to come back and really digest 
this to figure out how to move forward, but just as I close, 
Mr. Augustine, I wonder if you could comment to us your 
assessment about the sustainability of the workforce and the 
skills to carry out human space flight given the options that 
you laid out. And whether the Committee really looked at the 
implications for the workforce in terms of being able to 
sustain it, both our civilian capacity within NASA but also in 
our outside contracting community that might say, wow. They 
don't really know what they want to do with this program. Let 
us figure out some other business models.
    And I wonder as well if you could comment about the 
research and scientific and technical capacity with each of the 
options and how, you know, one or two of them, if we pursue 
those directions, might maintain those over the course of the 
next several years as we get some of these systems back on 
line.
    Mr. Hall. The gentlelady yield?
    Ms. Edwards. Yes.
    Mr. Hall. You know----
    Ms. Edwards. Of course, Mr. Hall.
    Mr. Hall.--I sure agree with what you are saying. I just, 
you know, I don't think it hurts to have one old geezer in the 
United States Congress who remembers, and you don't remember 
because you were probably in grade school at the time the 
United States of America bypassed its chance to be the 
technological leader in the entire world when we turned down a 
$500 million investment in the Super Collider. And as I look 
back on that that day, that $500 million, if I can--I am not 
much on math, Mr. Chairman, there is three things I couldn't do 
in math, that is add and subtract, so I am not sure about--but 
isn't 500 million a half of one billion, and we need $3 billion 
for several years here.
    If we just--if we can't say that and get more of the R&D 
percentage, we are letting this Congress down, and when we 
point our finger at this commission here, at anybody else and 
don't know that there is three fingers pointing back at the 
United States Congress, we are the ones that haven't 
appropriated that money. We are the ones that haven't stepped 
forward to fund the Space Station the way we should have funded 
it, and our children are the losers.
    Now, we ought to take that on, and I am not joking about a 
march on Washington, and it would be handled mostly by high 
school and college youngsters, because they are the ones that 
really know what they are losing.
    I yield back my time.
    Chairman Gordon. Mr. Augustine.
    Mr. Augustine. Yes. I will try to be very brief. You raised 
a number of good points that we should address, Ms. Edwards.
    The--with regard to the skills question, we viewed that in 
two contexts. One is the overall workforce and then just a 
basic employment issue. We also addressed it from the 
standpoint of unique skills that the Nation needs to maintain 
if it wants to be in the Human Space Flight Program. Each 
option has a different impact in those areas just as it does in 
most other areas. Some options have relatively little impact. 
Some have very large impact. For example, continuing the Space 
Shuttle has the least impact in that area. Other options not 
so.
    The--with regard to the research and science community 
issue, I have testified before this committee before, so I 
won't repeat other than to say that in my view that is one of 
the most important issues that we are dealing with here is how 
to preserve that capability in this country.
    And finally, I would just note that, again, we have been 
asked to offer alternatives. We have offered only one 
conclusion, and the only conclusion we have made is that the 
current program doesn't have enough money to be completed. 
Beyond that we have offered choices for you and for the 
Administration to make decisions. So you have got the tough 
job.
    Chairman Gordon. But all of those also need more money. Is 
that correct?
    Mr. Augustine. All the viable ones do. Yes.
    Chairman Gordon. Okay. Thank you, Ms. Edwards, and Ms. 
Kosmas.

                        Workforce Sustainability

    Ms. Kosmas. Thank you, Mr. Chairman, and thank you, Mr. 
Augustine, for being here and Dr. Crawley. I appreciate your 
hard work as well. Many of the sentiments you have heard today 
are echoed by me, and I also appreciate the opportunity of 
having chatted with you prior to the appointment of the 
Committee in the conference call where we discussed what you 
would be looking at over that time period and your acceptance 
of my comments since I wasn't able to be there when you were at 
Cocoa Beach near the Kennedy Space Center.
    I have sort of a practical question. I am like everyone 
else, bemoaning the fact, quite frankly, that we didn't fund 
over the years the program that we have been assigned to do and 
that NASA was either unable to or unwilling to get the funding 
necessary to move forward with the parallel programs that made 
up the most current vision for manned space exploration.
    But I wanted to ask something fairly specific. My colleague 
alluded to it, but I am not sure that we actually got a 
specific answer in light of the way it unfolded. But I wanted 
to suggest that the original criteria that you identified, was 
part of your review, was going to include an assessment of 
workforce, and a summary of your review included no specific 
reference to workforce issues.
    So as you probably know, I serve as the representative for 
the Kennedy Space Center, and I am very concerned about the 
need to preserve the highly-skilled workforce that we have 
there. I think this has an immense impact, not only on our 
local economy but also across the Nation as many other 
communities are affected by the Space Program. And I personally 
believe that it is essential that we maintain a professional 
and viable workforce in order that we can ensure the leadership 
of this nation and our innovation and competitiveness, which I 
think is also critical to national security as we move forward 
in space exploration.
    So if you can suggest to me why--originally it was, as I 
say, one of the criteria that you suggested you were going to 
address, but the summary does not speak to the workforce. So 
can you discuss how the sustainability of the workforce and the 
expertise needed to pursue your human space flight options 
differs under the options that are proposed. And also of the 
options that you have forwarded to the Administration, which 
one in your opinion offers the best protection for the human 
space flight workforce and the industrial base that we 
currently have?
    Mr. Augustine. Ed, would you like to address that?
    Mr. Crawley. Yes. Thank you for the question. Let me 
explain that in the final report there will actually be an 
evaluation of these options against 12 parameters which were 
just briefly mentioned: science, the contributions to 
technology, the preparation for exploration, the potential to 
involve internationals, the stimulation of the commercial 
community, the public engagement, the degree to which it 
engages the American people, the cost, the safety, the 
schedule, and the workforce----
    Ms. Kosmas. Uh-huh.
    Mr. Crawley.--so that in--without going into all of that 
detail in the summary report, it will be forthcoming. Now, 
specifically on the question of workforce, what we did is we 
looked at what the key skills that are needed for our future in 
space and how the options would preserve them or not--or allow 
them to atrophy. And there--the problem is that the options, 
the difference of the options tend to do different things. So, 
for example, the ones that continue to use the solid rocket 
boosters like Ares I and Ares V, preserve that aspect of our 
national capability and workforce skills. Some of the other 
options tend to preserve other aspects of the workforce skills.
    The one piece that does come through, however, is the 
options that have some variance or another that preserve, that 
extend the Shuttle or Shuttle Heritage Systems, do tend to 
preserve the workforce capabilities preferentially.

                     Space Shuttle Recertification

    Ms. Kosmas. Okay. I appreciate that. It doesn't seem to be 
one of the ones that you have highlighted, however, as--I know 
you tried to come with a balanced approached of these are the 
options and not really to suggest necessarily which one would 
be your first choice, but I didn't notice in the recommendation 
or in the review that you had made any specific comments with 
regard to recertification of the Shuttle Program or extension 
of the Shuttle Program, which as you say, would preserve the 
workforce to the best, to the maximum amount possible.
    So did you investigate the option of recertifying the 
Shuttle Program for a complete recertification?
    Mr. Augustine. We did look at that. That is option 4B, and 
the recertification that we pointed to is the one that followed 
the recommendations of the Challenger failure analysis.
    Mr. Crawley. The CAIB.
    Mr. Augustine. The CAIB and that option is present, and it 
is, as my colleague says, is the one that is probably the least 
disruptive to the ongoing workforce. And it is also the only 
option that closes the gap.
    Chairman Gordon. Thank you, Mr. Augustine. Ms. Johnson is 
recognized.
    Ms. Kosmas. Thank you.
    Ms. Johnson. Thank you very much, Mr. Chairman.

                   Possibilities Without $3B Increase

    Mr. Augustine, let me thank you for the report and also 
thank you for agreeing to be a part of my science and tech 
brain trust next week. You did not make a specific 
recommendation, because that depends on a lot of things, the 
money, but of course, I have read somewhere that we had 
exhausted much of the research possibilities in the Space 
Station. I don't know how true that is, but I do know that the 
space exploration has given us more results than any other type 
of research that we can use.
    What is possible without that injection of money? What do 
we have in the budget? Have we put something together for NASA 
already? Okay.
    Not being--I am certain that we don't have it but we still 
might do it, but without the $3 billion and say 1, what would 
be possible to do to continue the program?
    Mr. Augustine. The--we looked at an option at 1-1/2 billion 
add-on, and the--it does not permit you to conduct an active 
exploration program. It does permit you to continue the 
International Space Station out through 2020, it permits you to 
add some additional funds so that you can make more use of the 
Space Station while it is there. One of the problems so far is 
that the money has gone to constructing the Space Station and 
maintaining it and not to using it. We now have an opportunity 
to use it.
    With that amount of money you also have the opportunity to 
rebuild the technology program at NASA, which has atrophied a 
great deal over the years. And so you could have a very strong 
science and technology program, you could continue the 
International Space Station, but there would be no exploration. 
We would still be trapped 368 miles above the Earth.

             Inspiring Students With NASA's Current Budget

    Ms. Johnson. We would be able to continue to involve 
students now, that is, having a great effect as to their 
directions for the future?
    Mr. Augustine. I think clearly that is one of the things we 
would like to see done.
    Ms. Johnson. Are we--well, I know that high school students 
especially are involved in a lot of the space exploration 
activity. What about future staff? Would you have to lay off 
people and they go someplace else and get grounded, and what 
would that do for encouraging young people to continue in 
science and engineering?
    Mr. Augustine. With the current program I guess it would 
probably require some layoffs, but if we kept spending the same 
amount of money we are now spending, we might need different 
kinds of people but presumably you could have more or less a 
comparable workforce. The--one of the challenges that NASA has 
today is that the--so much of their cost is fixed. Their 
overhead is fixed, and there is very little latitude to make 
these trades. A major layoff at NASA would be a very great de-
motivation to young people considering going into the Space 
Program. I think it would be a very unfortunate thing.
    At the same time I think it is our view that NASA really 
does need to address its overhead, is its overhead too large so 
that it doesn't have the latitude to do some of these exciting 
things. I would--I lived through the restructuring of the 
aerospace industry at the end of the Cold War when our industry 
lost 680,000 employees, dedicated people who made great 
contributions, but the industry had to do that in order to 
survive. And NASA may have to do some restructuring of its 
workforce to survive.
    Ms. Johnson. You know, the Johnson Space Station is 
extremely important to the State of Texas, and I just imagine 
wherever we have portions of it, it is just as important to 
them. If we have to make a reduction, do you have a 
recommendation as to how we do that, what levels of activity 
and----
    Mr. Crawley. We don't actually--no is the simple answer. 
That was a layer of detail that we didn't get into.
    Ms. Johnson. Uh-huh.
    Mr. Crawley. But we do have a finding in the report which I 
think we would all strongly support on the Committee is that 
NASA really needs to be given some latitude to do its job. It 
needs to be able to allocate the resources and assign the tasks 
and develop the capabilities to prepare itself for going 
forward, and I think there is an important role in the Congress 
in working with the Administration and with the new 
Administrator of NASA to realign the agency such that its 
skills and knowledge base are aligned with its goals.
    Chairman Gordon. Thank you, Ms. Johnson, and Mr. Grayson is 
recognized.

        Serving President Kennedy's Vision for the Space Program

    Mr. Grayson. Thank you, Mr. Chairman.
    On September 12, 1962, President Kennedy said words that I 
think we are all familiar with, but I am going to repeat them. 
He said, ``We choose to go to the Moon. We choose to go to the 
Moon in this decade and do the other things not because they 
are easy but because they are hard. Because that goal will 
serve to organize and measure the best of our energies and 
skills, because that challenge is one that we are willing to 
accept.''
    Let us assume that President Kennedy was right about the 
purpose of the Space Program. He was right to say that the 
purpose of it is to organize and measure the best of our 
energies and skills so that we push the envelope, we find out 
what human beings are capable of, and in doing so we learn more 
about the universe, about science, and about ourselves. If that 
is correct, which of these five options best serves that 
purpose?
    Mr. Augustine. I believe I would say that any of the last 
three options, three, four, or five, would satisfy that 
purpose. Each would have somewhat different costs, somewhat 
different risks, somewhat different objections.
    One option that we have raised that has generally not been 
raised in the past and that I don't want to endorse but I point 
out only because it is different, is the last option called the 
flexible path option, and Ed, I would ask you to describe it. I 
think it would be of interest to the Committee.
    Mr. Crawley. I think I would agree with Norm. One of the 
things we struggled with, frankly, was the perception on the 
part of the American people, and we ran a very open process in 
this committee. We allowed postings, e-mail communication, we 
twittered and so forth. Difficulty as one of the Members 
mentioned of explaining why it is that we are going back to the 
Moon and the options which structurally aren't very different, 
you wouldn't build very different boosters, you wouldn't build 
very different capsules, but frame the program in the sense 
that we are exploring space, that we are going ultimately to 
Mars, that we are going to follow a flexible path and learn how 
to work in space to go beyond the sphere of influence of the 
Earth, to visit the asteroids that might cross our paths and 
someday damage our planet, to go and do a fly-by of Mars while 
also some time in the '20s setting foot again on the Moon.
    It created a context and a message that would really 
inspire people, I think Americans, to do the hard things as the 
famous Rice University speech you quoted inspires us to think 
about.
    Mr. Grayson. All right. Tell me more. Tell me more 
specifically about why you think that the last three options 
and particularly Option 5 would do so much to measure the best 
of our energies and skills, teach us more about ourselves and 
about the Universe.
    Mr. Crawley. Well, we go into space for many reasons. One 
is to understand our place in the Universe, the common people, 
the American people to understand our place, and we think that 
if we go progressively deeper into space, visiting on every 
opportunity new places, circling the Moon once just to show our 
friends and competitors that we can do it, going and visiting 
places on the beginning of the super highway through the inner 
Solar System, going and visiting the asteroids, doing swing-bys 
of Mars, demonstrating that we can go deep into space and 
repair scientific observatories, much as the Hubble Space 
Telescope repair missions did in low Earth orbit, that these 
things will create both the image and the reality that our 
Space Program is doing new, challenging, hard things.
    Now, the reality is going to the surface of the Moon is 
also hard, and we will find out how hard it was when we try to 
do it in 40 or 50 years, and we will frankly find out how lucky 
we were in going six times to the surface of the Moon and 
returning the astronauts safely as the President, President 
Kennedy also said.
    So it is--the challenge is more apparent. The scientific 
return is more real when or if we will visit places we have not 
been, we will work with robotic spacecraft in a new way by 
circling planets and sending down probes and interacting with 
them.
    So we really think that we did create some part of a new 
vision for the program in what we call option five, the 
flexible path at about the same expenditure and with about the 
same equipment that you would use in the other ones.
    Mr. Grayson. Mr. Augustine, do you want to add anything to 
that?
    Mr. Augustine. No. I think he has covered it very well. 
Thank you.
    Mr. Grayson. Thank you, too. By the way, in the same speech 
the President asked why does Rice play Texas, and I was 
wondering if the Ranking Member could address that.
    Chairman Gordon. Dr. Baird is recognized, Baird is 
recognized.

                    Has NASA Ever Been Fully Funded?

    Mr. Baird. Thank the Chairman. I thank our witnesses for 
your outstanding work. I think you have performed a real 
service to the country as you have done before, Dr. Augustine, 
with the----
    Mr. Augustine. Thank you.
    Mr. Baird.--Above the Gathering Storm report. I need, I 
think, to take just a second to observe that one of my 
colleagues said a moment earlier, we have been doing a lot of 
deficit spending over the last year. My recollection was that 
the deficit was near zero. In fact, there was a surplus when 
President Clinton left office and that the national debt 
doubled and the foreign borrowing of this country doubled 
during the Administration of President Bush. So just--I think 
records matter.
    And I just have to say I am a passionate supporter of human 
space flight, but I think we have to pay for it, and I find it 
rather interesting that so many of my colleagues on the other 
side of the aisle who have entertained folks over the last few 
weeks who have screamed about federal spending and the federal 
deficit, et cetera, are now saying, well, just, I mean, it is 
just $3 billion. It is just $3 billion.
    I would just ask, first of all, did the prior 
Administration ever fully fund or the prior Congresses ever 
fully fund the Space Mission to meet the objectives laid out by 
the Bush Administration?
    Mr. Augustine. That is a difficult question we spent a lot 
of time trying to understand, and it is probably a good 
question for the GAO to investigate and not for us. My 
understanding as best as we could draw it, is that when the 
Constellation Program was put together, the then Administrator 
of NASA I think made a genuine effort to find out what funds 
that NASA should be able to expect in the future and made a 
decision for a program based upon that honest attempt. Whatever 
the reasons there is not that much money available today, and 
but there is a sub-plot to this, and that is for the Ares 
Program and the Ares I Program and the Orion Program, in the 
near years those programs will receive basically all the money 
that they were expected to get in the first place. So they 
didn't take a cut. NASA as a whole did take a cut.
    Mr. Baird. Did it receive sufficient money to enable us to 
achieve the goal of landing a man on Mars and returning them 
safely to Earth?
    Mr. Augustine. If you take the number that the then 
Administrator of NASA was using, and I am not going to try to 
argue whether he had a reason to believe that or not, he could 
speak to that, but you would have had enough money in our 
opinion. As it has turned out, there is not that much--enough 
money.
    Mr. Baird. Okay.
    Chairman Gordon. The problem also is the balloon mortgage. 
There may have been enough money a long time, but it 
ballooned----
    Mr. Baird. I understand that well, and that was the next 
point. You know, the near costs. I mean, we saw the sketches of 
those missions and astronauts happily working under large 
geodesic domes that were somehow transported up there by 
massive vehicles and landed softly and then constructed in a 
non-friendly atmosphere. It was, you know, as if we had 
transported these giant cranes up, and that is a significant 
lift capacity that I don't think we have.
    But I commend you for being honest with this body, and I 
wish this body would be honest with itself and say, we can't on 
the one hand decry federal deficits and then on the other hand 
say, oh, it is just $3 billion.
    And which brings me to my next point. Would you support 
repealing tax cuts to fund this?
    Mr. Augustine. Sir, that is beyond my pay rate. I am sorry.
    Mr. Baird. Maybe I should ask some of my colleagues on the 
other side of the aisle who decry the spending. Mr. Griffith, 
Dr. Griffith had it right, and I think you gentlemen have it 
right. We got to fish or cut bait, and I believe passionately 
that it is the mission of our species to explore and to 
actually leave the solar system at some point, but it is going 
to cost us, and we have to decide whether we want to spend 
that.
    And I believe it is the mission of this country to lead the 
world in that. We are going to fall behind. I think it is very 
likely that my kids are going to watch somebody from another 
country walk on the Moon, whereas I watched Americans walk on 
the Moon. But we can't have it both ways. We can't have 
multiple unfunded wars, continued expansion of entitlement 
programs, continued tax cuts, and then say we want a few 
billion dollars here or there to expand our science effort. We 
can't have it. We are going to have to decide what is worth 
paying for, and I think you have done this nation a great 
service by owning that and saying--and making us look in that 
mirror and I applaud you for it. I think it is worth spending, 
and if it is worth spending, it is worth paying for, and we 
have to decide how to do it. But it is not worth saying we are 
going to add another $3 billion in debt to our kids so that we 
don't have to pay the taxes today. That is not worth doing.
    I thank you, and I yield back.
    Chairman Gordon. Mr. Wu, you are recognized.

            International Cooperation for Human Space Flight

    Mr. Wu. Thank you very much. Mr. Baird, I thought you were 
a psychologist, not an economist. That is a dismal analysis but 
economic reality. Yeah.
    I--perhaps it is in the spirit of continuing human space 
exploration at levels we can afford that I want to ask this 
question or this set of questions. I know that you all would 
prefer not to recommend between the different options that you 
have laid out in the report, but I would like to ask you about 
the different consequences that the different options have for 
international--in two ways, competition, and cooperation.
    I think that there is some--there is tremendous potential 
for real competition developing between the different space-
faring nations, and there is some prospect for cooperation 
also, and therefore, in sharing some of those costs and having 
a true human space effort. If you all could both address the 
consequences of the different options for cooperation and 
competition internationally.
    Mr. Augustine. Mr. Wu, let me address the basic point and 
then ask my colleague to address the specific options. I think 
the basic point is that there are many, many advantages we 
think to international cooperation. We believe that the ISS has 
been extremely successful in setting up a management structure 
that involves a very large number of nations, I think it is 17 
now, that works. And that management structure we believe could 
be broadened to go pursue exploration programs beyond Earth 
orbit, low Earth orbit. And so we believe the basis if there if 
we don't destroy it by shutting down the Space Station 
suddenly.
    Turning to the individual options briefly----
    Mr. Crawley. Yes. I would agree with Norm. The--what we 
very clearly heard was that the basis for any real 
international venture in space was to deliver on our 
obligations on the Space Station, that this was an essential 
step in the future, and to dedicate the Space Station in the 
decade or so which we imagine it to operate in the future, to 
addressing many of the technical issues that we will have to 
face in exploration and developing the technologies and 
demonstrating them on the Space Station.
    With respect to the specific options, I don't think that 
the options that we have presented really distinguish 
themselves greatly by the degree to which we could involve 
international partners in them.

                      American Leadership in Space

    Mr. Wu. Let me just jump in. If you look at the other 
nations' priorities, don't some of them emphasize say a landing 
on the Moon rather than not going deeply into the gravity well?
    Mr. Crawley. I think that we didn't see a strong indication 
of that. We saw that they were looking for America to provide 
leadership, that they are comfortable with American leadership 
in an international space endeavor, and that they look for us 
to sort of at least initially lay out a course but involve them 
very early in that process. And structure the program, 
whichever one of the options is chosen, so that they can play 
real meaningful roles. We heard this very frequently from the 
international partners, and you know, there are real assets 
there. If we look at the combined space agency budgets of even 
just we will call it our traditional allies, they represent now 
a substantial fraction of the NASA budget collectively.
    Mr. Wu. Now, does that include India and China, or both 
India and China are outside----
    Mr. Crawley. No.
    Mr. Wu.--the 17 nation----
    Mr. Crawley. They are not involved in the Space Station 
now, although there is some interest in extending to them, but 
if you just look at the budgets of the European Space Agency 
and its member states, its principle member states, France, 
Italy, Germany, the United Kingdom, and Canada, and Japan, you 
would already have about 60 percent of the budget of NASA, and 
you would have real capability. I mean, the robotic capability 
of the Canadians, the propulsive capability of the Europeans, 
the on-orbit robotics and laboratory capability of the 
Japanese. One could craft a global enterprise here which 
America could lead.
    Mr. Wu. And if you added India and China to that budgetary 
mix, would you be coming up close to 100 percent?
    Mr. Crawley. Well, the next principle one is the Russian 
program, which, of course----
    Mr. Wu. But they are in.
    Mr. Crawley. They are in now.
    Mr. Wu. Yeah.
    Mr. Crawley. It is a little bit more difficult to assess 
because of buying power parity. The Indians still have a modest 
program. The Chinese it is a little hard to define exactly how 
large their program is as you might know because of the way 
they budget or don't budget for the--reveal the budgetary 
details.
    Mr. Wu. They do work with non-Arabic numerals.
    Chairman Gordon. Thank you, Mr. Wu, and Ms. Jackson Lee, 
you were patient, and you will be our clean-up hitter.

                         Current State of NASA

    Ms. Jackson Lee. Mr. Chairman, allow me to thank both you 
and the Ranking Member for your courtesies as well as the 
Members of this very, very fine committee. I am an alumna of 
the Committee, but my heart is very much engaged in this 
process. And I would like to think that I am not from 
California or Texas, or I am not from Florida, but I am from 
America, and I believe this is an American question about where 
we stand as relates to our next steps.
    I note, Mr. Augustine, and you are very right, reading from 
your opening statement that you were assigned the task, the 
Committee was assigned to task to identify alternative courses 
that the U.S. might pursue in the area of human space flight. 
Were you directed early on about how you should conclude? Did 
your tasks include the elimination of human space flight, and 
here is where we would like you to find yourself? Were you 
given those kinds of instructions?
    Mr. Augustine. We were given no direction of any kind like 
that.
    Ms. Jackson Lee. So there was no bias that you felt that 
came from in particular the Administration or anyone that you 
had to report to?
    Mr. Augustine. I need to say that we were told--I was given 
no bias of any kind except that in our initial job description, 
if you will, we were told to abide by the budget run out 
through 2020, that we were given, and we were told to phase out 
the Shuttle in 2010. And when I saw that, I went back to the 
Administration and said that, you know, we can't do our job if 
we are given that kind of constraints, and they very quickly 
said, fine. Go ahead.
    Ms. Jackson Lee. Excellent, and I----
    Mr. Augustine. We had total freedom.
    Ms. Jackson Lee. I am going to be rapid fire with my 
questions. In your travels to our different centers, did you 
find qualified and competent staff, degreed individuals, 
capable and competent in terms of research and cutting-edge 
technology?
    Mr. Augustine. Absolutely. I have worked with those 
people----
    Ms. Jackson Lee. So we have some positive assets in the 
respective centers.
    Mr. Augustine. Without question.
    Ms. Jackson Lee. I would just want to put on the record a 
quote by the President, President Kennedy that said, ``We do 
these things not because they are easy but because hey are 
hard.'' So here is my overall question. It seems as if we have 
nailed the--we have got the hammer, we are hitting the nail, 
and the nail now is this $3 billion, that if we were to be 
given that $3 billion right as we speak, and we then follow one 
of your other instructions, which is the possibility of 
restructuring in terms of looking closely at our overhead, 
recognizing the human resources that we have, do we have a 
viable program in the Constellation?
    Mr. Augustine. Yes, I think so. I think our committee 
believes so.
    Ms. Jackson Lee. So then in essence we have a roadmap. I 
would like to suggest that a roadmap that includes failure is 
not an option, and when I say that, I believe that we may 
possibly as we move forward in space have to go it alone. I am 
a big believer without collaborators. I have worked on this 
committee without collaborators. We are very active, 
particularly the International Space Station.
    Do you perceive us having the present skill set of NASA 
employees and supporting--support staff, academicians and 
others, to be able to design a 21st century, 22nd century space 
program?
    Mr. Augustine. There are some unknowns yet that have to do 
with the effects of cosmic radiation on the human body, long 
duration exposure to zero-G's and the moving into a gravity 
well. So there are some unknowns, but the general answer would 
be, yes, we have the talents available to have a fine 
exploration program.
    Ms. Jackson Lee. And a quick question. Is there value in 
the American Space Program, the Human Space Program in 
particular?
    Mr. Augustine. The simple answer to that is yes. Before I 
think you were able to join us we talked a little bit about the 
reasons we feel that way, but it would seem to us there is 
value, and I have to caution, of course, that all ten of us 
come from the world of the space programs.
    Ms. Jackson Lee. And I understand, and I was here when you 
said inspiration education. I would rather focus on, as I 
conclude, I do believe this is going to be a national security 
issue, and I am now on homeland security. I would rather we be 
the leaders in space for a variety of reasons because of the 
values of this nation, because we are kind, because we believe 
in, if you will, an attitude of peace as opposed to aggressive 
actions, in this instance against Earth, and frankly with the 
talent that you say is present in our space centers around 
America, it would be a shame to recreate the max movies, where 
we go to Florida and Alabama and Texas and other places and see 
rusting space centers.
    I think you have given us a roadmap. I think the President 
and the White House have something to work this, and I believe 
this Congress has an obligation to the American people to find 
$3 billion. Whether or not we do it in a bipartisan manner, 
which I think we absolutely can, I think it is an absolute 
imperative that we encourage the brilliance and the scientific 
abilities of those who are working in space exploration now to 
continue their work, to be funded, and to use some of the 
instruction that you have given us to make it the most solid 
world space program that the world has ever seen.
    And, Mr. Chairman, I thank you for allowing me to be an 
American today and at the same time being a Texan because we 
sure want the Space Station and the Space Program and Human 
Space Flight to survive.
    Chairman Gordon. Thank you, Ms. Jackson Lee.
    Ms. Jackson Lee. Let me thank you and yield.
    Chairman Gordon. You are always welcome back here, and so 
in conclusion let me say, Mr. Augustine and Dr. Crawley, thank 
you for spending the afternoon with us. More importantly, thank 
you for the work that you put into this report.
    This committee has a very serious responsibility this year 
of providing a NASA authorization, which will really lay the 
foundation for the future of NASA, if not for the coming 
decade, a couple of decades. So we want to continue with this 
discussion. We are going to try to get it right, and we 
appreciate you helping us.
    And so we will now call up our second panel.
    Mr. Augustine. Thank you, Mr. Chairman.
    Mr. Crawley. Thank you, Mr. Chairman.
    [Recess.]

                               Panel II:

    Chairman Gordon. We are on a timeframe here, so I would 
hope everybody would make their well wishes crisp, and the 
second panel will take their seat, and we will get started as 
soon as Dr. Griffin takes his seats. Thank you.
    Okay. Thanks for your patience, and I think hopefully you 
found the first panel as informative as we did, and as we 
introduce our witnesses here, first, Vice Admiral Joseph W. 
Dyer, who is the Chair of NASA's Aerospace Safety Advisory 
Panel and the President of the Government and Industries Robots 
Division at iRobot Corporation. Thank you for joining us.
    And also we have Dr. Michael Griffin, who served as NASA 
Administrator from 2005 to 2009, and now has the glamorous 
title of Eminent Scholar and Professor for Mechanical and 
Aerospace Engineering at the University of Alabama in 
Huntsville.
    So welcome you both, and Admiral Dyer, you know the rules 
here. Won't you proceed?

  STATEMENT OF VICE ADMIRAL JOSEPH W. DYER USN (RET.), CHAIR, 
AEROSPACE SAFETY ADVISORY PANEL, NASA; PRESIDENT, GOVERNMENT & 
         INDUSTRIAL ROBOTS DIVISION, iROBOT CORPORATION

    Admiral Dyer. Thank you very much, Chairman Gordon, Ranking 
Member Hall, distinguished Members. Thank you for the 
opportunity to be with you today. I respectfully request to 
submit a written statement and would note that in that written 
statement that we reference the 2008 ASAP report submitted to 
this panel earlier this year.
    Chairman Gordon. Without objection.
    Admiral Dyer. I represent the views of the Aerospace Safety 
Advisory Panel today, and I will emphasize the remarks we also 
shared, the panel shared via--with the Augustine Committee on 
the 14th of July of this year. I will restrict my remarks to 
safety and safety-related opportunities and issues.
    In general, we are very respectful and appreciative of the 
work that Mr. Augustine and the panel have done. We do note 
that the tempo and time limited their consideration of safety, 
and we think that additional focus and energy in that arena is 
important.
    The summary report does as we discussed in the first panel 
reference current plans for the Constellation Program against a 
number of conceptual alternatives, and here we would offer a 
word of caution that you have heard already. That is that 
PowerPoint will always outshine programs of record, but perhaps 
it is worth pausing for a minute and looking at why is that the 
case? Why is that true?
    I would submit, sir, that it is that professional, peer, 
and public reviews during the accomplishment of real work of 
program of records highlight technical challenges, they 
discover cost stress, they reveal the realities of conducting 
high-risk business in an unforgiving environment, and 
highlighted and publicized are all the challenges of carrying 
out a program.
    Future concepts, conceptual concepts do not yet have the 
benefit of this reality testing. Therefore, we believe that any 
new design must be substantially better to justify starting 
over.
    Speaking of starting over, we believe that doing so surely 
and substantially would extend the gap of the Nation's ability 
to transport humans into space. The ASAP does not, I will 
emphasize that again, does not support extending the Shuttle 
beyond its current manifest.
    Also discussed in the report of the Augustine Committee is 
the Commercial Orbital Transportation Services Project. We 
believe that NASA needs to take a more aggressive role in 
articulating human rating requirements to the COTS Project. 
There is--the project, COTS Project are not currently subject 
to human rating standards. There is no proven ability to 
transport--that they will be able to transport NASA personnel 
in a satisfactory function as of yet, and there is no 
indication that it could close the gap between Shuttle and a 
future program.
    We do agree strongly with the panel in two areas, and that 
would be both budget and unmanned systems. The imperative to 
achieve a better harmony among requirements, resources, and 
acquisition strategy is something that should be undertaken 
with great speed and great interest. Without it there is an 
inevitable pressure to shortcut good process in the face of 
budget shortfall, and it is the most damning infliction upon 
proper safety and good design.
    We also agree that unmanned systems have a strong role to 
play both stand-alone and integrated with astronauts. 
Historically, the scientific community has been the user of 
unmanned systems, much so manned space. NASA will be better 
served, we believe, by developing a better process by which 
manned and unmanned systems are integrated, and undertakings as 
diverse as construction and mining we believe demands the case.
    We would like to see more emphasis on the next major 
program, be it a continuation of Constellation or an 
alternative to have strong, strong emphasis on safety, and we 
note that major change is most often--rides on the back of 
dedicated people with a major program and a strong role to 
play.
    Mr. Chairman, perhaps the most important message I would 
like to share with you today is that the panel would make a 
case or would hope to champion a broader discussion of risk. 
Let us be honest. Lives will be lost in the human exploration 
of space. We are lucky to have brave men and women that are 
willing to undertake that challenge, but the panel believes 
that there is a need for greater dialogue about risks and that 
NASA, the White House, and the Congress must all shoulder the 
burden of risk and the necessity of being more transparent with 
the citizens of our country regarding that risk.
    In closing, Mr. Chairman and Ranking Member Hall, 
distinguished Members, we would note that the new NASA 
Administrator, Charlie Bolden, has been a member of our panel 
for the last several years. We take great comfort and great 
confidence in his stand of the watch at this time and look 
forward to his leadership.
    Thank you, sir.
    [The prepared statement of Admiral Dyer follows:]
           Prepared Statement of Vice Admiral Joseph W. Dyer
    Chairman Gordon, Ranking Member Hall and distinguished Members, 
thank you for the opportunity to appear before you today. As requested, 
I would like to present the perspective of the NASA Aerospace Safety 
Advisory Panel with regard to the Options and Issues for NASA's Human 
Space Flight Program.
    The Aerospace Safety Advisory Panel (ASAP) was originally 
established under Section 6 of the NASA Authorization Act, 1968 (42 
U.S.C.  2477). In 2005, the ASAP authority was modified under Section 
106 of the NASA Authorization Act of 2005 (P.L. 109-155).
    The ASAP's charge is, among other things, to advise the NASA 
Administrator and the Congress with respect to the hazards of proposed 
or existing facilities and proposed operations with respect to the 
adequacy of proposed or existing safety standards, and with respect to 
management and culture related to safety.
    My goal this afternoon is to share with the Committee much of the 
same information I shared with the Review of U.S. Human Space Flight 
Plans Committee on 14 July of this year. I shall restrict my remarks to 
safety and safety-related opportunities and issues.
    In general, the ASAP is both respectful and appreciative of the 
summary report released by the Review of U.S. Human Space Flight Plans 
Committee. They quickly conducted a broad and far reaching review of 
current plans and potential alternatives. The ASAP does believe the 
tempo and time available prevented the thorough consideration of risks 
and safety challenges that we would have liked to have seen.
    We note that the Review of U.S. Human Space Flight Plans Committee 
summary report compares current plans for the Constellation program 
with a number of conceptual alternatives. Here, we offer a word of 
caution--PowerPoint presentations addressing future programs will 
always out-shine current programs of record. Why is that the case? It 
is because current programs have garnered the professional peer and 
public review during the accomplishment of real work. Technical 
challenges will have been discovered, cost stress will have been 
revealed, and the reality of conducting high risk business in an 
unforgiving environment will have been highlighted and publicized. 
Future concepts do not yet have the benefit of this reality testing. 
This experience led to one of the ASAP's prime recommendations 
presented to the Review of U.S. Human Space Flight Plans Committee. 
Specifically, the ASAP believes that if Constellation is not the 
optimum answer, then any other new design must be substantially 
superior to justify starting over.
    ``Starting over'' would surely and substantially extend the gap in 
the Nation's ability to transport humans into space. As it is directly 
related, I want to share the ASAP's strongly held position regarding 
the Shuttle: ASAP does not support extending the Shuttle beyond the 
current manifest. The substantiation of this recommendation is 
addressed in the Aerospace Safety Advisory Panel 2008 Annual Report, 
which I respectfully request be included in the hearing record.
    The ASAP's 2008 Annual Report also addresses the NASA Commercial 
Orbital Transportation Services (COTS) Project. The Panel noted NASA 
needs to take a more aggressive role articulating human rating 
requirements for the COTS Project. COTS vehicles currently are not 
subject to the Human-Rating Requirements (HRR) standards and are not 
proven to be appropriate to transport NASA personnel. There is no 
evidence that the COTS vehicles will be completed in time to minimize 
the gap between Shuttle and the follow-on program. Additionally, we 
note that NASA, and at least one of the COTS funded partners, hold 
widely divergent views as to what is required for human-rating.
    An area where the ASAP and the Review of U.S. Human Space Flight 
Plans Committee are in strongest possible agreement is with regard to 
budget. The ASAP has noted the need for NASA and the Congress to 
address an imperative to achieve better harmony among requirements, 
resources and acquisition strategy. The inevitable pressure to shortcut 
good process in the face of a budget shortfall is THE most damaging 
infliction upon a proper safety culture and the conduct of good design.
    Making better use of robots is another area where the Review of 
U.S. Human Space Flight Plans Committee and the ASAP have made similar 
recommendations. The ASAP believes unmanned systems--both stand alone 
and integrated with astronauts--offer potential to reach farther and to 
improve safety. The ASAP has highlighted the role of unmanned systems 
in support of human exploration in the next decade requires 
clarification by NASA. Historically, NASA robots have been embraced 
mostly by the scientific community and to a much lesser extent by human 
space flight programs. NASA will be well served to better develop the 
process by which manned and unmanned systems are integrated. 
Undertakings as diverse as construction and mining demand coordinated 
manned and unmanned systems design.
    Given good direction, consistency of purpose, and sufficient 
resources, Constellation, or an alternative program, offers a one-time 
opportunity for safety to be better hard-wired into overall NASA 
processes. Experience shows one of the best ways for a large 
organization to advance the state of art of its processes is to 
institutionalize procedures developed by a major new program that is 
highly motivated and staffed with the best and brightest. We would have 
liked for the Review of U.S. Human Space Flight Plans Committee to have 
more strongly highlighted this point as well.
    Lastly, the ASAP would like to champion a broader discussion of 
risk. Lives will be lost in future human exploration of space. We are 
lucky to have brave men and women willing to undertake exploration in 
support of mankind even in the face of these risks. We believe there is 
need for greater dialogue about risk and that NASA, the White House and 
the Congress must all shoulder the burden of risk and the necessity of 
being more transparent with the citizens of our country regarding that 
risk.
    Chairman Gordon, Ranking Member Hall, and distinguished Members, in 
closing I would like to note that the new NASA Administrator, Charlie 
Bolden, has been a member of the ASAP for the last several years. We 
know him very well and take strong comfort in his ability to lead the 
Agency during these challenging times. I thank you again for the 
opportunity to appear today.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               Biography for Vice Admiral Joseph W. Dyer
    Joe Dyer leads the Government and Industrial Robots Division. He 
comes to iRobot from a career in the U.S. Navy. Dyer last served as the 
Commander of the Naval Air Systems Command, where he was responsible 
for research, development, test and evaluation, engineering and 
logistics for naval aircraft, air launched weapons and sensors. His 
naval career also included positions as naval aviation's chief 
engineer, commander of the Naval Air Warfare Center, Aircraft Division 
and F/A-18 program manager. Earlier in his career, he served as the 
Navy's chief test pilot. Dyer holds a Bachelor's degree in chemical 
engineering from North Carolina State University and a Master's degree 
in finance from the Naval Post Graduate School in Monterey, California. 
He is an elected fellow in the Society of Experimental Test Pilots and 
the National Academy of Public Administration. Dyer chairs NASA's 
Aerospace Safety Advisory Panel.

    Chairman Gordon. I think that our confidence will be well-
founded.
    Dr. Griffin, is recognized.

   STATEMENT OF DR. MICHAEL D. GRIFFIN, EMINENT SCHOLAR AND 
PROFESSOR, MECHANICAL AND AEROSPACE ENGINEERING, UNIVERSITY OF 
                      ALABAMA, HUNTSVILLE

    Dr. Griffin. Thank you, Mr. Chairman. Chairman Gordon, 
Ranking Member Hall, Members of the Committee, thank you for 
inviting me here today for this important discussion. If there 
is anywhere in Washington where I feel at home, it is in front 
of this committee.
    You have asked for my perspective on the report of the 
Committee to review U.S. human space flight plans or their 
summary report and the issues that you should consider as it 
deliberates the future of U.S. human space flight.
    Now, I addressed many of those technical and programmatic 
concerns in the summary report in my written testimony, which I 
would like to enter for the record.
    Chairman Gordon. Without objection, so ordered.
    Dr. Griffin. And I would be happy to answer any questions I 
could during your later question and answer period, but I want 
to focus a few thoughts in my opening statement on other 
matters.
    The future direction of our nation's space enterprise 
matters greatly to everyone here, and that was obvious from the 
prior discussion that you really care. Well, we really care as 
well. As the Committee pointed out, as the Augustine Committee 
pointed out, human space flight is fundamentally about the 
strategic goal of human expansion into the Solar System. The 
last time human beings contemplated decisions with such a 
momentous future impact the result was the settlement of the 
new world by Europeans.
    We are here today because they made the decisions that they 
made, and I think we want to create the kind of a world where 
our remote descendants will be able to say the same thing.
    At least that was the path we were on until the release of 
NASA's 5-year budget ran out projection this last May, and at 
this time a year ago as I discussed with this committee, the 
original budget for exploration they put forth had already been 
eroded by some $12 billion to pay for other things. Now, the 
budget submitted this past May erodes that further to the point 
where some $30 billion has been now--if those plans were to go 
forward, removed from space exploration plans in the future.
    This has been amply noted in the hearing so far. I won't 
comment further. The issue is money. That issue renders mute 
all other debate as to whatever destinations we might pursue, 
whether they are the Moon, the near-Earth asteroids, Mars, or 
any debate about how we might get there. On the 40th 
anniversary of Apollo 11, this is a sobering thought. Coming so 
soon after the Columbia accident and two authorization Acts by 
the Congress to set NASA on course to carry out worthy and 
inspirational endeavors, I hope I am not the only one who finds 
it shameful that we are in this position.
    I am reminded of the warning made by the young President 
Kennedy before a joint session on Congress on May 25 of 1961, 
when he called upon our nation to go to the Moon. ``If we were 
to go only halfway or to reduce our sights in the face of 
difficulty, in my judgment it would be better not to go at 
all.'' The Congress and the Nation then responded, but with the 
budget in front of us we are poised to behave not like the 
Kennedy Administration but the Nixon Administration, where 
after spending literally a fortune to develop the spaceships of 
Apollo, we threw them away. We spent 80 percent of the money 
building them, 20 percent of the money using them, and they are 
gone.
    So do today's leaders want to be remembered like John 
Kennedy or Richard Nixon? That is the choice before us. Which 
choice best serves America? I think that is a rhetorical 
question.
    So I believe the recommendation that matters most from the 
Augustine Committee is this. ``Meaningful human exploration is 
possible under a less-constrained budget, ramping to 
approximately $3 billion a year above FY 2010, guidance and 
total resources.'' Well, while this may seem like a lot of 
money, I think I would like to put it in perspective.
    If we had just kept NASA level in constant dollars since 
1993 across two Presidential Administrations, no gains and no 
cuts, we would have more money in the NASA budget today than 
the Augustine Committee is recommending be put there now.
    Can anyone tell me, can anyone here tell me what as a 
nation we bought with the money we supposedly saved by cutting 
the budget for NASA in the last 15 years? I know what we bought 
with Apollo, and I can tell you what has been lost from NASA in 
the last 15 years as a result of those cuts.
    So the question is does this Congress believe strongly 
enough in the direction that it set into law with the NASA 
Authorization Act of 2005 and 2008? I hope so. Time is of the 
essence. OMB starts making decisions, concrete decisions in 
November, and they become very hard to reverse. The NASA 
Administrator is simply one voice among many when asking for 
resources from the Administration. The stronger voice comes 
from you ladies and gentlemen, speaking with one voice that 
NASA's budget needs an increase.
    Back in 1994, we embarked upon an experiment of cutting the 
NASA budget by 20 percent in real dollars. I think we are here 
today because we didn't like how that experiment turned out. Do 
we want to keep doing it?
    I will conclude by saying again that the question before 
us--pardon me. I will close by saying that that comment which 
was first asked in the Halls of Congress 48 years ago. ``If we 
are to go only halfway or to reduce our sights in the face of 
difficulty, in my judgment it would be better not to go at 
all.''
    Thank you.
    [The prepared statement of Dr. Griffin follows:]
                Prepared Statement of Michael D. Griffin

Chairman Gordon, Ranking Member Hall, and Members of the Committee:

    Thank you for inviting me to appear before this committee to 
discuss our nation's plans for human space flight, and the findings of 
a highly respected Commission chartered to review those plans. For this 
Hearing, I have been asked to provide my perspective on the 
Commission's summary report, especially as it relates to NASA's 
Constellation Program and the issues that Congress needs to consider as 
it deliberates the future of U.S. human space flight. I am honored to 
have been asked.
    I will begin by acknowledging my own gratitude to the Commission 
for highlighting, front and center, many issues with which I grappled 
for four years during my term as Administrator. The Commission has 
offered many observations with which I most strongly agree. Among these 
are:

        <bullet>  the reaffirmation of the fundamental strategic goal 
        of human expansion outward into the solar system;

        <bullet>  the explicit enunciation of both intangible and 
        concrete reasons--what I once labeled `real' vs. `acceptable' 
        reasons--for human expansion into space;

        <bullet>  the absolute criticality of stable policy direction 
        to the success of such an effort, and the resources to 
        implement that direction, across presidential administrations;

        <bullet>  the recognition of the impact of substantial, 
        consistent, long-term real-dollar budget cuts at NASA (more 
        than 20 percent in the last 15 years);

        <bullet>  the plain acknowledgement that more money is required 
        if worthy goals are to be attained, and that without such 
        funding, worthy goals in human space flight beyond the 
        International Space Station (ISS) will not be achieved;

        <bullet>  the identification of a specific amount for a 
        proposed increase, $3 billion annually, rather than merely 
        stating a requirement for ``more money'';

        <bullet>  the value of U.S. leadership in a program of human 
        expansion into space, while still embracing strategically 
        critical contributions by international partners;

        <bullet>  the distinct but complementary natures of scientific 
        discovery and human space flight in the expansion of the human 
        frontier;

        <bullet>  the requirement to implement this expansion with a 
        transportation infrastructure designed to last decades and 
        enable numerous destinations;

        <bullet>  the importance of heavy-lift launch systems to that 
        implementation scheme;

        <bullet>  support for the continuation of ISS operations 
        through 2020 (and I would add ``at least 2020'');

        <bullet>  the need for and benefit of a focused effort in 
        technology development and maturation as part of the overall 
        space exploration enterprise.

    The Commission is to be further congratulated for its forthright 
willingness to engage some of the more contentious questions in what 
has been a long-term but still unsettled policy discussion. There are a 
number of ``hot-buttons'' in the report that have been and will 
continue to be debated passionately until finally settled by decisions 
and actions. Among these questions are:

        <bullet>  whether or not there is a need for independent U.S. 
        Government human access to space, and if not, the 
        identification of those entities upon which we are willing to 
        depend for such access;

        <bullet>  whether or not it is in the larger interests of the 
        United States to invite international partnerships in regard to 
        capabilities which are on the so-called ``critical path'' to a 
        desired common goal;

        <bullet>  the degree to and roles in which the U.S. Government 
        should foster the development, and embrace the capabilities, of 
        ``commercial space'' in the furtherance of national goals;

        <bullet>  the proper role of NASA in guiding the human 
        expansion into space, and in particular NASA's disparate 
        functions as `innovator and technology developer' vs. 
        `designer/developer/smart buyer' of new systems, and `system 
        operator' vs. `service customer.'

    I have my own opinions on these matters, as do many others in the 
space policy community, and am pleased to share them if asked. Some of 
those opinions I hold in common with some members of the Commission; in 
other cases `not so much.' But the larger point is that these matters 
of national policy remain unsettled. I am truly gratified to see such 
substantive matters being raised by the Commission. They deserve 
correspondingly substantive debate, followed by decisive action.
    So, at the strategic level, I believe that the Commission has done 
an excellent job of raising issues that matter and providing clear 
indications as to what the worthy and proper course for the Nation's 
future in space should be.
    At the same time, however, the Commission also addresses numerous 
tactical issues concerning how to go about achieving the goals they 
support, and offers views as to the merits of various implementation 
approaches considered during their deliberations. I think it is fair to 
say that I am less enamored of their treatment of these tactical issues 
than I am of their strategic assessments.
    I believe that this is an important distinction to make, and that 
both strategy and tactics are important. Non-specialists will, and 
should, place great weight on the findings of this Commission. Where 
key tactical assessments and findings are at variance with those of 
knowledgeable and experienced practitioners, it can result in a level 
of public discord such that it becomes difficult for policy-makers to 
know how to proceed. Thus, it will be important to consider carefully 
many specific points which were addressed by the Commission before 
decisions are made by the President and finally codified into law--or 
not--by the Congress.
    The Commission notes, correctly, that NASA's Constellation program 
followed a design-to-cost strategy according to the budget profile of 
FY 2005. NASA's budget as stipulated in 2005 was essentially constant 
in real dollars, with only a slight increase above inflation. Since 
then, it has since suffered some $30 billion of reductions to the 
amount allocated to human lunar return, including $12 billion in just 
the last five fiscal years.
    The Commission notes that ``Given the funding originally expected, 
the Constellation Program was a reasonable architecture for human 
exploration.'' In an earlier public statement, Commissioner Sally Ride 
noted that, ``the program comes pretty close to performing as NASA 
advertised it would. . . . NASA's planning and development phase of 
Constellation was actually pretty good.'' A veteran of the 
investigations of both the Challenger and Columbia accidents, Sally has 
seen her share of troubled programs, and so this comment was one I 
found telling.
    Thus, one wonders why the Commission failed to recommend as its 
favored option the simplest one possible--providing the funding 
necessary to do the job. Of all the options considered, this is the 
most straightforward. Yet it was not recommended. Other options are 
possible, of course, and the Commission would have been remiss not to 
explore them as well. But not to include this one is, in my view, 
simply wrong.
    I say this because the civil space policy of the United States; 
e.g., ``what NASA does,'' has been a matter of law since the passage in 
December 2005 of the NASA Authorization Act. This came about only after 
a full 23 months of fulsome, healthy, and productive debate on the 
merits of President George W. Bush's announcement of the ``Vision for 
Exploration'' in January 2004. The ``Vision'' itself was a response to 
another presidential commission, the Columbia Accident Investigation 
Board, which noted as a root cause of the Columbia accident the lack of 
a long-term strategic vision for NASA--a finding which I supported then 
and support now. In my view, the Congress extended and improved upon 
the original ``Vision'' in passing that Act, and did so again in 2008. 
On both occasions Congressional support for NASA's direction was 
heavily bipartisan.
    Thus, when President Obama took office in January 2009, he 
inherited a civil space policy which had, in its essentials, survived 
six years of vigorous scrutiny, a space agency which had transformed 
itself to execute that policy, and could do so in a reasonable (if not 
very aggressive) timeframe on a constant-dollar budget as stipulated in 
2005. The Commission itself speaks of the need for stability in 
direction and funding, if NASA is to make reasonable progress and to be 
accountable for so doing. In my view, then, the most important question 
that Congress could ask of the new Administration and its Commission is 
this: exactly why does the policy which we have established in law--
twice!--need to be changed?
    We cannot discuss the civil space budget, budget stability, or 
future plans for human space flight without also addressing the future 
of the ISS. Certainly, the Commission fully recognized this point in 
their deliberations and in their Summary Report. However, the report 
devotes considerable attention to the issue of potentially 
decommissioning the ISS in 2016, trading the funds required for its 
extension against those required for the expansion of human space 
flight beyond LEO.
    I must be clear. In my opinion, any discussion of decommissioning 
and de-orbiting the ISS is irrelevant to the consideration of serious 
programmatic options. While it is certainly true that the Bush 
Administration did not provide funding for ISS past 2015, it was always 
quite clear that the decision to cancel or fund the ISS in 2016 and 
beyond was not within the purview of that administration to make. In 
the face of strong International Partner commitment to ISS and two 
decades of steadfast Congressional commitment to the ISS, it has never 
been and is not now realistic to consider decommissioning it in 2015, 
or indeed on any particular date which can be known today. The United 
States will not take unilateral action to cancel an international 
program which is the centerpiece of human space flight in every one of 
its fifteen participating nations, just because a particular date 
arrives on the calendar.
    It has long been known that some $3+ billion per year will be 
required to sustain ISS operations past 2015. Failure to plan for this 
is, and has been, a glaring omission in the Nation's budgetary policy. 
Thus, sustained funding of the ISS as long as it continues to return 
value--certainly to 2020 and quite likely beyond--should have been 
established by the Commission as a non-negotiable point of departure 
for all other discussions.
    The United States is now the majority owner of a 450 ton laboratory 
in space, a facility without compare. The fact that it took too long to 
build and that we spent more money on it than we should have is 
irrelevant to future decisions. We have it. We should use it to the 
maximum possible extent, for as long as we can make it last. But we 
must also go beyond ISS. The existence of future exploration programs 
cannot be traded against sustenance of the ISS on an ``either-or'' 
basis, as if that were a realistic option. If the Nation is to have a 
viable human space flight program, the requirement to sustain ISS while 
also developing new systems to go beyond low Earth orbit is the 
minimally necessary standard. If the Nation can no longer meet that 
standard, then it should be so stated, in which case any further 
discussion of U.S. human exploration beyond LEO is moot for the next 
two decades.
    The Commission correctly addresses, front and center, concerns 
about the looming ``gap'' in independent U.S. access to LEO and to the 
ISS after the Space Shuttle is retired. To deal with this problem, the 
preference for ``commercial'' options for cargo and crew delivery to 
low Earth orbit appears throughout the Summary, together with the 
statement that ``it is an appropriate time to consider turning this 
transport service over to the commercial sector.'' It must be asked: 
what commercial sector?
    At present, the only clearly available ``commercial'' option to 
lift Orion as designed is the European Ariane 5, designed from the 
outset to be human rated. Even so, Arianespace has estimated that 
several years would be required to prepare the Ariane 5 and its 
processing infrastructure to meet the demands of human space flight. I 
believe this to be correct. Launching a redesigned Orion crew vehicle 
on Ariane 5 is certainly a valid choice in the context of an 
international program. However, as an alternative to an independent 
U.S. Government capability for human transport to LEO, it is a valid 
choice if, and only if, the U.S. is willing to give up independent 
access to low Earth orbit, a decision imbued with enormous future 
consequences. Are we really ready to take that step?
    With an appropriately enlightened U.S. Government policy there may 
one day be a domestic commercial space transportation sector. Such a 
policy could, as the Commission correctly notes, follow along the path 
laid out by government sponsorship of commercial air transportation in 
the last century (for cargo, by the way, not passenger traffic). No one 
in the space community wants that capability to exist more than I. But 
it does not presently exist, and will not exist in the near future; 
i.e., substantially prior to the expected availability of Ares I and 
Orion, if properly funded.
    The key point is this: the existence of a guaranteed U.S. 
Government option for cargo and crew delivery to ISS is what allows 
government to take prudent risks to help bring about the development of 
a viable commercial space sector.
    The Commission acknowledges the ``risk'' associated with its 
recommendation, but is not clear about the nature of that risk. If no 
government option to deliver cargo and crew to LEO is developed 
following the retirement of the Space Shuttle, the U.S. risks the 
failure to sustain and utilize a unique facility with a sunk cost of 
$55 billion on the U.S. side, and nearly $20 billion of international 
partner investment. The Russian Soyuz and Progress systems, even if we 
are willing to be dependent upon Russia and are willing to pay whatever 
is required for their use, simply do not provide sufficient capability 
to utilize ISS as was intended. Further, they represent a single point 
failure in regard to such utilization. In my view, to hold the support 
and utilization of the ISS hostage to the emergence of a commercial 
space sector is not ``risky,'' it is irresponsible.
    The Commission claims that safety ``is not discussed in extensive 
detail because any concepts falling short in human safety have simply 
been eliminated from consideration.'' Similarly, the Commission was 
``unconvinced that enough is known about any of the potential high-
reliability launcher-plus-capsule systems to distinguish their levels 
of safety in a meaningful way.'' For those of us in the human space 
flight community, this is a ``hot button.'' The Commission has 
dismissed out of hand the extensive work that has been done to assure 
that Constellation systems offer the safest approach in comparison to 
all other presently known systems. This is simply unacceptable. Work of 
high quality in the assessment of safety and reliability has been done, 
and independently validated discriminators between and among various 
system options do exist, whether the Commissioners believe so or not. 
Further, the Summary Report is confusing as regards the distinction 
between ``reliability'' and ``safety,'' where it is discussed at all. 
The former is the only criterion of interest for unmanned systems; for 
manned systems, there is an important difference due to the existence 
of an abort system and the conditions under which that abort system can 
and must operate. Nowhere is this crucial distinction discussed.
    The Commission recommends consideration of a lunar mission 
architecture featuring a dual-launch of the Ares V Lite vehicle, 
instead of the Ares I/Ares V Constellation baseline. The rationale for 
this recommendation is difficult to understand, because economic 
considerations favor Ares V over Ares V Lite. Ares V costs 12 percent 
more to develop than Ares V Lite, but carries 14 percent more payload 
to LEO and 20 percent more payload to the Moon (50 mt vs. 60 mt). Even 
more importantly, the operations cost for the dual-Ares V Lite lunar 
mission concept is several hundred million dollars higher than the 
baseline plan, for the same reference program of two human and two 
cargo missions to the Moon each year.
    The Commission agrees that a heavy-lift launcher is needed for 
human space exploration beyond LEO. Because of the economies of scale 
inherent to the design of launch vehicles, the cost-per-pound of 
payload to orbit nearly always improves with increasing launch vehicle 
size. Thus, a heavy-lift vehicle should be designed to be as large as 
possible within the constraints of the facilities and infrastructure 
available to build and transport it. This provides the greatest 
marginal capability at the lowest marginal cost.
    The use of ``fuel depots'' as recommended in the Summary Report is 
equally difficult to understand. The Ares V offers the lowest cost-per-
pound for payload to orbit of any presently known launch vehicle 
design. An architectural approach based upon the use of numerous 
smaller vehicles to stock a fuel depot is inevitably more expensive 
than putting the necessary payload up in larger pieces. Further, a fuel 
depot requires a presently non-existent technology--the ability to 
maintain cryogenic fuels in the necessary thermodynamic state for very 
long periods in space. This technology is a holy grail of deep-space 
exploration, because it is necessary for both chemical- and nuclear-
powered upper stages. To embrace an architecture based upon a non-
existent technology at the very beginning of beyond-LEO operations is 
unwise.
    Finally, there are a number of concerns as to the methodology by 
which the Commission reached some of its conclusions.
    When trying to assess the relative merits of multiple options for 
an engineering design--in this case the design of space flight 
architectures--the core requirement to allow meaningful comparisons is 
to fix the goals and constraints so that these ``boundary conditions'' 
are common for all. In the Commission's report, various options are 
presented which are not linked by common goals and constraints. 
Instead, differing options with different constraints are presented to 
reach disparate goals, rendering it impossible to develop meaningful 
cost/schedule/performance/risk comparisons across them. These options 
possess vastly differing levels of maturity, yet are offered as if all 
were on an equal footing in regard to their level of technical, cost, 
schedule, and risk assessment.
    Significantly, no trade study was performed to assess how well each 
of the options considered by the Commission performed in meeting the 
goals and constraints of the existing U.S. civil space policy, as it is 
governed by the NASA Authorization Acts of 2005 and 2008.
    The Commission cites ``independent'' cost estimates for 
Constellation systems. There is no acknowledgement that these are low-
fidelity estimates developed over a matter of a few weeks, yet are 
offered as corrections to NASA's cost estimates, which have years of 
rigorous effort behind them.
    As one example, it is common in cost analysis to apply a large 
historical cost growth factor to preliminary estimates for new designs. 
The size of the factor depends on the nature of the work being done and 
the maturity of the original estimate. Work done by Aerospace 
Corporation to model cost growth in certain classes of robotic space 
systems suggests that a growth factor of about 50 percent might be 
appropriate for the design and development of a new system. Hence, that 
factor was applied to the assessment of ``clean sheet'' options offered 
to the Commission. However, the same factor was also applied to NASA's 
Constellation element designs. This is, effectively, ``double 
counting.'' Historical growth factors were incorporated into 
Constellation costs from the very first, and are reflected in delivery 
schedule projections for the various system elements, Ares I, Orion, 
etc. To apply a new ``growth factor'' on top of those in the original 
models is misleading.
    The Commission does not acknowledge NASA's commitment to 
probabilistic budget estimation techniques for Constellation, at a 65 
percent cost-confidence level--higher than has ever been the case in 
the past. This is a fundamental break from past practice at the agency, 
a key to providing more realistic information on program status to 
agency managers and external stakeholders.
    If the Commission believes that NASA is not using state-of-the-art 
methodologies to estimate costs, or is misrepresenting the data it has 
amassed, it should document its specific concerns. Otherwise, the 
provenance of NASA's cost estimates should be accepted, as no evidence 
has been supplied to justify overturning them.
    ``Technical problems'' with Ares I are cited several times in the 
Summary Report, without further discussion. Knowledgeable observers in 
and out of NASA would disagree strongly as to the severity of such 
problems. Constellation's ``technical problems'' are on display because 
actual work is being accomplished. Other options have no problems 
because no work is being done. There are never any technical problems 
on viewgraphs.
    To this point, in The Rickover Effect: How One Man Made a 
Difference, Theodore Rockwell recalls a priceless observation by Adm. 
Hyman Rickover. When confronted with a situation in which a variety of 
alternative concepts were being advocated to--and around--Rickover in 
place of the pressurized water reactor design he favored for the 
nuclear navy, Rickover noted that there were two kinds of reactors, 
``paper reactors''; i.e., new reactor concepts, and ``real reactors.'' 
A paper reactor has the following characteristics:

        <bullet>  It is simple.

        <bullet>  It is small.

        <bullet>  It is cheap.

        <bullet>  It is lightweight.

        <bullet>  It can be built very quickly.

        <bullet>  Very little development is required; it can use off-
        the-shelf components.

        <bullet>  It is in the study phase; it is not being built now.

    In contrast, a real reactor has the following characteristics:

        <bullet>  It is complicated.

        <bullet>  It is large.

        <bullet>  It is heavy.

        <bullet>  It is being built now.

        <bullet>  It is behind schedule.

        <bullet>  It requires an immense amount of development on 
        apparently trivial items.

        <bullet>  It takes a long time to build because of its 
        engineering development problems.

    Does any of this sound familiar?
    Finally, the Commission did not do that which would have been most 
valuable--rendering a clear-eyed, independent assessment of the 
progress and status of Constellation with respect to its ability to 
meet the goals which have been established in two successive NASA 
Authorization Acts, followed by an assessment of what would be required 
to get and keep that program on track. Instead, the Commission sought 
to formulate new options for new programs, treating these options as if 
their level of maturity was comparable to that of the baseline upon 
which NASA has been working now for more than four years. This ignores 
the established body of law which has guided NASA's work for the last 
four years and which, until and unless that body of law is changed, 
must serve as the common standard for any proposed alternative to 
Constellation as the ``program of record'' for the Nation's existing 
human space flight program.
    With the above having been said, where do we go from here? In the 
end that is the only important question. Let me be as clear as possible 
on a further point. When I noted above that the best option is to 
restore funding, I do not want to mislead this committee. It is not 
possible to recover fully, in terms of schedule, personnel morale, and 
programmatic decisions, from the damage which has been done to NASA and 
to Constellation by reductions in funding, particularly in the last 
couple of years, when the program has moved into full-bore execution. 
Past decisions and actions are a form of sunk cost. So I do not propose 
to render the program somehow magically ``whole'' by restoring past 
funding cuts. That cannot be done. But NASA does know--or can shortly 
assess--what is necessary to get Constellation back on track with 
regard to the best achievable schedule, from where we are today, for 
regaining access to LEO, returning to the Moon, exploring some of the 
near-Earth asteroids, and eventually voyaging to Mars.
    The details will, as I say, best come from NASA. However, I can 
suggest what I think might be the most viable alternative if we remain 
committed both to continuing ISS operations and to human exploration 
beyond LEO, yet cannot return all of the money to the NASA budget that 
has been removed in the last few years.
    In such a case, at least in my opinion, it would be logical to 
delay lunar lander development in order to make progress on the other 
elements. I don't think it is a very good idea to try to make it 
``smaller'' or somehow less capable in some other way. Current planning 
is for a crew of four on the Moon. Carrying two pairs of two EVA crew 
members is very logical, for all the reasons that apply to Shuttle 
today. It also has the advantage of providing ample opportunities for 
crew from international partners.
    If that rationale is accepted, then I think it makes more sense to 
delay the lander development than to compromise the design of a machine 
that will be in use for a very long time. So, the Altair lunar lander 
would be built when the money to do so becomes available. Ares I and 
Orion should be completed as quickly as possible to support ISS, and 
then Ares V should be built. They should not all be done in parallel; 
that causes them to stretch out and costs more in the long run. It 
makes more sense to start some elements later. In the meantime, once 
Ares V becomes available but prior to human lunar return, Orion could 
be used for some of the ``Flexible Path'' options cited by the 
Commission. Such options were, in fact, considered from the first 
during ESAS. The use of Constellation hardware for destinations that 
were not included in the Vision for Space Exploration (as initially 
stated) was a core part of our thinking during ESAS. I considered that 
to be a strong point of the chosen architecture--it was flexible about 
destinations. An Orion spacecraft that can take care of itself for six 
months around the Moon can go a lot of other places.
    I think that some variant of the approach outlined above makes the 
most sense going forward. It would position us as well for the future 
as we can be, given where we are today, unless a substantial sum of 
money can be allocated to the original plan for lunar return by 2020.
    The Summary Report suggests inviting international partners into 
the critical path of program development. This is a valid alternative 
if we are willing to depart significantly from prior policy. Europe, 
Japan, or Russia could build a lunar lander just as well as could the 
United States. Politically and culturally, this would be a big step. I 
sat in front of this Committee, with a different Chairman, when former 
Administrator Dan Goldin was advised in very direct terms to ``keep 
Russia off the critical path on the ISS.'' But, if we wanted to be more 
``inclusive,'' we could decide that the United States will develop the 
heavy-lift launcher and deep-space crew vehicle, but a return to the 
Moon will depend upon international partner contributions. I personally 
do not favor such an approach, but it is a technically feasible option.
    I would like to close with a quote from the Commission's Summary 
Report: ``Finally, significant space achievements require continuity of 
support over many years. One way to ensure that no successes are 
achieved is to continually pull up the flowers to see if the roots are 
healthy. (This committee might be accused of being part of this 
pattern!)''
    I couldn't agree more. As I see it, the Commission didn't find 
anything wrong with the current program, didn't find anything safer, 
more reliable, cheaper or faster. The roots are healthy. So, why throw 
away four years and $8 billion pulling up the flowers? Let's apply some 
plant nutrient and watch them grow.
    This, to me, is our best option for re-affirming a stable civil 
space policy.
    Thank you.

                               Discussion

    Chairman Gordon. Thank you, Dr. Griffin. I will remind you 
that Congress did appropriate every dollar that the last few--
or over the last few years it had been asked to.

                           Shuttle Extension

    Admiral Dyer, in your statement you made a very definitive 
statement concerning no extension of the Shuttle. Now, is that 
period or was that in context to 2020, in that--and would you 
extend it if it was recertified or if there was a mission or 
two missions that came up in the next, you know, short period 
that seemed to be very important? Is there still a period that 
you wouldn't go one more?
    Admiral Dyer. Three quick comments with regard.
    The first is the thing that scares us most is that kind of 
serial extension. Point number one. Point number two, we take 
this position because we think the risk is more than we should 
ask folks to shoulder, and we don't think there is full 
transparency with regard to that risk. Thirdly, the time to 
extend the Shuttle in the panel's opinion was several years ago 
when the supply chain was still intact and when there was an 
opportunity to move forward with the Measure Program. A number 
of folks, myself included, who had--who participate on the 
panel, have been or have lived through the extension of a 
number of Department of Defense aircraft programs after they 
were supposed to terminate. It is never a good experience.
    I would offer one other caution. Could you with significant 
money and with recertification extend the Shuttle? Yes. The 
money would be impressive. It would have to go well through the 
supply chain, and the risk of finding things demanding even 
more resources during recertification is a real risk.
    Chairman Gordon. Well, I think that is a thoughtful answer, 
but I, you know, then I could understand the incremental of 
going one more, one more, but with that same thought, I mean, 
is the amount we have the perfect amount? Why not one less? I 
mean, should not that decision maybe be reviewed at the time 
rather than this far out?
    Admiral Dyer. You know, we see in the military world that 
the operational commander always has the authority to proceed 
in the face of absolute requirements, and it would be an 
equivalent position in the opinion of the panel. The Shuttle is 
risky, it is becoming more so an extension beyond that which is 
planned through the current manifest we believe would be 
unwise.

             Constellation Program With Budget Augmentation

    Chairman Gordon. Thank you. Excuse me. Thank you, sir, and 
Dr. Griffin, in your written statement you said that you 
believe that the approach you have laid out would--or pardon 
me. Within your written statement do you believe that the 
approach you laid out would deliver a viable Constellation-
based exploration program on the same level of budgetary 
augmentation as the Augustine panel proposed?
    Dr. Griffin. I am not sure I understand your question. I do 
agree with the Augustine panel's----
    Chairman Gordon. Microphone.
    Dr. Griffin. I am sorry. I am not sure I fully understand 
your question. I do agree with Norm's conclusion that if $3 
billion a year were added to the program, that the Nation could 
have a viable space exploration program, continuing the 
Constellation development, and featuring a return to the Moon 
some time in the early to mid-2020s with other destinations as 
possible choices according to the flexible path option if so 
desired by the policy-makers of that time.
    Chairman Gordon. I am for--because we maybe called, and I 
want everybody to have an opportunity to participate, Mr. Hall, 
you are recognized for five minutes.

                       Effect of NASA Budget Cuts

    Mr. Hall. Thank you, sir. Dr. Griffin, you have a history 
of long service to the Nation and particularly to NASA, and I 
don't know of anybody that I think knows more about NASA or has 
more interest in it and gave more hard time to it than you have 
given, and I appreciate it.
    Do you remember when President Clinton came aboard? Is it 
your recollection that he put Vice President Gore kind of in 
charge of overseeing the NASA thrust?
    Dr. Griffin. Yeah. I do know that NASA's primary interface 
in that time was with Vice President Gore, and it was to Vice 
President Gore that our Space Station redesign plan and 
associated inclusion of Russia in the partnership was primarily 
briefed. Yes, sir.
    Mr. Hall. And do you remember that Gore came to this 
committee and told us that we had to have a 25 percent cut in 
our budget?
    Dr. Griffin. I believe that was Mr. Goldin who----
    Mr. Hall. I think Mr. Gore did it--said that to Mr. Golden.
    Dr. Griffin. That may well have been, sir. I don't--I was 
not involved in that discussion.
    Mr. Hall. But you remember the discussion took place.
    Dr. Griffin. Yes.
    Mr. Hall. It was in the papers and everybody knew about it.
    Dr. Griffin. I do remember.
    Mr. Hall. And do you remember that Sensenbrenner and Mr. 
Boehlert were Chairman and the first runner up over on the 
Republican--on the Democratic side?
    Dr. Griffin. Yes. I----
    Mr. Hall. And on the Republican side then----
    Dr. Griffin.--sat in front of Mr. Sensenbrenner on more 
than one occasion.
    Mr. Hall. Boehlert was more of a Democrat than he was a 
Republican, but he was a good man, did a good job, and I like 
him. I don't have anything against him, but he was Chairman, 
and Sensenbrenner was his--I don't know to call Sensenbrenner. 
He was second in command there. And over on the Democratic side 
was a guy named George Brown, and I was his first lieutenant I 
guess the way it was, and we, with Boehlert, I believe, we all 
four agreed that we would tell Golden to cut that budget 
skillfully, or we were going to cut it with a butcher knife or 
a baseball base, unskillfully. We didn't know how to cut it 
that far without endangering safety of the pilots.
    And for him to cut it and if he didn't cut it, we were 
going to, and do you remember that he did cut?
    Dr. Griffin. Yes, sir, I do.
    Mr. Hall. About what percent do you remember that he cut it 
to?
    Dr. Griffin. Well, during the 1990s the NASA budget was 
reduced in real dollars by about 20 percent.
    Mr. Hall. Do you have any recollection of the budget cut 
being in excess of 30 percent?
    Dr. Griffin. No, sir.
    Mr. Hall. How much did Mr. Goldin during his tenure cut the 
budget? What percent?
    Dr. Griffin. Well, NASA--I would have to say, sir, having 
been one, that NASA Administrators neither raised nor cut the 
budget. I would say that the only thing I could honestly say is 
that during the 1990s, the NASA budget went down by about 20 
percent in real dollars.
    Mr. Hall. From what it was when----
    Dr. Griffin. From what it was in 1993.
    Mr. Hall. Yeah. Did that have any effect on the program, on 
the NASA program, and if so, what was that effect?
    Dr. Griffin. Well, the effect over the last decade and a 
half of that downtrend has been to damage the efficiency with 
which NASA's programs have been executed and to stretch them 
out because as I think you gentlemen know quite well, when we 
cut budgets, we hardly ever remove corresponding programs from 
the suite of activities. Federal agencies are directed to 
continue their programs at a slower pace to fit the available 
budget, and that is greatly damaging to their efficiency.
    Mr. Hall. And I think it was their feeling at that time 
that Mr. Goldin probably did a good job of cutting the budget, 
but what was the effect of it?
    Dr. Griffin. Well, again, to cause most programs to stretch 
out and to cause our operations to continue with less 
efficiency than would have been desired. The earlier speakers 
made the point that NASA has too much overhead. I agree. NASA 
has the overhead associated with a larger agency.
    Mr. Hall. And do you remember that NASA was taking a lot of 
hard licks from the public at that time and from some people 
close to NASA that were taking a view of the NASA thrust to the 
extent that this Congress came within one vote of destroying 
the Space Program in this country. Do you remember that?
    Dr. Griffin. I remember we came within one vote of losing 
the Space Station.
    Mr. Hall. And it seems to me we have been going downhill 
ever since, despite the hard work that you put in on it and the 
money that you have asked for it and the money that you have 
almost demanded for it, and we haven't really backed you up and 
that we have not as I use the term, scratched and clawed and 
fought for those advance, that $3 billion per year advance over 
what we are spending, which is a small percent of the overall 
R&D that anything as important to this country, important to 
the youth of this country, the future of this country, as our 
Space Program.
    Dr. Griffin. Yeah. I agree.
    Mr. Hall. Are you going to comment on that some?
    Dr. Griffin. Well, I think it is as Mr. Gordon pointed out, 
Chairman Gordon pointed out, the last President did not request 
the funds necessary, the one before that did not request the 
funds necessary, and the current President is not requesting 
the funds necessary, and I believe the question for the 
Congress will be do you wish to go along with that or not.
    Mr. Hall. So you really and truly put it right back on the 
Congress, don't you?
    Dr. Griffin. Sir, Article 1 gives Congress the power of the 
purse.
    Mr. Hall. I agree with you, and I think we can do better, 
and I think we have got to start doing better. We got to start 
making some demands on something as important as the Space 
Program is to the United States of America and to the free 
world.
    I yield back my time.
    Chairman Gordon. Thank you, Mr. Hall. Just to briefly 
continue on your history lesson, in 1993, President Clinton and 
Vice President Gore inherited at that time what was the world's 
largest budget deficit. They turned that deficit in five years 
into a surplus that actually started paying down the debt. They 
did that not by having a vendetta against NASA but rather 
having to make tough choices and cuts across the board, passing 
things like limited number of time you can be on welfare and 
make tough choices.
    I think our country--I just want to put that in 
perspective. Hopefully we can start getting back to a surplus 
soon, paying down the debt----
    Mr. Hall. Would the Chairman yield?
    Chairman Gordon. Yes, sir.
    Mr. Hall. It is my recollection that that was done with a 
Republican Congress, and that is when I switched parties.
    Chairman Gordon. Well, actually, Mr. Hall, that was done 
without a single Republican vote and but I don't--and we don't 
need to get into that past history, but that----
    Mr. Hall. I am going to lose every battle I have with the 
Chairman. He has got the gavel.
    Chairman Gordon. Well, that was then. Now is now, and we 
are trying to move forward. And Ms. Giffords is recognized.
    Ms. Giffords. Thank you, Mr. Chairman, Mr. Hall, and 
Admiral Dyer, Dr. Griffin.

                  Commercial Transportation to the ISS

    We have heard a lot here today, and without dispute the 
thing that brings us together is really our love for a Manned 
Space Flight Program for the hard work that is done by NASA. So 
there is strong support, but specifically we are in this room 
today to talk specifically about this Augustine Report, and all 
of us respect Norm Augustine. This man is an extraordinary 
asset to our country. I like many talk about the Gathering 
Storm Report as one of the real roadmaps that we have to U.S. 
competitiveness.
    But that being said, I think it is important to actually 
read the language, and I don't know how many of the Committee 
Members actually took the time to read the report. It is not 
specially long. It is somewhat complex, but, Mr. Chairman, if 
you will allow me, quoting directly from page 6. ``The current 
Constellation Program Plan is to use the government-operated 
Ares I launch vehicle and the Orion Crew Capsule. However, the 
Committee found that because of technical and budget issues the 
Ares I schedule no longer supports the ISS.''
    Again, let me repeat. ``Because of technical and budget 
issues the Ares I schedule no longer supports the ISS.'' We 
heard Mr. Augustine today say that basically no other option or 
alternative actually at this point with the funding levels 
currently would support the ISS either.
    Going on, this is on page 7. ``The United States needs a 
way to launch astronauts to low Earth orbit, but it does not 
necessarily have to be provided by the government. As we move 
from the complex reusable Shuttle back to a simpler, smaller 
capsule, it is an appropriate time to consider turning this 
transport service over to the commercial sector. This approach 
is not without technical and programmatic risks, but it creates 
the possibility of lower operating costs for the system and 
potentially accelerates the availability of U.S. access to low 
Earth orbit by about the year of 2016. The Committee suggests 
establishing a new competition for the service in which both 
large and small companies could participate.''
    So that is really where I think the misunderstanding and 
the miscommunication takes place, and I am sorry that Mr. 
Augustine isn't with us, but I guess I have some serious 
reservations about the willingness of the Committee to 
essentially bet the farm on the yet-to-be-developed commercial 
crew capabilities to support the ISS in the lower-Earth orbit 
or LEO as we refer to it.
    I think everyone here supports a commercial space sector. I 
think we all want to see that developed, and we hope that 
happens, but I don't believe that we can be responsible 
stewards of the taxpayer dollars if we let hope and ideology 
trump the evidence, and specifically on the one hand the report 
asserts that the commercial system could accelerate the 
availability of U.S. access to LEO by about a year.
    But on the other hand, I see that the commercial companies 
that are trying to achieve essentially a much less challenging 
objective of delivering not people but actually cargo to LEO 
are struggling. For example, the NASA data indicates that 
SpaceX, a fine company doing incredible work out in California, 
has now slipped the readiness review for their first 
demonstration mission by almost two years from their initially-
planned date. And another illuminating data point in Dr. Ride's 
Scenario of Affordability Analysis Charts, she states that one 
of the review committee's assumption was, and I quote, ``An 
additional $200 million was added to the COTS cargo-based line 
in fiscal year 2011, to incentivize current COTS cargo 
demonstration.''
    Now, given that the companies involved in COTS and this 
demonstration project were just awarded $3.5 billion as a 
contract to transport the cargo to ISS, how on Earth did the 
review panel justify giving them another $200 million, and 
again, I just want to find out if that 3.5 billion is not 
enough of an incentive, and how can we especially have 
confidence in this report when looking at this commercial 
alternative, there are no specifics in terms of the safety for 
the crew, the costs actually as well that is going to go into, 
you know, developing this, and all of those specifics and 
details that NASA is responsible for but we really don't see 
presented in this.
    So, you know, I turn to the Chairman and to members of the 
panel to make sure that I am understanding this correctly, and, 
again, I know that you didn't--you don't come up with the 
report, but, you know, if you could give us some insight into 
how this happened and hopefully we can hear from, you know, Mr. 
Augustine as well to get some more specifics as this committee 
and the President, I mean, essentially, this whole exercise was 
to give a menu of options to the President and to the Congress 
to determine how we move forward.
    Admiral Dyer. I think speaking from the perspective of the 
ASAP we would agree with much of what you have said, 
Congresswoman. We note that there is a wide gap between the 
COTS partners' belief that they are human rating and that they 
are designing to human rating, vis-a-vis that which NASA 
believes would be required.
    Now, we have been critical of NASA here because, frankly, 
NASA has been whistling by the graveyard in this regard in that 
they have not engaged with the COTS contractors in terms of 
what it would take to transport NASA personnel into space.
    Dr. Griffin. Well, I certainly would say that I agree that 
at this point you are--to use your words, betting the farm on 
commercial transportation, is unwise. I have said so in 
writing. Now, I am one who believes that as with airplanes and 
air transport, there will be a day when the U.S. Government as 
one option can turn to commercial providers, but that day is 
not yet, and it is not soon.
    Also, I would say that the definition of a commercial 
provider is not one that you create by pumping in hundreds of 
millions or billions of government dollars. Typically we call 
that a prime contract. A commercial provider develops the 
capability on his own nickel and then searches for a customer. 
Now, I am in favor of incentives in government policy such as 
anchor tendency. I was in favor of providing some seed money, 
indeed, I created the COTS Program which provided that seed 
money.
    But to confuse the expectation that one day commercial 
transport of crew will be there, to confuse that expectation 
with the assumption of its existence today or in the near-term, 
I think is risky in the extreme. And it is risky because it 
holds hostage a $75 billion laboratory in space that this 
committee has authored 20 some votes in support of and I would 
say expects to see utilized to its fullest in the years ahead.
    Chairman Gordon. Thank you, Dr. Griffin, and Ms. Giffords, 
you raise very serious and legitimate questions. Hopefully 
within the next couple of weeks we will have additional meat on 
the bones in terms of the remainder of the report, the report 
which will then need to be digested and more questions asked, 
and I know you will play as Chairman of the Space and 
Aeronautics Subcommittee, will play a very, very important role 
in that, as well as your partner, Mr. Olson, who is the Ranking 
Member, who is recognized now for five minutes.

            Transforming NASA Expertise to Private Industry

    Mr. Olson. Thank you very much, Mr. Chairman. I would like 
to follow along the lines of questioning from my Chairwoman 
down there, and this is a question for you, Admiral Dyer.
    Up to this point, only NASA has had experience with setting 
requirements designing for human-rated launch systems. How 
difficult would it be to transfer that insight and experience 
to the private sector? Are the processes and requirements for 
human rating well understood by the commercial launch 
companies? How--would they be held to the same standards as 
NASA?
    Admiral Dyer. I think there is two pieces of that, sir. The 
first is NASA in their articulation of what is required for 
human ratings is in the midst of change, in a state of flux. 
There is much goodness associated with it because it is a 
change from specificity or direction to one of imposing good 
judgment. How good judgment is to be defined is a bit fuzzy 
from the Aerospace Safety Advisory Panel's perspective. So that 
is a part of it.
    The second part of it is once it can be clearly articulated 
what the human ratings process is to be, I think, yes, sir, it 
can be transferred to a COTS partner, but you have to start----
    Mr. Olson. Yes, sir.
    Admiral Dyer.--and that hasn't been an issue.
    Mr. Olson. Dr. Griffin, do you care to comment?
    Dr. Griffin. I don't think I have anything to add to what 
Admiral Dyer said. We had a long and close relationship during 
my tenure at NASA and his tenure as Chair of the ASAP, and I 
think we pretty much see things very similarly.

               Continuation of Constellation Development

    Mr. Olson. Thank you for that answer, and I have got a 
question for you, Dr. Griffin. Again, Constellation Program is 
progressing, and just last week the Orion passed a major 
milestone as you know through its preliminary design review.
    My point is should we continue the development of the 
Constellation? I mean, how much has already been spent on the 
program, and what is going to be lost if we stop in the next 
year or so?
    Dr. Griffin. Sir, I obviously, you know, from my written 
statement do agree with you or the import of your remarks. I 
think we should continue on with where we are, but I would 
agree with Mr. Augustine, who is an old and valued friend, that 
we have come to a point where we cannot continue on unless the 
program is properly funded. The Committee's, the Augustine 
Committee's service in pointing out that the train wreck is 
right in front of us is very valuable.
    So I think we should continue. I think we have to fund it 
properly. Had the Committee--this hearing is not about 
Constellation or about who comes up with what alternative to 
support the goal of human space flight. Had the Committee been 
able to surface an option which was clearly better than what 
was going on today, they would have had to get out of my way to 
rush toward it. The issue is not what hardware we use to 
accomplish the goal. The issue is the strategic goals. The 
Committee did not, I would predict, cannot surface a better 
option than where we are today, so our choice is stay on path, 
funding it appropriately, or determine that the United States 
is not going to go beyond the Space Station. That was what Mr. 
Augustine said would happen. If we tense not have the extra 
funding, the United States agreement go beyond Space Station. I 
think that that is not a worthy future for the United States in 
space.
    Mr. Olson. Thank you for those comments. I couldn't agree 
more, and sort of to follow up on that and some comments from 
the previous panel, there is a big difference in spending $3 
billion and investing $3 billion, and I think the Augustine 
panel was asking us to invest $3 billion, and I strongly, 
strongly support that, and I appreciate your comments to that 
effect as well.
    Dr. Griffin. I think that it was----
    Mr. Olson. Mr. Chairman, I yield back my time.
    Chairman Gordon. I am sorry, Mr. Olson. What was that?
    Mr. Olson. I yield back my time. You are up.
    Chairman Gordon. Thank you, and Mr. Rohrabacher, thank you 
for your patience, and you are--what we are going to do is you 
will have the last question on your side. Ms. Giffords said 
that she would like to ask another question, and then if that 
is the case, then we will conclude, because we have votes that 
will be shortly.
    Mr. Rohrabacher. All right. Thank you very much. Let me 
just note for the Chairman that when we did, when the budget 
was balanced, it was a Republican Congress as our Ranking 
Member noted, and the example that you gave of the great 
savings of the Welfare Reform that passed, it passed the 
Republican Congress after being vetoed three times by the 
President over the issue of whether illegal aliens should 
receive welfare benefits or not. Eventually he gave in, and 
that is why we balanced the budget.
    Chairman Gordon. Well, that and 1993, vote that accompanied 
that to set in motion the various cuts.
    Mr. Rohrabacher. All right.
    Chairman Gordon. But anyway----
    Mr. Rohrabacher. But I do want to----
    Chairman Gordon.--at the end of the day we all worked 
together and got it done.

                 Budget Limitations and Miscalculation

    Mr. Rohrabacher. All right. We did, and I--but I do want to 
bring up history, because history does relate to what we are 
talking about here, because what we are really talking about 
here is $3 billion, and all I keep hearing is isn't it sad that 
we are not allocating $3 billion more and how NASA, we--their 
budget went down at the time when we balanced the budget, along 
with everybody else's budget in the government.
    But let us take a look at the money that was spent. In 
1996, how much did the mistake of putting money into the X-33 
cost NASA? Mr. Griffin? Admiral?
    Dr. Griffin. I don't know.
    Mr. Rohrabacher. Several billion dollars. All right. What 
about NPOESS? How much does that cost NASA and American 
taxpayers?
    Dr. Griffin. Sir, NPOESS is an Air Force Program. NASA is 
a----
    Mr. Rohrabacher. Good.
    Dr. Griffin.--member of the Joint Program Committee but has 
no money in, has no power for NPOESS.
    Mr. Rohrabacher. Well, that is a good--let me put it this 
way. I consider NPOESS to be, maybe not a NASA program, but I 
have always considered it as part of the Space Program, and 
maybe I am wrong because we are dealing with the same companies 
that we deal with and okay. I understand it is $14 billion, it 
is a $14 billion program. There is five or six satellites and 
none of them have been launched so far.
    Okay. If it is not money supposedly going to NASA, maybe 
that money should have gone to NASA then. I don't know, but 
there is $14 billion that we don't have anything to show for 
it. A couple billion dollars is the extra three.
    Tell me about Space Station. How much has Space Station 
gone over the--its original budget request?
    Dr. Griffin. President Reagan directed that a Space Station 
be built for $8 billion, and the best estimate that I was able 
to obtain while running NASA was that the United States had 
spent or would spend by the time of station completion about 
$55 billion, and the partners collectively have spent maybe 20 
or will spend maybe 20 by the time it is deployed.
    Mr. Rohrabacher. So it is almost, you know----
    Dr. Griffin. It is a factor of ten.
    Mr. Rohrabacher. Factor of ten. And what about the Space 
Shuttle itself, which I remember was sold as something that 
would bring down the cost of getting into orbit? How much has 
that gone over the expectations?
    Dr. Griffin. The Space Shuttle was sold or was directed by 
President Nixon to be developed by--within $5.8 billion. NASA's 
cost estimate at that time was that it would cost around $9 
billion and ultimately to develop the Shuttle, about $9.9 
billion in then-year dollars, not today's dollars, was spent. 
The projected cost of the Space Shuttle depends on how old you 
are and what the lowest cost you remember was, but was 
invariably in the range of 14 to 16 to $18 million a launch. 
Today it is probably 20 times that.
    Mr. Rohrabacher. 20 times that. So let me just suggest that 
when we are talking about we don't have the $3 billion that 
maybe if NASA would have been doing a better job and let us 
include also totally the American Space Program because I will 
include NPOESS in that, and maybe if we had a Space Program, 
not just NASA but altogether it was better managed that we 
would have the money to do what we needed to do.
    And it is not to say that we can't look for new resources. 
I think that now that we are in this fix that maybe stimulus 
money would be something that would be looked at. Also I talked 
about this idea that we would tax AIG. I know that I did that 
in jest but let us face it. We gave AIG $150 billion, and now 
we are arguing about $3 billion for NASA. I mean, what do we 
get out of the AIG? I will tell you what we got. We got a lot 
of rich executives who kept their bonuses. This is what we got.
    So maybe we should be running things a little bit better. 
NASA should be doing a better job and maybe Congress should be 
a better, doing a little bit better job in allocating money in 
terms of what America's real priorities should be instead of 
enriching wheeler dealers from Wall Street and maybe give it to 
the American Space Program.
    Thank you very much, Mr. Chairman.
    Chairman Gordon. Thank you, Mr. Rohrabacher, and to 
demonstrated that we are rich in diversity of ideas, Ms. 
Giffords is recognized.

                    Methodology of Cost Assessments

    Ms. Giffords. Thank you, Mr. Chairman. One of the reasons I 
love serving on the Science Committee is because I think it is 
truly one of the most bipartisan, non-partisan committees. So 
we verged a little bit from this today, but I know the next 
hearing we are going to get back on track to all of our 
bipartisan love.
    Dr. Griffin, there has been considerable public discussion 
about whether the cost cited for NASA's Constellation programs 
are accurate. Could you give us some insight into your thoughts 
on the costing methodology used in the preparation of the cost 
assessments for the Review Committee?
    Dr. Griffin. Well, NASA's cost estimates for Constellation 
marked a significant departure, an enormous departure from the 
way NASA had prepared budgets in the past in the sense that 
they were prepared in a probabilistic sense, which cost 
estimation experts can discuss with this committee at great 
length, and we are prepared to a much higher confidence level. 
So it represented a departure from older ways of doing 
business.
    I was privileged to be provided the methodology by which 
the independent cost estimates were prepared for the Augustine 
Committee, and those independent cost estimates seemed not to 
recognize that fact at all. So essentially NASA was not being 
given credit for good behavior, and I would--it is one thing to 
be slapped about when you are doing poorly, but when you have 
done well, it would be nice to at least have that acknowledged.
    The second thing I would add is that there was no 
distinction made in the independent cost assessments between--
and the phrase has been used here several times today, view 
graph programs and real programs.
    Ms. Giffords. Uh-huh.
    Dr. Griffin. NASA's current program, like it or not, has 
four years of maturity behind it and $8 billion of money spent 
on it. The cost estimates are becoming firmer. More is known 
about the program, and yet the independent cost estimation 
methodology applied a factor of 1.5 for assumed cost growth to 
all programs, whether young and immature and idealistic or 
having more scars on them. That is not a good way to do 
costing. You have to look at the details of the individual 
program and its level of maturity before you can make a 
conclusion as to how much likely growth you should expect to 
see. That was not done.

                   Completion Dates for Constellation

    Ms. Giffords. Dr. Griffin, in terms of, essentially it is a 
multiple accounting situation, and I look at that in terms of 
how it much affect the estimated or rejected completion dates 
for Constellation and also the costs. Can you talk about that a 
little?
    Dr. Griffin. Well, sure. If you believe that the cost is 
going to be 50 percent higher as one example, and you know 
because you have been told what your budget expectations are, 
then whatever budget you had you should now expect the 
completion date to be 50 percent greater.
    Ms. Giffords. Uh-huh.
    Dr. Griffin. But it is worse than that because when we have 
to account for inefficiencies that go into a program as a 
result of stretching it out, it always gets worse.
    Joe, you look like you want to comment on that. I know you 
and I have both had substantial DOD experience where programs 
were stretched out, and it is just never as pretty as you would 
hope.
    Admiral Dyer. Congresswoman Giffords, my previous trips to 
the Hill to testify have always been when I was in uniform, and 
I had to be well behaved. I have got something I always wanted 
to share, and you gave me an opportunity.
    Resourcing major programs in our country has a lot in kind 
with airline overbooking. We just plan for an efficiency that 
is not real, and consequently, programs stretch out, and the 
overheads are applied over time, and the cost of a program 
grows dramatically vis-a-vis that which good resourcing would 
support.
    So this harmony, Mr. Chairman, that we appeal for in terms 
of resources and requirements and acquisition strategy is an 
important undertaking that if we could fund it at a proper and 
sustained and stable level would solve many of the problems 
that Dr. Griffin has highlighted here.
    Thank you, ma'am.
    Ms. Giffords. And Mr. Chairman, I mean, this is something I 
think that we really need to tackle on this committee is how do 
we get to the bottom of these apparent discrepancies so that 
when we really look at the numbers and the data that we know 
what the actual numbers and the data really, truly represent. 
And I think that is just important to hear from our panelists 
on that because, again, what the panels, at least the summary 
report has ignited is from a public and from a press standpoint 
this, you know, this set of beliefs that are out there and now 
we are finding because of the hearing today and the testimony 
by our panelists and the questions brought up by Members is 
that it is just not that, you know, cut and dry.
    So, Mr. Chairman, I am looking forward to seeing the full 
report and working with our panelists and others to try to get 
to the bottom of this.
    Chairman Gordon. Madam Chairwoman, I am looking forward to 
your hearings as you take the lead in getting to the bottom of 
it and report back to us.
    Ms. Giffords. Thank you.
    Chairman Gordon. And so let me conclude by, again, thanking 
our witnesses today. You have been with us a long time, and I 
believe we are going to--our timing is going to work out just 
about right with votes coming up shortly.
    I will also announce that the record will remain open for 
two weeks for additional statements from Members and for 
answers to any follow-up questions the Committee may ask of the 
witnesses.
    So the witnesses are excused, and the hearing is adjourned.
    [Whereupon, at 4:58 p.m., the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Norman R. Augustine, Chair, Review of U.S. Human Space 
        Flight Plans Committee

Questions submitted by Chairman Bart Gordon

Q1.  What methodology did the review committee use to determine that 
options would fit within the increased budgetary threshold it 
established despite options' differing maturity levels and thus greater 
uncertainty in cost?

A1. On behalf of the Committee, the Aerospace Corporation conducted an 
affordability analysis on all options using a process that is described 
in the Final Report. In summary, the analysis outputs key dates, 
element costs and manifests at the 65 percent confidence level. It also 
estimates the uncertainty on dates and costs. The affordability 
analysis corrects the input cost in several ways. First, it estimates a 
range of expected growth of the cost for each program element from 
System Design Review (SDR, Start of Phase B) to completion, based on 
historical data of NASA programs. At the average, this introduces a 51 
percent growth from the estimate held at SDR in the cost for 
development (DDT&E costs). For elements that have not reached their 
SDR, such as the Ares V or commercial crew service, this full 
correction was applied. For elements that have passed their SDR, credit 
was given for subsequent development and maturity of the design. For 
example, the mean cost of the Orion in the analysis, due to this 
factor, is only 25 percent higher than would be reported by the Program 
of Record at the mean. Other, more mature programs, such as the Ares I, 
receive credit by a similar process. In operations, a 26 percent growth 
factor was applied to unproven systems, and no growth factor at the 
mean was applied to existing systems such as the Shuttle or the ISS, or 
to defined budget items such as the technology program.
    NASA Headquarters asked the Program of Record to report cost and 
schedule at the 65 percent level, and the Committee attempted to report 
in a consistent manner. Note that on average, the difference between 
the mean of expected costs and the 65 percent confidence costs adds 
about 10 percent to all program costs calculated. Finally, the 
affordability analysis combines the development schedule of all the 
elements of the program. This process accounts for the additional cost 
to one element if another element it depends upon slips in its 
schedule. This integration of elements typically adds about an 
additional 10 percent to the total program costs, higher in more-
constrained budgets, and lower in less-constrained budgets.
    The Committee then examined the outputs of the affordability 
analyses, and it made interpretations to extract from them the primary 
information of interest, recognizing the inherent uncertainty in the 
analysis. The reporting by the Committee attempts to focus on its 
interpretation of the key milestones and associated uncertainties, and 
the pace of events after the initial milestone.

Q2a.  You testified that you were not asked to make recommendations and 
had not done so. However, Dr. Crawley testified that the final report 
would include an evaluation of the options against 12 parameters such 
as the potential to involve internationals, cost, and safety. If you 
are not making a recommendation--whether explicit or de facto, what is 
the purpose of scoring each of the options, which will of necessity 
result in a ranking of the options?

A2a. In order to conduct an independent review of ongoing U.S. human 
space flight plans and alternatives, the Committee recognized that it 
would be important to define a process that would equitably evaluate 
the wide range of options to be identified. Consistent with the systems 
engineering approach, it was important to clearly define the set of 
criteria against which all options would be assessed, and to define an 
evaluation process that would enable a fair and consistent assessment 
of each option. Since many of the evaluation criteria are not 
quantitative, the Committee did not intend that the evaluation would 
generate a single numerical score; rather, it would provide a basis for 
comparison across options, highlighting the opportunities and 
challenges associated with each. Assigning weights to individual 
figures of merit is within the purview of the ultimate decision-makers.
    This was the purpose of scoring each of the options and it was a 
requirement of the Committee's Statement of Task. At no time did the 
Committee seek to rank one option against another the overall scoring 
of the options.

Q2b.  Considering that the options offered by the review committee 
differ drastically in how well they can be defined at this time in 
terms of costs, technical risk, schedule, and other programmatic 
specifics, how can this ``apples to oranges'' situation result in 
equitable comparisons?

A2b. Since many of the evaluation criteria are not quantitative, the 
Committee did not intend that the evaluation would generate a single 
numerical score; rather, it would provide a basis for comparison across 
options, highlighting the opportunities and challenges associated with 
each. Assigning weights to individual figures of merit is within the 
purview of the ultimate decision-makers, not the Committee.
    The Committee deliberated at length in public meetings about the 
advantages and disadvantages of each option with respect to the twelve 
criteria used in the scoring. Wherever possible, quantitative 
analytical assessments were utilized to inform the ratings. In the end, 
however, it was usually necessary to interpret the available 
information through the considered judgments of the ten members of the 
Committee, based on their collectively rather extensive and broad 
experience in space matters.

Q3.  The summary report notes that ``human safety . . . is treated as a 
sine qua non'' throughout its report. At the same time, the report 
states that the review committee ``was unconvinced that enough is known 
about any of the potential high-reliability launcher-plus-capsule 
systems to distinguish their levels of safety in a meaningful way.''

     We have seen NASA use state-of-the-art methods like Probabilistic 
Risk Assessment to provide relative safety assessments of numerous 
launch vehicles that have been studied. What methodology did the review 
committee use to ascertain the safety levels of the potential 
alternative human space flight systems discussed in the report, 
especially given the range of maturity levels of those potential 
systems?

A3. Several factors contribute to a launch vehicle's risk: the design 
itself; the extent to which the limitations of that design are 
understood; the processes and people involved in preparing, launching 
and operating the vehicle; and ``random'' component or system failures. 
Studies of risk associated with different launch vehicles (both human-
rated and non-human-rated) reveal that many accidents are a result of 
poor processes, process lapses, human error, or design flaws. Very few 
result from so-called random component failures. The often-used 
Probabilistic Risk Assessment (PRA) is a measure of a launch vehicle's 
susceptibility to these component or system failures. It provides a 
useful way to compare the relative risks of mature launch vehicles (in 
which the design is well understood and processes are in place); it is 
not as useful a guide as to whether a new launch vehicle will fail 
during operations, especially during its early flights.
    The best architecture to assure such safe access would be the 
combination of a high reliability rocket and a capsule with a launch 
escape system. As mentioned previously, the Committee was unconvinced 
that enough is known about the potential failures of any of the 
prospective high-reliability launchers plus capsule and launch escape 
systems to distinguish their safety in a meaningful way. The 
uncertainty in the safety models is large compared to the differences 
they predict, among competing systems, and it is clear that many of the 
failure modes observed in practice are not captured in the safety 
analysis. Thus, the Committee did not ``ascertain the safety levels'' 
of the various launchers. We did include in our assessment those 
launchers that were relatively well defined and met the criteria 
specified above--a combination of a high-reliability rocket and a 
capsule with a launch-escape system.

Q4.  Did the review committee consider the extent to which each option 
could contribute to extending the existing partnership or enabling 
further international collaboration? If so, how was that assessment 
done? Did the review committee examine international capabilities and 
how they could be leveraged to benefit the various options?

A4. Yes. One of the twelve criteria used to assess the integrated 
options was ``Global Partnerships.'' Global Partnerships was defined 
as: ``provid(ing) the opportunity to strengthen and expand 
international partnerships in the human space flight program. These 
would include existing international partners, but should not preclude 
expansion to new partners, and would allow partners to participate in 
such a way that their contribution occasionally may be on the critical 
path to mission success. Participation by other countries will be 
advantageous not only from the perspective of encouraging global 
cooperation, but also in terms of creating opportunities for 
synergistic research, risk reduction and cost-sharing and technology 
interchange.''

Q5.  What cost, scheduled, and human-rating assumptions were used in 
the development and assessment of options that rely on ``commercially 
provided'' crew transportation systems? What prices were assumed for 
the provision of those services to the government?

A5. See section 5.3 Crew Launch to Low-Earth Orbit of the Committee's 
Final Report for a full discussion of the cost, schedule, and human-
rating assumptions used in the development of the Committee's findings 
on commercially provided crew transportation systems.
    The Committee assumed a recurring cost of $200M per flight for 
commercial crew transportation services.

Q6.  In considering options that rely on commercial crew transportation 
services to the space station (post-Shuttle), if the commercial crew 
capability does not meet NASA's human safety requirements or could not 
be ready in time to service the ISS, what fall-back alternatives did 
the Committee assume would be available to access the International 
Space Station with U.S. astronauts, and how quickly did the Committee 
assume those alternatives would be available?

A6. The Committee suggested that all new NASA-developed vehicles, 
including heavy-lift launchers, be designed so that they are human-
ratable, i.e., could be reasonably human rated at some point in the 
future. This is a compromise between human rating them at inception and 
not human-rating them at all. It preserves the option to human rate in 
the future at lower cost. NASA would benefit from this approach so that 
it could use its heavy-lift launcher as a backup crew vehicle with 
Orion, should the commercial providers fail to deliver for any 
combination of business and/or technical reasons.
    The availability of a human-rated heavy-lift launch vehicle depends 
on the type and configuration of the launch vehicle design and the 
available funding.

Q7.  The review committee found that the ``Investment in a well-
designed and adequately funded space technology program is critical to 
enable progress in exploration.'' How important is such technology 
development to the ability to implement the options presented by the 
review committee?

A7. An adequately funded space technology program was not deemed 
critical to the implementation of Options 1, 2, or 3 and hence was not 
included in the content of those options. The technology program was 
much more important to the successful implementation of Options 4 and 5 
and was consequently included in the content of those options. However, 
none of the options presented by the Committee required a significant 
technological breakthrough.

Q8.  The summary report states that: ``NASA should be given the maximum 
flexibility possible under the law to establish and manage its 
systems.'' What flexibility does the review committee envision NASA 
needing that the agency does not have today?

A8. There are several examples of this included in the Final Report, 
including:

        <bullet>  Programs need to be planned, budgeted and executed so 
        that development and operations can proceed in a phased, 
        somewhat overlapping manner.

        <bullet>  NASA should be allowed to reenergize its space 
        technology program and not allow it to be sacrificed for other 
        short-term exigencies.

        <bullet>  The NASA Administrator, who has been assigned 
        responsibility for the management of NASA, needs to be given 
        the authority to manage the organization. This includes the 
        ability to restructure NASA's resources, including its 
        workforce and facilities, to meet mission needs.

        <bullet>  Managers of programs need clear lines of 
        responsibility and associated authority.

        <bullet>  NASA should have the authority to move funds from one 
        human space flight budget line to another, and to obtain new 
        funds earlier than the typical two-year budgetary delay.

        <bullet>  NASA and its human space flight program are in need 
        of stability, having been redirected several times in the last 
        decade.

        <bullet>  NASA should have the ability to allocate work among 
        centers to reflect their legitimate ability to contribute to 
        the tasks to be performed, not simply to maintain a fixed 
        workforce.

        <bullet>  NASA should have the ability to acquire a 
        strengthened systems engineering capability and would be able 
        to encourage, or at least permit, the movement of particularly 
        talented individuals back and forth between government and 
        industry, as was widely done during the Apollo program.

Questions submitted by Representative Ralph M. Hall

Q1.  The Committee recommends increasing the current budget by $3 
billion per year by 2014, asserting that such an addition would support 
a viable human exploration program. How did the Committee arrive at $3 
billion per year and what is the level of confidence that--even at this 
higher funding level--NASA would be able to support and sustain a 
credible human space flight program?

A1. While it was formulating integrated options, the Committee quickly 
realized that viable options could not be found within the constrained 
budget. It then examined potential increases in the budget that would 
enable a sustainable and executable human space flight program. By 
examining several different potential expenditure profiles, the 
Committee arrived at this investment level that would provide for the 
extension of the ISS, allow progress towards exploration beyond LEO, 
and make an investment in technology. It provided a useful standard by 
which various options could be compared in a meaningful way.

Q2.  In your oral testimony you said it was your committee's view, ``. 
. . that there should be a compelling reason to change an existing 
program, and we believe that the existing [Constellation] program, 
given adequate funds, is executable and would carry out its 
objectives.'' About how much additional money would be necessary to 
execute the current program with the current milestones, including an 
Ares V heavy-lift capability? How much money would be required, and how 
should it be allocated, to close the gap?

A2. The Committee did perform an affordability analysis of the current 
Constellation Program, unconstrained by budget whatsoever. This option 
contained only two slight variations from the Program, instituted by 
the Committee: the provision for the Shuttle to be flown out in 2011; 
and additional funds for the retirement/transition of the ISS in 2016, 
after withdrawal of U.S. participation at the end of 2015.
    As assessed by the Committee, this case delivers Ares I/Orion in 
late 2016, achieves human lunar return by the early 2020s, and a human-
tended lunar outpost a few years later. These are very close to the 
dates held internally by the Constellation Program. However, the 
Committee's analysis indicates that in order to achieve the milestones 
on that schedule, the Program requires in real-year dollars (stated at 
65 percent confidence):

        <bullet>  About $145 billion over the period from 2010 to 2020, 
        which is:

                <bullet>  About $45 billion over the guidance of the 
                President's FY 2010 budget through 2020, and

                <bullet>  About $17 billion more than what is provided 
                in the ``less-constrained budget.''

        <bullet>  The expenditures reach $14 billion per year in FY 
        2016, about $2 billion above the ``less-constrained budget'' 
        and $5 billion over the FY 2010 budget for that year.

        <bullet>  The expenditures reach over $16 billion per year at 
        their peak in FY 2019, $3 billion above the ``less constrained 
        budget'' and $7 billion over the FY 2010 budget for that year.

    With respect to the gap, if the Shuttle is retired in 2011, the 
Ares I plus Orion will become available in 2016 or 2017, producing a 
gap of about five to six years. If the Shuttle is extended, within a 
fixed budget, the funds that would have paid for the development of the 
Ares I and Orion will be further limited, and that will delay their 
availability until late in the 2010s, producing a gap of at least 
several years at that time. Additionally, the infrastructure changes 
and workforce transition required for Ares I would be delayed. The gap 
is not closed, but shifts to the future. The only way to close the gap 
in U.S. crew launch is to extend the Shuttle to 2015 and to commission 
a commercial service for transporting crew to low Earth orbit--which, 
because it is potentially less expensive to develop, may, at some risk, 
be available by 2016, even with extension of the Shuttle. Other than 
this scenario, the Committee found no way to close the gap.
    Additional funding is required for Shuttle extension. Assuming that 
many of the current fixed costs must be carried somewhere in the NASA 
budget, the relevant cost is the marginal cost of flying the Shuttle. 
There are two factors to consider in estimating this cost. First, if 
the Shuttle extension is coupled with a strategy to develop a more 
directly Shuttle-derived heavy-lift vehicle as opposed to the Ares 
family, there would be synergy that takes maximum advantage of existing 
infrastructure, design and production capabilities. Second, since the 
Shuttle would be available to carry crew to and from the ISS, there 
would be some savings because the U.S. would not need to purchase 
Russian Soyuz flights (the present plan), although the necessity of 
maintaining a crew rescue capability could offset these savings to a 
degree.

Q3.  Mr. Crawley stated that the development of the Ares and Orion are, 
``. . . paced by the pace of technical development, that to build a new 
rocket will take a new human-rated rocket from either where we are in 
the Ares, or any fresh start of any type will take at least another 
five or six years.'' Given the significant progress that the 
Constellation program has already made, what is the rational for 
implying that ``any fresh start of any type'' has an equal chance of 
being successfully developed in the same time frame as completing the 
Constellation program?

A3. The original 2005 schedule showed Ares I and Orion available to 
support ISS in 2012, only two years after scheduled Shuttle retirement. 
The current schedule maintained by the Constellation Program now shows 
that date as 2015, but with a relatively low schedule confidence factor 
and little schedule slack on the critical path. The Committee 
commissioned the Aerospace Corporation to perform an independent 
assessment of the technical, budgetary and schedule risk on the 
Constellation Program. The results of the analysis indicate to the 
Committee that, under the FY 2010 budget profile, there is likely an 
additional delay of at least two years, and perhaps as much as four, 
indicating the Ares I and Orion would not be available until the late 
2010's.
    Regarding the comparison of the development schedule of the 
Constellation Program with the other integrated options, the Committee 
employed the Aerospace Corporation to conduct an affordability 
analysis, described in detail in the Final Report. This analysis 
combines the development schedule of all of the elements of the program 
and outputs key dates, element costs and manifests at the 65 percent 
confidence level. It also estimates the uncertainty of dates and costs. 
The Committee then examined the outputs of the affordability analyses, 
and made interpretations to extract from them the primary information 
of interest, cognizant of the inherent uncertainty in the analysis. The 
reporting by the Committee attempts to focus on its interpretation of 
the key milestones and associated uncertainties, and the cadence of 
events after the initial milestone.
    The Committee examined the technical feasibility of utilizing a 
commercial service to transport crew to low Earth orbit. First, it is a 
statement of fact that all of the U.S. crew launch systems built to 
date have been built by industry for NASA. The system under 
contemplation is not much more complex than a modern Gemini, which was 
built by U.S. industry over 40 years ago. It would consist of a three- 
or four-person crew taxi, launched on a rocket with a launch escape 
system. It would have an on-orbit life independent of the ISS of only 
weeks, but potentially be storable at the ISS for months. Such a 
vehicle would re-enter the Earth's atmosphere from the speed of orbital 
flight, rather than the significantly higher speed for which Orion is 
designed. Its smaller size makes possible the option of landing on 
land, potentially reducing operations cost when compared to a sea 
landing.
    Recently, several aerospace companies began developing new rockets 
and on-orbit vehicles as part of the commercial cargo delivery program. 
Several other U.S. companies are contemplating orbital passenger 
flight. There is little doubt that the U.S. aerospace industry, from 
historical builders of human spacecraft to the new entrants, has the 
technical capability to build and operate a crew taxi to low Earth 
orbit in a timeframe consistent with that assumed by the Committee.

Q4.  In oral testimony you explain that several of the options seek, 
``to further invest in development in a robust domestic/commercial 
space industry.'' Since this would presumably entail a new initiative 
over-and-above the currently budgeted COTS and the Cargo Re-supply 
Services contract, how much additional new funding would be required to 
do this?

A4. Given a properly structured procurement, estimates the Committee 
received from potential providers for the price of reaching initial 
demonstration flight of a crew-taxi capsule ranged from $300 million to 
$1.5 billion. For estimating purposes, the Committee assumed that three 
contracts were initiated, and one competitor subsequently dropped out, 
suggesting an expected cost to NASA of between $2 billion and $2.5 
billion. In addition, the Committee believes that if a commercial crew 
program is pursued, NASA should make available to bidders a suitable 
version of an existing booster with a demonstrated track record of 
successful flight, adding to the program cost. The best preliminary 
estimate of the Committee was about a $3 billion program for the 
fraction of the design, development, test, and evaluation (DDT&E) 
effort that would be borne by NASA. After multiplying by the historical 
growth factors and other multipliers associated with 65 percent 
confidence estimating, the cost carried in the Committee's final 
estimate of the cost of the program to NASA is about $5 billion.

Q5.  In Dr. Griffin's testimony he believes, ``at present, the only 
clearly available `commercial' option to lift Orion as designed is the 
European Ariane 5.'' The Committee was presented with proposals from 
United Launch Alliance regarding the use of the American-built Delta 4 
heavy. What did the Committee conclude regarding its feasibility? Would 
it be worthwhile for NASA to further examine Delta 4 heavy as an option 
for launching Orion?

A5. The DOD (Air Force) has indicated that it is technically feasible 
to human-rate the EELV systems, as verified for the Committee by an 
independent Aerospace Corporation study. The Committee has no opinion 
on whether it would ``worthwhile'' for NASA to do so.

Q6.  In your oral testimony you said, ``our belief is that the net cost 
of continuing to fly the Shuttle a couple times a year . . . is about 
$2.5 billion a year.'' Does that estimate include the cost to restart 
the closed production lines for the external tanks, and recertify the 
system? If not, how much additional money would be required? 
Considering that Ares assumes the use of some Shuttle facilities and 
infrastructure once the Shuttle is retired, would continuing to fly the 
Shuttle further delay the development schedule of the Ares and Orion?

A6. The costs to extend the Shuttle to 2015 assumed by the Committee 
are shown in the following table.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The foundational estimate for these costs is based on the data 
provided by the NASA Sidemount Team--Block 1/2 Sidemount Cost Team 
Estimate, Space Shuttle Program Assessment Office, July 2009. These 
estimates include the costs of restarting all necessary production 
lines and recertifying vendors and the orbiters themselves.
    Regarding the question of the effect of extending the Shuttle on 
the development schedule of the Ares and Orion, the only Integrated 
Option completed by the Committee that extended the Shuttle was Option 
4B. That option assumed commercial crew transportation to LEO, not 
Ares/Orion. Thus, the effect on Ares/Orion of extending the Shuttle was 
not determined by the Committee.

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  What is the break-down of the $3 billion dollar wedge (on a per 
year basis if possible) proposed by the review committee and how would 
the increase be phased in over the five-year period?

A1. See table below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q2.  In your written statement, you described the five integrated 
options as ``representative families, since one can interchange certain 
elements among the individual alternatives.'' What do you mean by that 
statement? Since the options are described as ``integrated'' and 
presumably were evaluated on that basis, in what manner do you believe 
that elements could be interchanged? Given your statement, what is the 
relevance for Congress of the options that you have included in your 
summary report?

A2. The Integrated Options were prepared in order to understand the 
interactions of the five key decisions described in the Summary and 
Final Reports, particularly with regard to cost and schedule. By 
formulating the Integrated Options, the Committee did not mean to 
constrain the possible final decision, but only to inform it. Other 
reasonable and consistent combinations of the choices are obviously 
possible (each with its own cost and schedule implications), and these 
could also be considered as alternatives. The Integrated Options 
evaluated are intended to be representative of the families of options 
that exist, yet without presenting an unmanageable number of 
alternatives. The Committee, in keeping with its charter, expresses no 
preference among these families, but does discuss the various 
advantages and disadvantages with respect to the evaluation criteria 
(without weighing those attributes).

Q3.  The summary report states: ``the ISS should be funded to enable it 
to achieve its full potential: as the Nation's newest national 
laboratory, as an enhanced test bed for technologies and operations 
techniques that support exploration, and as a framework that can 
support expanded international collaboration.'' What level of funding 
did the review committee assume was needed for utilization, and was 
funding for the enhanced utilization included in the $3 billion 
increase that the Committee state was needed for meaningful 
exploration? What level of funding was assumed for ISS operations 
beyond 2015?

A3. For the period FY 2010-2020, the costs associated with utilization 
in the ``enhanced utilization'' scenario was $2,077M (Real Year). This 
amount includes: multi-user system support (MUSS) functions, National 
Laboratory enabling functions, and expenses associated with conducting 
productive scientific, technological and industrial research and 
development (R&D), as well as educational projects designed to 
stimulate students to pursue careers in science, technology, 
engineering and math (STEM) for the future. It does not include cargo 
and crew transportation services. In addition, ``enhanced utilization'' 
assumes research investments planned by non-NASA entities under 
National Laboratory initiative (e.g., NIH, USDA, NSF, private firms and 
non-profits), and those investments are not included in the number 
above.
    Regarding whether this funding was included in the $3B increase, 
the Committee did not assume specific budget wedges went with 
individual cost items. For those options that included enhanced ISS 
utilization, the costs associated with that were included in the 
affordability analysis for that option, whether the option was 
constrained to the FY10 budget profile or used the ``less constrained'' 
budget profile.
    Regarding the level of funding for ISS operations beyond 2015, the 
following funding profile includes all functions necessary to safely 
operate and maintain the ISS in a continuously crewed and payload-
operating mode, including: program management; systems engineering, 
analysis and integration; sustaining engineering of spacecraft elements 
and distributed systems; mission flight and ground operations; and 
safety and mission assurance.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q4.  In developing cost estimates for each of the review committee's 
options, the Aerospace Corporation used a risk factor of 1.5 based on 
historical data. Was that factor inclusive of launch system 
developments or mainly instruments and satellite systems?

A4. The Aerospace Corporation has been involved in numerous past 
studies identifying the main causes of cost growth and schedule delays 
in NASA programs and projects. During this independent analysis, 
Aerospace has compiled a database of NASA missions, including both 
Human Space Flight and Non-Human Space Flight missions. The database 
captures cost growth as measured from the formulation phase start 
(approximately Phase B in NASA terminology), through launch. Projects 
in the database include: science missions, exploration missions, and 
there were also a limited number of ground operations projects within 
the database. The majority of the missions are satellite systems, but 
launch vehicle development projects are included as well.
    On average, the 77 historical NASA Projects (human space flight, 
non-human space flight, ground operations) included in the database and 
used for Aerospace's affordability analysis for the Committee 
demonstrated 51 percent cost growth from formulation start (Phase B) 
to launch. Human space flight missions--Gemini, Apollo, Mercury, Space 
Station and Shuttle--exhibited higher mean cost growth at 100 percent. 
While it could be argued that using the 100 percent cost growth factor 
is more appropriate for the elements in the Integrated Options because 
those elements are human space flight projects, the Committee chose to 
go with the mean historical growth factor of 51 percent which 
represented the average of a large body of NASA missions, so as not to 
over-penalize the cost growth effect.

Q4a.  Given that NASA's Constellation program's cost estimates were 
being held to a 0.65 confidence level, what was the rational for 
applying an additional 1.5 cost risk factor to the Constellation 
program's cost estimate?

A4a. On behalf of the Committee, the Aerospace team conducted an 
affordability analysis on all options using a process that is described 
in the Final Report. In summary, the analysis outputs key dates, 
element costs and manifests at the 65 percent confidence level. It also 
estimates the uncertainty on dates and costs. The affordability 
analysis corrects the input cost in several ways. First, it estimates a 
range of expected growth of the cost for each program element from 
System Design Review (SDR, Start of Phase B) to completion, based on 
historical data of NASA programs. At the average, this introduces a 51 
percent growth from the estimate held at SDR in the cost for 
development (DDT&E costs). For elements that have not reached their 
SDR, such as the Ares V or commercial crew service, this full 
correction was applied. For elements that have passed their SDR, credit 
was given for subsequent development and maturity of the design. For 
example, the mean cost of the Orion in the analysis, due to this 
factor, is only 25 percent higher than would be reported by the Program 
of Record at the mean. Other, more mature programs, such as the Ares I, 
receive credit by a similar process. In operations, a 26 percent growth 
factor was applied to unproven systems, and no growth factor at the 
mean was applied to existing systems such as the Shuttle or the ISS, or 
to defined budget items such as the technology program.
    NASA Headquarters asked the Program of Record to report cost and 
schedule at the 65 percent level, and the Committee attempted to report 
in a consistent manner. Note that on average, the difference between 
the mean of expected costs and the 65 percent confidence costs adds 
about 10 percent to all program costs calculated. Finally, the 
affordability analysis combines the development schedule of all the 
elements of the program. This process accounts for the additional cost 
to one element if another element it depends upon slips in its 
schedule. This integration of elements typically adds about an 
additional 10 percent to the total program costs, higher in more-
constrained budgets, and lower in less-constrained budgets.
    The Committee then examined the outputs of the affordability 
analyses, and it made interpretations to extract from them the primary 
information of interest, recognizing the inherent uncertainty in the 
analysis. The reporting by the Committee attempts to focus on its 
interpretation of the key milestones and associated uncertainties, and 
the pace of events after the initial milestone.

Q4b.  Given that the options differed widely in their levels of 
technical and programmatic maturity, why was the same 1.5 factor 
applied to Constellation and each of the other options?

A4b. The 1.5 factor was not applied uniformly to Constellation and/or 
the other options. Cost growth factors were uniquely applied to the 
options depending on the level of maturity of the systems. See the 
answer to question 4a above for an explanation of the process the 
Committee used.

Questions submitted by Representative Alan Grayson

Q1.  You commented in your testimony that extending the Space Shuttle 
is ``probably the least disruptive'' option ``to the ongoing workforce. 
And it's also the only option that closes the gap.''

Q1a.  Specifically, how would extending the use of the Space Shuttle 
affect NASA and contractor workforces?

A1a. Extending the Shuttle would have a beneficial impact on the near-
term workforce issues. Some workforce reductions would be indicated by 
the reduced flight rate proposed, but there would be several years in 
which to manage these reductions. In 2015, when the Shuttle finally 
retires, no NASA crew launch system would be available for several more 
years, and then the problem of maintaining key workforce skills would 
resurface. If, however, the commercial crew option were to be ready by 
2016 or so, some national competence in crew launch would be nearly 
continuous.

Q1b.  What effects would the expiration of the Shuttle have on these 
workforces?

A1b. The Space Shuttle is currently operated by a skilled workforce of 
over 12,500 individuals whose experience and expertise in systems 
engineering, systems integration, inspection, ground operations and 
assembly, test and checkout, and mission planning and operations have 
been developed and honed over decades. Once the Shuttle is retired, 
NASA and its contractors will be forced to shed or reassign much of 
that workforce due to the length of the gap in human space flight 
activity. Of these 12,500 workers, 1,500 are civil servants who, under 
current practices, will likely retain their jobs even though there is 
no program to which they can easily transition. The jobs in the 
contractor structure will likely be lost.

Q1c.  What other benefits might option 4(b) offer?

A1c. The use of more Shuttle-derived components lowers the development 
cost somewhat, and accelerates by about a year the availability of 
heavy-lift. But, the date of first availability is still in the early 
2020s at best, due to budget constraints and likely extension of the 
ISS. Therefore, even if a Shuttle-derived vehicle is developed, and the 
Shuttle is extended, there is about a decade of gap in heavy-vehicle 
operations.
    Option 4B also has the benefit of scoring well in the area of 
``Programmatic Sustainability'' because NASA is flying Shuttle missions 
between 2011 and 2015.

Q2.  Would it be beneficial for NASA to begin planning for funding the 
Space Shuttle through 2011? Would it make sense for the recipients of 
task orders, regarding the Shuttle extension, to price out for 2011, 
knowing that this creates no legal liability to NASA?

A2. Yes, it would be beneficial for NASA to understand the options for 
funding the Space Shuttle through 2011.
    Regarding the question of the pricing of task orders, that question 
is best posed to NASA as the Committee did not study this issue in any 
detail.

Q3.  Your review committee presented several options regarding the 
future of U.S. manned space exploration. Of these options, 4(b) would 
extend the Space Shuttle through FY 2011. Given the Committee's 
emphasis on safety, what evidence support option 4(b) as a safe choice?

A3. Although a thorough analysis of Shuttle safety was not part of its 
charter, the Committee did examine the Shuttle's safety record and 
reliability, as well as the results of other reviews of these topics. 
The Shuttle is one of the few launch vehicles that have flown a 
sufficient number of times to be considered ``mature.'' It has suffered 
two accidents in its 128 flights, so its demonstrated success rate is 
98.4 percent. Considerable effort has also been expended to develop a 
Probabilistic Risk Assessment for the Shuttle. That PRA shows a 
reliability of 98.7 percent, with the greatest contributor to risk 
coming from the threat of micrometeorite or debris damage while in 
orbit. Other launch vehicles in development have better PRAs, 
indicating that once they reach maturity, they will carry less risk 
than the Shuttle. In comparing Shuttle reliability to that of other 
launch vehicles, however, the most important factor is actual flight 
experience. The Shuttle completed its first 24 missions successfully 
before the Challenger accident; after returning to flight, it flew 
successfully 87 times before the Columbia accident, and has flown 
successfully 15 times since. This is not to say that future vehicles 
will not be more reliable--they likely will be--but the Shuttle has 
reached a level of maturity that those launch vehicles will not reach 
for many years.
                   Answers to Post-Hearing Questions
Responses by Vice Admiral Joseph W. Dyer, USN (Ret.), Chair, Aerospace 
        Safety Advisory Panel, NASA; President, Government & Industrial 
        Robots Division, iRobot Corporation

Questions submitted by Chairman Bart Gordon

Q1.  Your safety panel believes that the Constellation Program or an 
alternative option, offers a one-time opportunity for safety to be 
better ``hard-wired'' into overall NASA processes.

Q1a.  Can you expand on why you feel this is such a unique opportunity 
in NASA's history?

A1a. Major programs like Constellation offer a rare opportunity to set 
a new vector and to evolve the culture of an institution like NASA. The 
way business is done on the Constellation program offers a chance to 
build safety into the fabric of NASA's overall engineering and 
management work processes. A successful integration of safety into the 
Constellation program would give all of NASA's stakeholder's assurance 
that safety was integrated into the design from the very start, and not 
considered as a critical extra, yet separate, requirement.

Q1b.  What does this say about NASA's current institutional focus on 
safety?

A1b. NASA made significant progress in improving safety following the 
Columbia accident and via implementing recommendations put forth by the 
CAIB. The safety culture continues to further improve. However, the 
Constellation program offers the opportunity to accelerate the positive 
change and to make it a deep and lasting part of NASA's culture because 
BIG programs like Constellation typically are the birthing place for 
future leaders. Additionally, new processes and new technologies are 
derived for and come from major programs. Constellation offers a way to 
train future NASA leaders in the best safety practices.

Q2.  I understand that your safety panel believes that if Constellation 
is not the selected option, then any other new design needs to be 
``substantially superior to justify starting over.''

Q2a.  What evidence would you want from an alternative option to gauge 
that its safety is ``substantially superior''?

A2a. We would expect a level of detailed and validated analysis that at 
least approaches what present in the current NASA program of record. 
This includes design validation, test, and analysis of the test 
results. We have yet to see these data from the current funded COTS 
partners who seemed to be claiming Human Rating.
    NASA must seek crew survivability even when the mission fails. The 
risk of loss of crew should be significantly less than the risk of loss 
of mission.

Q2b.  In your view, what is the risk of starting over without such 
substantial difference being clearly identified in advance?

A2b. The risk in starting over without strong confidence that the 
selected alternative is substantially better is that one arrives at the 
same point having expended more time and money. Untested alternative 
plans almost always outshine programs that have undergone deep analysis 
and significant testing.

Q3.  How concerned should we be that Loss of Crew and Loss of Mission 
for alternative vehicles were not estimated nor safety estimates 
verified in the analysis of options by the review committee?

A3. It comes as no surprise that Loss of Crew and Loss of Mission (LOC/
LOM) were not estimated nor was concrete safety estimates given for 
alternative vehicles. Such data requires intensive analysis that is 
based on specific facts that include actual design and performance 
information for these vehicles. In the case of the alternative 
vehicles, this information was either not available or did not exist. 
Even if this information did exist and was available, the Committee did 
not have the resources or the time to conduct such an analysis. 
Therefore, great caution should be exercised with regard to employing 
alternative vehicles whose LOC/LOM characteristics are unknown in 
comparison to other vehicles whose design and associated data is far 
more mature and well defined. A prudent decision in this regard is only 
possible when comparing ``apples to apples.''

Q4.  Is a high-reliability launch system equivalent to a high-safety 
launch system for crew transfer Applications? If not, what additional 
factors need to be considered?

A4. No, safety depends on much more than just reliability; and, crew 
safety is far broader than system reliability. NASA must assure crew 
survivability even after system failure. (This is why we put ejection 
seats in fighter jets.) The Constellation's abort system is an example 
of such a system and should be considered an ABSOLUTE requirement in 
any manned spacecraft.
    Even the most reliable rockets that we can make still have a 
probability of anomaly on any given launch that is unacceptably high 
for crewed applications. Having inherent robustness and effective 
safety systems to protect the crew is essential to a Human Rated 
system.
    Robustness and the ability to continue to function even after 
subsystem failures are also critical to crew safety. Safety approaches 
such as these are the reason that the Loss of Crew probabilities can be 
so much lower than the Loss of Mission probabilities.

Q5.  In your prepared statement, you note that ``NASA needs to take a 
more aggressive role articulating human rating requirements for the 
COTS Project.''

Q5a.  What steps does NASA need to take that it is not already taking 
to ensure that commercial crew vehicles meet NASA's human rating 
requirements?

A5a. 

        1.  More than two years into the COTS program, NASA still has 
        not delineated the specific human rating requirements 
        applicable to the NASA-crewed COTS mission. While some within 
        NASA acknowledge their responsibility to define human rating 
        requirements that are necessary to certify the COTS vehicle as 
        ``human-rated,'' others within the Agency continue to delay 
        perhaps out of concern of giving further momentum to COTS 
        vehicle development in lieu of a more traditional NASA approach 
        which they believe to be better and safer.

            The ASAP has expressed some urgency with regard to Human 
        Rating and COTS vehicles. This urgency was communicated in the 
        following recommendation from its 2009 third quarterly meeting: 
        ``Recent events make it likely that use of commercial vehicles 
        to transport NASA crews to LEO will occur much sooner than most 
        had planned. While the Panel recognizes that authority and 
        direction to proceed has not yet been formally given to NASA, 
        it also recognizes that systems to meet this need are already 
        under development by COTS vendors. If these systems are ever to 
        provide the level of safety expected for NASA crews, it is 
        imperative that NASA's criteria for safety design of such 
        systems be agreed upon and provided to such COTS enterprises. 
        This issue is becoming more focused and more urgent. Human 
        rating of COTS for the delivery of NASA astronauts into space 
        is now one of the Panel's primary concerns. Recommend that COTS 
        HR requirements be established as soon as possible and 
        promulgated to those that seek to design systems for this 
        future mission.''

        2.  As a minimum, the ASAP believes that NASA should begin a 
        dialogue with the funded COTS partners to address the 
        requirements for human rating. While some efforts have begun to 
        do this, recent ASAP discussions with one of the funded COTS 
        partners indicates that they continue to have a major 
        misunderstanding about the scope of the human rating 
        requirements applicable to the entire mission involving NASA 
        crew transport.

        3.  Additionally, the funded COTS partners, the Congress and 
        Executive stakeholders should clarify how much or how little 
        they will be involved in the design, certification and 
        operation of the NASA-crewed vehicles in order to verify that 
        the funded COTS partners are compliant with the human rating 
        requirements. For a NASA program, this effort would typically 
        include: determining the adequacy of deliverable products 
        including hazard analyses and risk assessments; evaluating the 
        design at major milestone reviews; and, performing audits and 
        evaluations of the human rating process.

Q5b.  Does the ASAP have specific safety requirements in mind with 
regards to human rating?

A5b. The ASAP believes that the recently revised NASA human rating 
requirements provides an excellent baseline for developing human rating 
requirements for NASA-crewed COTS. NASA Procedural Requirements (NPR) 
8705.2B, Human Rating Requirements for Space Systems, issued May 6, 
2008, updated requirements and captured lessons learned applicable to 
the development and operations of crewed space systems developed by 
NASA. It is the intent of NASA that this document be tailored 
specifically for each NASA program. Tailoring of the NPR in developing 
human rating requirements for NASA-crewed COTS would provide assurance 
that similarity in developing human-rating programs for a NASA crew on 
a COTS vehicle and that for a NASA crew on a NASA-developed vehicle 
would optimally achieve an equivalent level of safety for the NASA 
crew. The challenge for NASA will be in determining how much engagement 
with the COTS contractors is required to insure the intent of the NPR 
is met.

Q5c.  What does the commercial sector need to be willing to do?

A5c. The commercial industry thus far appears to be very supportive and 
willing to meet the requirements and provide the necessary evidence to 
show that they are compliant. This said, they must first have a better 
understanding of what the requirements are, and then they need to 
incorporate those requirements into the design of their vehicles, 
including the development of the necessary analyses, assessments, and 
tests to show that the system is adequately safe for a NASA crew. The 
longer the delay in achieving an understanding of what the requirements 
must be, the harder it will be for the funded COTS partners to alter 
their designs.

Questions submitted by Representative Ralph M. Hall

Q1.  Crew safety is a paramount concern. The designs for the Ares and 
Orion are intended to maximize crew safety. NASA claims that the Ares/
Orion will be about 10 times safer than the Shuttle with the 
probability of loss of crew at 1 in 2850 for Ares/Orion.

Q1a.  Is this a credible estimate for Ares/Orion?

A1a. The ASAP is not able to answer this question independent of NASA's 
expertise. However, we have closely observed the quality of the NASA 
engineers that have performed this analysis. We hold them in highest 
regard and have faith that they are better schooled and experienced to 
render such opinion than any others.

Q1b.  Do you believe that any commercial human-rated launch system 
should be held to the same level of safety?

A1b. If transporting NASA astronauts into space, yes.

Q2.  In your testimony you said that the Aerospace Safety Advisory 
Panel believes that any proposals to replace the existing Constellation 
program need ``to be substantially superior to justify starting over.'' 
In your view, do any potential options have substantially superior crew 
safety?

A2. We have not seen compelling evidence that would indicate potential 
options are substantially superior.
                   Answers to Post-Hearing Questions
Responses by Michael D. Griffin, Eminent Scholar and Professor, 
        Mechanical and Aerospace Engineering, University of Alabama, 
        Huntsville

Questions submitted by Chairman Bart Gordon

Q1.  The review committee asserted that a $3 billion per year wedge 
(reached by FY 2014) added to the President's FY10 exploration funding 
runout would be sufficient for the alternative human exploration 
program options identified in its summary report to be carried out on 
the timetables contained in the report. Do you agree with the review 
committee's assessment? If not, why not? What would be required to 
develop credible estimates of cost, schedule, and technical risk for 
any of the non-Constellation options, and how long would it take to do 
so?

A1. Broadly speaking, I agree with the review committee's assessment 
that a sustained increase of some $3B/year in NASA's budget is 
sufficient to attain worthy goals, including: (1) completion of the 
ISS, and continued use of that facility past 2015, (2) replacement of 
the space shuttle with a new crew transportation system, (3) human 
lunar return and the establishment of a lunar outpost, and 4) 
development of the technology and systems required for a voyage to 
Mars. I do not agree that presently-held goals for these 
accomplishments; e.g., replacement of the shuttle by 2015 or lunar 
return by 2020, can be achieved by means of a graduated ``wedge'' in 
spending to reach the additional $3B. A more abrupt increase is needed 
if previously planned schedules, or something close to those schedules, 
is to be achieved. For example, the difference between a five-year ramp 
to a $3B increase, and an immediate increase, is $7.5B. This is a 
significant difference in total available funding, at a crucial time. 
There is presently no funding in the NASA budget for sustained ISS 
operations past 2015, and NASA's Exploration Systems budgets have 
already been eroded by some $12B relative to the level provided by the 
President's budget in 2005. Given these facts, attainment of reasonable 
schedules (e.g., deployment of Ares/Orion around 2015, return to the 
Moon soon after 2020) requires an immediate and significant boost in 
NASA's funding.

Q2.  Based on your experience, what methodology could be used to 
ascertain the safety levels of the potential alternative human space 
flight systems discussed in the report, especially given the range of 
maturity levels of those potential systems? How concerned should we be 
that Loss of Crew and Loss of Mission were not estimated nor safety 
estimates verified in the analysis of options by the review committee?

A2. The best methodology available today to assess relative safety 
levels of potential human space transportation system alternatives is 
the informed use of probabilistic risk assessment (PRA) techniques. 
This is a well-established discipline which, when systematically 
applied, yields conclusions concerning the relative merits of various 
system approaches that are accepted by the community of practice in 
system design and safety analysis. The fact that the Augustine 
Committee chose to ignore entirely the entire discipline of 
quantitative risk analysis is, in my opinion, unacceptable. Real 
differences in system performance exist, can be identified, and can be 
taken into account when comparing alternative systems. These factors 
have not only a human dimension, involving as they do the potential for 
determination of the risk levels to which U.S. and international 
partner astronauts will be exposed, they also have financial 
implications. Each of the three fatal human space flight accidents this 
nation has sustained has resulted in collateral damage measured in many 
billions of dollars--and that is a very conservative estimate. On 
financial grounds alone, to advocate the development and deployment of 
a new government space transportation system that fails to incorporate 
reasonably available safety practices, would be an unsound practice. 
That the Committee took no note of these issues is a significant 
concern.

Q3.  What, in your view, are the most significant technologies needed 
to support any of the alternative options going forward? How mature are 
those technologies? Do any of those technologies require breakthroughs? 
Have the technology development risks of the various options been 
appropriately addressed and compared in the Augustine panel's review?

A3. Regarding the options put forth by the Augustine Committee, certain 
recommended paths do in fact involve or assume technology which does 
not presently exist and is unlikely to exist in the timeframe of 
interest in pursuing those options.
    For example, the use of so-called ``propellant depots'' as an 
enabling element of space exploration beyond low Earth orbit, is ill-
advised. The zero-propellant-boiloff technology required for such 
depots does not presently exist. This is in fact an important 
technology, and will be crucial for Mars exploration irrespective of 
what technique is ultimately employed to reach that planet. But to put 
the development of that technology in series with human lunar return or 
other activities short of the first voyage to Mars is unwise.
    Similarly, the assumption that there will exist near-term 
commercial human space transportation capability, and that such 
presumed capability should guide our plans to support and utilize the 
ISS, is equally ill-advised. I have no doubt that commercial human 
space transportation can and will be accomplished, hopefully first by 
U.S. providers. But until and unless it does, planning for the support 
of the ISS by means of such capability is, again, unwise.
    As another example, the Augustine Committee recommends proceeding 
forward on a mission to visit a near-Earth asteroid as an alternative 
to human lunar missions. The clear implication is that such a mission 
would be easier and cheaper to accomplish than a lunar mission. In 
point of fact, the contrary is true. Any near-Earth asteroid mission 
will require in-space stays of at least many months, and maybe a year 
or more, far from home, with in some cases no option for an early 
return in the event of problems. The required total energy to reach any 
known asteroid target substantially exceeds that necessary to reach the 
Moon, and in many cases exceeds that necessary to reach Mars. There are 
many aspects of near-Earth asteroids which make them very interesting 
targets for future human missions; however, such missions are not 
properly sequenced ahead of lunar missions insofar as their technology 
readiness is concerned.
    In general, I think it may be said that the Augustine Committee 
offers numerous recommendations and options for which the actual 
technical readiness required to accomplish them does not exist, or is 
at a very immature state of development, yet the Committee sets these 
alternatives forth as if they were on par with existing programs 
underway at NASA and its contractors.
    Finally, I cannot leave this topic without noting that, in my view, 
the issues facing the U.S. space program in the near future are not 
primarily issues of technology. They are issues involving the choice of 
goals, and the resolve to commit the Nation to the path toward those 
goals, once chosen, for a sufficient period to reach them. At no time 
was this fact more clearly visible than in the immediate aftermath of 
the Columbia accident, when the lack of long-term strategic planning 
for the Nation's space program was directly cited by the Columbia 
Accident Investigation Board as a contributory factor to that accident. 
This was remedied by the enunciation of worthy goals for the program in 
the Vision for Space Exploration by President Bush in 2004, and twice 
endorsed and enhanced by the Congress in the NASA Authorization Acts of 
2005 and 2008. What is needed now is to hold course toward those goals, 
not the further and continued exploration of various possible goals and 
various possible means of reaching them, as regrettably exemplified by 
numerous options put forth by the Augustine Committee.

Q4.  The sustainability of the workforce, critical skills, and 
industrial base needed to carry out human space flight programs in the 
future are important considerations in determining the appropriate path 
forward. What is your view on how Congress should factor in those 
considerations when choosing among alternatives?

A4. The Nation's human space flight program is, in my opinion, a 
strategic national asset with regard to the perception and reality of 
U.S. leadership in the conduct of large technically challenging 
enterprises at the very edge of human accomplishment, and the creation 
and sustainment of the industrial base to accomplish such things. In 
the context of the U.S. industrial base as a whole, even an enterprise 
on the scale of human space flight--a $10 billion per year effort--is a 
niche activity. It is an extremely challenging and difficult niche, but 
a niche just the same, and when such activities are not sustained in a 
predictable way, their practitioners of necessity find employment in 
other areas. This occurred during the poorly orchestrated transition 
between Apollo and Shuttle, and it is happening again as we prepare to 
retire Shuttle and transition to . . . what? This lack of certainty is 
devastating to the technical professionals who sustain the space 
program, and to the many, many third- and fourth-tier contractors who 
support the program. We are losing those contractors by the day, and 
the uncertainty as to our future national commitment to a stable human 
space flight program is making it worse.

Q5.  How, in your view, should international capabilities be leveraged 
to support human space flight and exploration going forward? What is 
your view on how the ISS should be used to further the development of 
international partnerships in support of human exploration?

A5. I think the first point that must be made in regard to 
``international capabilities'' is that they are in fact not our 
capabilities; they are furnished by our partners--at their option--
either cooperatively in support of programs which are judged 
meritorious by those partners, or they are furnished on a contractual 
basis, for money. The first approach characterizes our relationship 
with the Canadian, European, and Japanese space agencies on ISS, while 
the latter properly describes our relationship with the Russian Space 
Agency. Given these facts, I consider it to be unwise in the extreme to 
place international partner capabilities in the so-called ``critical 
path'' toward key national goals. Thus, if it is important to the 
United States to maintain clear preeminence in space exploration and 
exploitation, to be a clear leader among nations in this area--and I 
believe that it should be--then the ability to reach low Earth orbit 
without our own national systems should never be ``offered up'' for 
international cooperation. Similarly, the next step--the ability to 
again reach the surface of the Moon on our own terms--is not 
appropriately sacrificed to the demands of partnership. We should wish 
our partners well in the development of their own such capabilities, 
should they wish to develop them. But we should give ours away. Thus, 
international partnerships should be negotiated and arranged on our 
part with a view toward expanding and enhancing the space enterprises 
in which we engage, but not in a manner that allows others to control 
whether they are possible at all.
    The ISS is key to the future of long-term human space exploration--
i.e., beyond the Moon--in two ways: understanding human physiological 
requirements for space flight and finding ways to meet them, and 
developing systems capable of sustaining human presence in space for 
the length of time necessary for a voyage to Mars. If we didn't have a 
space station, we would need one to meet these objectives. These 
questions will not be answered by 2015, or 2020, or any date certain. 
For this reason, the ISS should be sustained and supported by the 
Congress as long as it is practical and reasonable to do so.

Questions submitted by Representative Ralph M. Hall

Q1.  Dr. Griffin, the review committee report suggests that now is the 
time to consider using commercial services for delivery of cargo and 
crew to low Earth orbit. With regard to crew, you appeared to take 
strong exception to that assumption. Why do you feel so strongly that 
the U.S. must have a government developed and government owned 
capability to deliver humans to space?

A1. I take ``strong exception'' to that assumption because the most 
casual glance at the overall U.S. aerospace industry reveals that, at 
present, the capability to provide commercial service to the 
International Space Station for either cargo or crew. The former will 
likely be available within several years, assuming that we extend the 
planned lifetime of the ISS so as to make commercial investments in 
such capability a reasonable proposition. Crew capability will mature 
some years after that; it is simply not consistent with 50+ years of 
space flight history to suggest that new, entrepreneurial firms seeking 
to develop commercial human space flight capability will successfully 
do so in the near-term.
    Now, I am one who believes that the U.S. Government should take all 
reasonable steps, as a matter of policy, to aid in the establishment 
commercial space transportation services for both cargo and crew. 
Appropriate incentives could include guaranteed ``anchor tenancy'' 
markets when capability is demonstrated, tax incentives, small amounts 
of ``seed'' capital, and other inducements for private investors. 
However, such incentives should not go so far as to include a plan to 
hold ISS support, resupply, and utilization hostage to the appearance--
or the lack thereof--of commercial space transportation services. That 
is foolhardy.
    If we believe, as I do, that space transportation in general and 
human space flight in particular is a valuable strategic asset for the 
United States, then it is essential that this asset be preserved and 
protected. It becomes a responsibility of the U.S. Government to insure 
that it continues to exist, to provide, protect, and promote it by 
various means. One of the means is the fostering of the presently 
nascent commercial industry; another is to ensure that government 
capability to accomplish the mission is always available.

Q2.  Assuming that we fly the International Space Station until 2020 or 
later, and NASA is able to get a budget increase similar to the $3 
billion per year that Mr. Augustine's panel recommended; when in your 
opinion could NASA deliver the Constellation system (Ares I and Orion) 
to support the Space Station, and when would we be able to return to 
the Moon?

A2. If NASA receives a $3B increase as recommended by the Augustine 
Committee, and a substantial amount of this money is made available 
immediately, then I believe that Ares I/Orion can be kept on track to 
deliver crew and cargo to ISS in 2015, and human lunar return can be 
accomplished by the early 2020s.

Questions submitted by Chairwoman Gabrielle Giffords

Q1.  What do you mean by ``commercial'' space flight? What was your 
intention (given that definition) in establishing COTS, and how do you 
think government should involve ``commercial space'' in future plans?

A1. By ``commercial'' space flight, I adhere to the conventional use of 
the term with regard to commercial industry, business practices, etc. A 
``commercial'' space flight enterprise would be one in which the 
founders and owners of that enterprise develop a business plan to 
furnish cargo/crew transportation service to low Earth orbit, raise 
funding from private capital sources (possibly with some small amount 
of government ``seed money'') to support that plan, complete their 
product development, demonstrate that it works, and then offer service 
to government and other industry customers. A commercial space flight 
enterprise is NOT one in which the government is asked to provide 
billions of dollars on the front end in order to initiate the 
development. My intention in putting for the COTS program as NASA 
Administrator was to provide the ``seed funding'' mentioned above; in 
my own opinion, such seed funding should rightly be no more than five 
percent or so of the likely total to be needed. If the enterprise is to 
be ``commercial,'' then the money at risk must be largely private 
funding.
    It must be understood that I offer no objection to the expenditure 
of government funds through traditional negotiated contracts (``prime 
contracts,'' in the jargon of the business) for the development of 
government space transportation capability. To the contrary, I strongly 
advocate that we do just that, whether or not commercial capability is 
brought into being. Government space transportation is a strategic 
asset for our nation; it's existence should not depend upon whether or 
not commercial providers also exist, any more than we eschew the use of 
government aircraft merely because private alternatives exist.
    However, I must make the key point that in the above case, such 
negotiated contracts are hardly of a ``commercial'' nature. To label a 
new, entrepreneurial space flight enterprise ``commercial'' simply 
because it is not a traditional large prime contractor is to misuse the 
term completely.
    When and as commercial space flight capability does come into 
being, I believe it should be the policy of the U.S. Government to use 
it to the maximum extent possible, consistent with basic guidelines 
including standards on safety, economics, and maintenance of strategic 
government capability.

Q2.  In your written statement, you state that Ares I and Orion should 
be completed as quickly as possible to support ISS, and then Ares V 
should be built. You indicate that they should not all be done in 
parallel because that would cause them to stretch out and cost more in 
the long run. The Augustine panel's summary report asserts that funding 
the program of record (not including an extension of ISS) would enable 
Ares I/Orion in FY 2017 and a return of humans to the Moon by the mid-
2020s. Do you agree with the review committee's assessment, and if not, 
why not?

A2. If the money suggested by the Augustine Committee is restored to 
NASA, then I believe Ares I/Orion could still be delivered by 2015. I 
believe the cost and schedule estimates produced by Aerospace 
Corporation for the Augustine Committee were conservatively biased; 
without such biases, the competing alternatives offered by the 
Committee would not look so favorable. The Augustine Committee report 
makes a clear effort to treat all options ``equally,'' in some sense. 
However, all options are not in fact equal. Constellation cost and 
schedule estimates have some four years of maturity and refinement 
underlying them. The other alternatives discussed by the Committee have 
no such maturity, and in some cases are merely ideas. Yet, all are 
presented as if they are equally suitable as potential future 
alternatives.

Q3.  What accounts for the apparent discrepancy between NASA's 
Constellation program cost and schedule estimates and those developed 
by the Aerospace Corporation for the Augustine review committee? How 
can Congress resolve that discrepancy?

A3. The Augustine Committee cost estimates, performed by The Aerospace 
Corporation, are exceptionally conservative. This was done, as best I 
can determine from outside the deliberations of the Committee, because 
arbitrary cost and schedule growth factors were applied to all options 
considered by the Committee. It is my understanding that a 50 percent 
growth factor was applied to NASA cost estimates. However, what the 
Committee apparently did not understand, or did not credit, was that 
conservative growth factors were already incorporated into NASA's 
estimates, which were professionally performed in accordance with the 
accepted state-of-the-art. The ``bottom line'' is that there was clear 
evidence of ``double counting'' the cost reserve for NASA programs, 
which makes the Constellation option appear unfavorable in comparison 
to others.
    Numerous contractors exist with the capability to do state-of-the-
art cost estimation. That expertise can be brought to this task, and a 
new, independent assessment of Constellation costs developed. However, 
NASA is a government agency; one does not properly hire contractors to 
review and judge the work of government agencies. In any case, much of 
NASA's cost estimation work has involved the use of external 
contractors reporting to NASA managers, so it could be difficult to 
obtain a new cost estimate for the Constellation Program without 
relying upon contractor personnel who already have a vested interest in 
the outcome. Nonetheless, if the necessary independence can be assured, 
a new estimate can be developed for comparison to NASA's estimate.

Q4.  What information does Congress and the White House need to 
adequately evaluate the Constellation program versus the other options 
offered in the summary report? In light of the sketchy schedules, low 
fidelity of cost estimates of options, and uncertainty of relative 
risks provided so far, other than for the current Constellation 
program, how can Congress go about comparing the risks, costs, and 
safety of each option in a meaningful manner? In your view, which 
exploration strategy currently is the lowest risk with regards to 
projected costs, technical risk, and ability to meet schedules, 
assuming resources are matched to the tasks?

A4. In my view, Congress and the White House must trust NASA, as a 
government agency, to furnish to Congress the information necessary to 
make decisions as to the Nation's forward path in human space flight. I 
believe that NASA has furnished faithful estimates as to the resources 
required to complete the Constellation program, and can adequately 
assess the potential utility of other options, if asked to do so. If 
the Nation did not have NASA to manage the publicly-funded space 
program of the United States, one would have to create an entity to do 
so. That entity would be subject to the same criticisms by many and 
various self-interested parties as has been NASA. That would not change 
the fact that the U.S. Government must have such an entity to make 
decisions as to the allocation of public funds in support of national 
space goals. NASA is that entity today, and the agency should receive 
the support of Congress in making and adhering to difficult decisions.
    In my view, the Constellation Program as presently envisioned 
offers the safest, lowest cost, lowest technical risk, most certain 
technical path toward the goals enunciated for NASA by the NASA 
Authorization Act of 2005, and renewed by the Congress in 2008. These 
goals--to finish the ISS, to retire the Shuttle and replace it with a 
new and safer system for human access to low orbit, to return to the 
Moon, to establish the capability for a permanent outpost on that body, 
and to prepare the way for later voyages to Mars--are the proper goals 
for our space program, and should be retained and supported by the 
Congress.

Q5.  The Augustine review committee's Flexible Path option envisions 
excursions to multiple destinations in the solar system. How does the 
Flexible Path's multi-destination approach compare to that of the 
Constellation program? What was the reason for selecting the Moon as 
the initial destination under the Constellation-enabled architecture?

A5. It is not fully or widely appreciated that Constellation is a 
``multi-destination'' architecture. The Constellation system can reach 
every destination--the Moon, near-Earth asteroids, Lagrange points, 
Martian moons, and Mars itself--which has been offered up as a 
possibility in the so-called ``Flexible Path.'' The so-called 
``Flexible Path'' option is a thinly-veiled attempt to bypass the Moon 
as a near-term exploration destination, primarily to save the money 
required to build a lunar lander and support a future lunar base. It is 
an attempt to claim a great, forward-looking space program, without 
actually have to pay for it. The so-called ``Flexible Path'' is 
actually less ``flexible'' than Constellation, because it will not (if 
put into place) enable a human lunar return in the near-term.
    It is also not widely understood that NASA did not ``select'' the 
Moon as the initial Constellation destination. The Moon as a 
destination was recommended by President Bush in the initial Vision for 
Space Exploration in 2004, and ratified, twice, by the Congress in 2005 
and 2008. In designing the initial elements of Constellation to go 
first to the Moon, NASA is carrying out its instructions, not self-
generating them.
    With that said, I believe that in fact the Moon is the proper 
initial post-ISS destination. The Moon is proving to be a most 
interesting place, scientifically, based on the returns from a spate of 
recent robotic missions to that body. The Moon is the closest 
destination available to us; we can learn how to venture in deep space 
for long periods of time, and live off-planet, while remaining only 
three days from home in the event of an emergency. The Moon is far 
easier to reach, on far a more regular schedule, than any of the near-
Earth asteroids. The Moon is much easier to reach than the moons of 
Mars, which themselves can be more difficult to reach than the Martian 
surface itself. By utilizing the ISS and the Moon, we will develop the 
technology and experience to voyage, later, to all of these other 
destinations and many more. But the Moon comes first, in my view.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   

</pre></body></html>
